<html>
<title> - IMMIGRATION RAIDS: IMPACTS AND AFTERMATH ON MISSISSIPPI COMMUNITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]



 
  IMMIGRATION RAIDS: IMPACTS AND AFTERMATH ON MISSISSIPPI COMMUNITIES

=======================================================================


                              FIELD HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 7, 2019

                               __________

                           Serial No. 116-49

                               __________

       Printed for the use of the Committee on Homeland Security
                                     


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                 U.S. GOVERNMENT PUBLISHING OFFICE 
 40-465 PDF                 WASHINGTON : 2020                              
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           Mark Walker, North Carolina
J. Luis Correa, California           Clay Higgins, Louisiana
Xochitl Torres Small, New Mexico     Debbie Lesko, Arizona
Max Rose, New York                   Mark Green, Tennessee
Lauren Underwood, Illinois           Van Taylor, Texas
Elissa Slotkin, Michigan             John Joyce, Pennsylvania
Emanuel Cleaver, Missouri            Dan Crenshaw, Texas
Al Green, Texas                      Michael Guest, Mississippi
Yvette D. Clarke, New York           Dan Bishop, North Carolina
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3

                               WITNESSES
                                Panel I

Mr. Cliff Johnson, Director, MacArthur Justice Center, University 
  of Mississippi School of Law:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
Fr. Odel Medina, Pastor, St. Anne Catholic Church, Carthage, 
  Mississippi:
  Oral Statement.................................................     9
  Prepared Statement.............................................    10
Ms. Constance Slaughter-Harvey, President of the Board, Legacy 
  Education and Empowerment Foundation:
  Oral Statement.................................................    14
  Prepared Statement.............................................    15
Ms. Lorena Quiroz-Lewis, Lead Organizer, Working Together 
  Mississippi, Mississippi Immigrant Coalition:
  Oral Statement.................................................    17
  Prepared Statement.............................................    19

                                Panel II

Mr. Jere T. Miles, Special Agent in Charge, Homeland Security 
  Investigations, Immigration and Customs Enforcement, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    31
  Prepared Statement.............................................    33
Mr. Mike Lee, Sheriff, Scott County, Mississippi:
  Oral Statement.................................................    35
  Prepared Statement.............................................    37
Mr. William Truly, Jr., Mayor, Canton, Mississippi:
  Oral Statement.................................................    37
  Prepared Statement.............................................    39

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Letter From Matthew T. Albence.................................    41
  Statement of Kelli Garcia, Immigration Policy Counsel; Brandon 
    Jones, Mississippi Policy Director; Julia Solorzano, Staff 
    Attorney; and Meredith Stewart, Senior Supervising Attorney, 
    Southern Poverty Law Center..................................    65
  Statement of Jessie Hahn, Labor & Employment Policy Attorney, 
    National Immigration Law Center..............................    68
  Statement of Bill Chandler, Executive Director, Mississippi 
    Immigrants Rights Alliance (MIRA)............................    71
  Statement of L. Patricia Ice, Director, Mississippi Immigrants 
    Rights Alliance (MIRA) Legal Project.........................    73
  Statement of Amelia S. McGowan, Senior Attorney, Jackson 
    Office, Mississippi Center for Justice.......................    75
  Statement of the Center for Law and Social Policy (CLASP)......    79
  Statement of Community Change Action and the Fair Immigration 
    Reform Movement (FIRM) Action................................    82
  Statement of Evelyn A. Servin, Previous Mississippi Community 
    Hotline Coordinator, Membership and Communications 
    Coordinator, Southeast Immigrant Rights Network..............    83
  Letters........................................................    85
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Excerpt, Federal Register......................................    49
  Article, New York Times........................................    60
  Article, Houston Chronicle.....................................    62
  Transcript, All Things Considered..............................    63

                                Appendix

  Question From Chairman Bennie G. Thompson for Lorena Quiroz-
    Lewis........................................................    95
  Questions From Chairman Bennie G. Thompson for Jere Miles......    95


  IMMIGRATION RAIDS: IMPACTS AND AFTERMATH ON MISSISSIPPI COMMUNITIES

                              ----------                              


                      Wednesday, November 7, 2019

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                      Tougaloo, MS.
    The committee met, pursuant to notice, at 10 a.m., in 
Holmes Hall Auditorium, Tougaloo College, 500 County Line Road, 
Tougaloo, Mississippi, Hon. Bennie G. Thompson (Chairman of the 
committee) presiding.
    Present: Representatives Thompson, Jackson Lee, and Green 
of Texas.
    Also present: Representative Cohen.
    Chairman Thompson. May I have your attention?
    We are just about to start our hearing and Natalie, where 
are you? Natalie needs to make a couple of announcements before 
we start.
    Ms. Nixon. Good morning, everyone. Before we get started if 
I can just ask everybody to check your phones and other 
electronic devices to make sure that they are on silent or 
vibrate.
    Thank you very much.
    Chairman Thompson. Most of these people here have heard 
that every Sunday morning in church just before the minister 
gets up and bring that dynamic sermon.
    So let me welcome all of you here to historic Tougaloo 
College. What we would like to do in convening this meeting is 
we have some vacant seats, and I would ask those Michelle Obama 
students who want to sit down, absolutely, we would love to 
have you to take a seat. All of the people that we invited are 
here. So there are some vacant seats. For the other young 
people, I know you can last a little while for this hearing.
    Let me formally bring our Committee on Homeland Security to 
order. The committee is meeting today to receive testimony on 
immigration raids' impacts and aftermath in Mississippi 
communities.
    I am very proud to welcome my colleagues today, not only to 
my home State and the 2d Congressional District of Mississippi, 
but I am also glad to welcome you to my alma mater, Tougaloo 
College, where I got started 1 or 2 years ago, involved in 
voter registration, civil rights, and doing a lot of things 
throughout Mississippi Delta.
    Tougaloo was at the center of the civil rights movement in 
Mississippi and helped set the stage for activism that changed 
the direction of our country.
    The college is a fitting venue for the Committee on 
Homeland Security to meet today to examine the recent 
immigration raids and their effect on Mississippi families, 
children, and communities.
    Three months ago on August 7, 2019, U.S. Immigration and 
Customs Enforcement sent hundreds of agents to Mississippi to 
arrest nearly 700 workers at 7 chicken processing plants across 
the State.
    It was the largest State-wide workplace raid in the U.S. 
history with 680 community members arrested. Far from being 
hardened criminals or posing a public safety hazard, those 
arrested were trying to provide for their families, send their 
children to school, and build a life free from violence, crime, 
and poverty at home.
    But perhaps the most troubling aspect of these raids is the 
way ICE failed to take into account that children would be left 
without one or both parents. As a result, hundreds of children, 
by some estimates, over a thousand children were directly 
affected by the raids.
    Children finished their first day of school only to find 
that there was no one to pick them up or no one waiting for 
them at home. Schools, social service, and entire communities 
had to scramble to try to find separated children.
    In the town of Forest, Mississippi, strangers and neighbors 
brought crying children to a community gym where the owner had 
offered them a place to sleep. Bedding and food was donated 
until children could be united with their parents or, in some 
cases, extended families.
    The day after the raids, ICE believed that all children 
were reunited with at least one parent. Sadly, we know this is 
not the case. We know of a single mother who remained in ICE 
custody even though her 3 minor children are being cared for by 
an unrelated neighbor.
    In some cases it appears both parents or single parents 
could be deported. But what happened to the children? Will 
families be forced to send children back to a country they had 
never seen or speak the language or grow up without any 
parents?
    What happens when the children are U.S. citizens? Because 
of the way this operation was carried out, our communities are 
living in fear. People are afraid to leave their homes. 
Children are terrified to go to school because they may return 
home to find their remaining parent gone, and local businesses 
are suffering.
    I want to take a moment to share a few words recorded by a 
girl whose father was arrested in the raids.
    [Audio played.]
    Chairman Thompson. Well, we got a little technical 
difficulty. We are going to move forward.
    Adam, it is hard to understand so we will just--but that is 
a 15-year-old young lady who is describing the impact of what 
the raids did to her and how she is still suffering personally 
from it.
    The other relatives--adult in the home is afraid to come 
out of the home for fear of being picked up. So it is a real 
challenge a lot of families are facing.
    Clearly, families are still suffering from these recent 
raids. However, none of the employers have experienced any 
legal consequences yet.
    Mike Hurst, the U.S. Attorney for the Southern District of 
Mississippi, has stated, ``To those who use illegal aliens for 
a competitive advantage or to make a quick buck, we have 
something to say to you. If we find you have violated criminal 
law, we are coming for you.''
    Yet, not one employer or person from management has been 
arrested. No one has been charged. In fact, prosecution of 
companies who hire undocumented workers have declined compared 
to previous administration numbers.
    The selective way the administration is enforcing our laws 
is disappointing. Today, we are joined by witnesses from all 
walks of life who will share their perspectives about what 
happened on August 7, what has happened in the aftermath of the 
raids and what can be done to help those who are still 
suffering as a result.
    I hope to also hear from our witnesses about how we can 
help ensure the mistakes ICE made during the recent raids are 
not repeated here in Mississippi or elsewhere in the country.
    I support immigration reform to ensure that employers can 
hire the workers they need and good people who want to work to 
support their families will have a way to do so.
    In the mean time, I am committed to ensuring that the 
Department of Homeland Security enforce the laws and keeping 
our values and exercise discretion where necessary to protect 
children and other vulnerable populations.
    Again, I want to thank Tougaloo College for hosting us and 
look forward to this productive hearing.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                            November 7, 2019
Tougaloo College--Mississippi
    Tougaloo College is where I started to get involved in politics and 
civil rights, organizing voter registration drives throughout the 
Mississippi Delta. Tougaloo was at the center of the civil rights 
movement in Mississippi and helped set the stage for activism that 
changed the direction of our country. The college is a fitting venue 
for the Committee on Homeland Security to meet today to examine the 
recent immigration raids and their effect on Mississippi families, 
children, and communities.
    Three months ago, on August 7, 2019, U.S. Immigration and Customs 
Enforcement sent hundreds of agents to Mississippi to arrest nearly 700 
workers at 7 chicken processing plants across the State. It was the 
largest State-wide workplace raid in U.S. history, with 680 community 
members arrested. Far from being hardened criminals or posing a public 
safety hazard, those arrested were trying to provide for their 
families, send their children to school, and build a life free from the 
violence, crime, and poverty at home.
    But perhaps the most troubling aspect of these raids is the way ICE 
failed to take into account that children would be left without one or 
both parents as a result. Hundreds of children, by some estimates over 
a thousand children, were directly affected by the raids. Children 
finished their first day of school only to find that there was no one 
to pick them up or no one waiting for them at home. Schools, social 
services, and entire communities had to scramble to try to find 
separated children.
    In the town of Forrest, Mississippi, strangers and neighbors 
brought crying children to a community gym where the owner had offered 
them a place to sleep. Bedding and food was donated until children 
could be reunited with their parents, or in some cases with extended 
family.
    The day after the raids, ICE believed that all children were 
reunited with at least one parent. Sadly, we know this is not the case. 
We know of a single mother who remains in ICE custody even though her 3 
minor children are being cared for by an unrelated neighbor.
    In some cases, it appears both parents or single parents could be 
deported. But what happens to the children? Will families be forced to 
send children back to a country they have never seen or speak the 
language of, or grow up here without any parents? What happens when 
these children are U.S. citizens?
    Because of the way this operation was carried out, our communities 
are living in fear, people are afraid to leave their homes, children 
are terrified to go to school because they may return home to find 
their remaining parent gone, and local businesses are suffering.
    Of note, none of the employers have suffered any criminal 
consequences. Mike Hurst, the U.S. attorney for the Southern District 
of Mississippi has stated, ``To those who use illegal aliens for a 
competitive advantage or to make a quick buck, we have something to say 
to you: If we find you have violated Federal criminal law, we are 
coming for you.''
    And yet, not one employer or person from management has been 
arrested. No one has been charged. In fact, prosecutions of companies 
who hire undocumented workers have declined compared to the previous 
administration's numbers. The selective way the administration is 
enforcing our laws is disappointing.
    Today, we are joined by witnesses from all walks of life who will 
share their perspectives about what happened on August 7, what has 
happened in the aftermath of the raids, and what can be done to help 
those who are still suffering as a result. I hope to also hear from our 
witnesses about how we can help ensure the mistakes ICE made during the 
recent raids are not repeated here in Mississippi or elsewhere around 
the country.
    I support immigration reform to ensure that employers can hire the 
workers they need and good people who want to work to support their 
families will have way to do so.
    In the mean time, I am committed to ensuring that the Department of 
Homeland Security enforce the laws in keeping with our values and 
exercises discretion where necessary to protect children and other 
vulnerable populations.

    Chairman Thompson. Other Members of the committee are 
reminded that under committee rules, opening statements may be 
submitted for the record.
    Let me introduce my colleagues who are here. To my right--
your left--is Congresswoman Sheila Jackson Lee from Houston, 
Texas.
    [Applause.]
    Chairman Thompson. To my left is Congressman Al Green from 
Houston, Texas.
    [Applause.]
    Chairman Thompson. To his left and from--I call South 
Mississippi, sometime known as Memphis, Tennessee, my 
colleague, Congressman Cohen, from Memphis, Tennessee.
    [Applause.]
    Chairman Thompson. So I welcome our first panel of 
witnesses.
    Our first witness, Mr. Cliff Johnson, is director of the 
Roderick and Solange MacArthur Justice Center and a member of 
the faculty at the University of Mississippi School of Law.
    Our next witness, Reverend Odel Medina, is the pastor of 
St. Anne's Catholic Church in Carthage, Mississippi. In 
response to raids, Father Odel turned his parish into a 
makeshift legal and counseling center for affected families.
    Our next witness, the Honorable Constance Iona Slaughter-
Harvey, is the founder and president of the Board of the Legal 
Education and Community Empowerment Foundation. She is a native 
of Forest.
    She is also a judge, a graduate of Tougaloo College who 
also has the distinction of being the first African-American 
female to graduate from the University of Mississippi Law 
School. So----
    [Applause.]
    Chairman Thompson. Our last witness is Ms. Lorena--you are 
going to have to help me out now--Quiroz-Lewis is the lead 
organizer for the Mississippi Immigrant Coalition and Working 
Together Mississippi, which was instrumental in providing 
support and aid to families affected by the Mississippi ICE 
raids.
    Without objection, the witnesses' full statements will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for 5 minutes, beginning with Mr. Johnson.

   STATEMENT OF CLIFF JOHNSON, DIRECTOR, MAC ARTHUR JUSTICE 
        CENTER, UNIVERSITY OF MISSISSIPPI SCHOOL OF LAW

    Mr. Johnson. Thank you, Congressman Thompson.
    Mr. Chairman, Members of the committee, I first want to 
thank you for this opportunity to talk about these 
unprecedented raids that occurred on August 7 here in 
Mississippi.
    I have practiced law here for 27 years. I have represented 
thousands of clients. Nothing I have ever done has impacted me 
like the work I have been involved on behalf of the more than 
1,000 people impacted by the largest workplace raids in United 
States history.
    I have sat face-to-face with dozens and dozens of people 
who have told me, often through tears, about their fears, their 
concerns, the dreams they had for their families, and I am 
struck repeatedly by the extent to which they are vulnerable 
and confused and scared, and I am left to ask the question, 
why--why this, why here, why in Mississippi, and I want to 
focus my remarks on two areas today.
    One, I want to make clear that these raids were not carried 
out in response to any outcry from people here in Mississippi. 
We did not ask for this.
    Second, I want to address the fact that more than 100 of 
the people detained in those raids have been charged 
criminally. They have been indicted by the United States 
Department of Justice and this United States Attorney for 
felonies.
    In addition to the other administrative matters that they 
face, the immigration court cases, the civil fines that have 
been imposed, they now must run the gauntlet of Federal felony 
prosecution at the hands of this Department of Justice.
    First I will say Latino immigrant workers have been 
involved in the poultry industry in Mississippi for more than 
20 years. We know our neighbors and friends. We know them from 
public schools and from soccer fields and from our places of 
business and from shared places of worship.
    If you talk to local law enforcement officials--and you 
will hear from one today--you will learn that these people are 
not a threat to our communities. They are certainly not a 
threat to National security.
    They have become vital parts of the community. They are 
people who we know and they are people about whom we care.
    I think it is important to note that even under the regime 
imposed by the Trump administration where the focus is said to 
be on those people who present a threat, that this group of 
people detained on August 7 come nowhere close to meeting the 
objectives or the criteria identified for enforcement.
    I do not know how this State, where immigrants make up less 
than 2 percent of the population, where there has been no 
outcry from the community, was chosen as the epicenter of 
enforcement action.
    But I can tell you that Mississippi is not better off as a 
result of what has happened here. I must, as a former Assistant 
United States Attorney, also focus on the actions of the United 
States Attorney here in prosecuting nearly 120 people.
    Prosecutorial discretion is at the heart of our system. 
Prosecutors must make decisions about how to use the resources 
made available to them--the substantial resources made 
available to them in deciding who should be prosecuted and who 
should not.
    It is such an important part of our system that the 
Department of Justice discusses it at length in its Justice 
Manual, and in my written remarks that you have received you 
can see my analysis as to why the prosecutorial discretion 
exercise in this case, in my opinion, is terribly flawed.
    This does not serve a substantial Federal interest and 
there certainly are alternative means of remedy in this 
context.
    It is important to note that this U.S. Attorney's office 
recently, in response to another raid that involved almost 600 
people, criminally prosecuted only 9 people and the U.S. 
Attorney at the time said this prosecution of employers, as 
Congressman Thompson highlighted, is in line with the 
Department's emphasis on prosecuting employers, not employees.
    Prosecuting employees is hardly a deterrent to companies 
bent on ignoring the law. That is from the same United States 
Attorney's office. U.S. Attorney Hurst was an assistant U.S. 
Attorney in this case.
    Former Secretary of Homeland Security John Kelly, speaking 
of President Trump's Executive Order in 2017, assured us that 
just being in the United States isn't enough. In his words, it 
has got to be something else.
    In Mississippi in these raids there was nothing else. These 
people are not criminals. There is no record of violent 
behavior.
    Of the people being prosecuted, many of them are young 
mothers with a third-grade education or less who have 
themselves been victimized by crimes. There are only a handful 
that have even a misdemeanor conviction.
    These prosecutions are wrongheaded and they are a wrong use 
of our resources, and I would encourage the committee to look 
hard at the prospect of duplication of these types of raids and 
prosecutions as a misuse of resources at the Department of 
Justice and is unfair and inhumane piling on, in the context of 
people who are here, working hard, being law-abiding neighbors 
and friends.
    Thank you.
    [The prepared statement of Mr. Johnson follows:]
                  Prepared Statement of Cliff Johnson
                            November 7, 2019
    Mr. Chairman and Members of the committee, I first want to thank 
you for this opportunity to speak with you about the unprecedented ICE 
raids of August 7, 2019. I have practiced law in Mississippi for 27 
years, and I have represented thousands of vulnerable and marginalized 
clients. Nothing I have ever done has impacted me like working on 
behalf of the more than 1,000 people affected by these raids. I have 
spoken to dozens of people who are scared, desperate, and confused, 
many of them telling their stories through tears, and I am struck time 
and again by how vulnerable they are and by their lack of resources and 
options.
    I would like to focus my remarks today on two primary areas. First, 
I want to make clear that the raids of August 7 were not a response to 
any outcry from Mississippians regarding the presence of immigrant 
workers in our communities. Second, I want to address the fact that 
more than 100 of the 680 people detained in the raids have been charged 
with felonies by the local U.S. Attorney's Office and explain my 
position that this aggressive use of the criminal justice system is 
inconsistent with the policies of the Department of Justice as set 
forth in its Justice Manual.
    For more than 20 years, Latino immigrants have been employed in the 
poultry business in Mississippi. Whether working in chicken houses or 
processing plants, Latinos living in Mississippi have been vitally 
important to this industry that generates nearly $3 billion in revenue 
each year. Since arriving here, our Latino neighbors and friends have 
proven to be hardworking, law-abiding, and family-oriented.
    While matters of immigration policy and enforcement are hotly 
debated around the country, conversations with local residents of 
communities like Canton, Morton, Forest, and Carthage reveal that 
Mississippi is not a place where the presence of immigrants has 
resulted in resentment and fear. To the contrary, we have developed 
relationships over the years, and we know one another through our 
places of business, children's activities at public schools and soccer 
fields, and interactions at shared worship space. Since August 7, local 
law enforcement officers repeatedly have confirmed that immigrant 
residents of our small towns are not involved in criminal activity and 
do not present any threat to local or National security. Indeed, the 
sheriff of Scott County informed me just last week that of the 125 
people currently in his jail only one is a local Latino immigrant.
    I do not know how this State where immigrants make up only 2 
percent of the population was chosen to be the epicenter of ICE 
enforcement action, but I know that it was not the result of any plea 
from Mississippians for the government to take action. We did not ask 
for these raids. We do not think our immigrant friends and neighbors 
are dangerous. We do not complain that our immigrant friends and 
neighbors are taking jobs for which life-long Mississippians are 
clamoring. Mississippi is not better off as a result of what ICE has 
done here.
    In addition to questioning the motivation behind bringing 600 ICE 
agents to Mississippi for the purpose of conducting the largest single 
State enforcement action in our country's history, I am compelled to 
question the decision of the Department of Justice and the local United 
States Attorney to criminally charge approximately 120 of those people 
detained on August 7. As a former Assistant United States Attorney, I 
am familiar with the central role that prosecutorial discretion plays 
in our criminal justice system and the guidance provided to Federal 
prosecutors regarding when it is appropriate to bring Federal felony 
charges. It is my opinion that the criminal prosecution of those 
detained on August 7 is unwarranted because prosecution does not serve 
a substantial Federal interest and because there exists an adequate 
non-criminal alternative to prosecution. (DOJ Justice Manual 9-27.220).
    The 680 individuals detained in the August 7 raids have cases 
pending against them in United States Immigration Courts. In addition, 
dozens of those detained also received a Notice of Intent to Fine. The 
civil administrative proceedings in Immigration Courts may result in 
deportation and a permanent bar from reentry into the United States, 
and, likewise, the administrative fine process also may result in 
deportation and a permanent bar from reentry. Despite the seriousness 
of these matters, the Department of Justice has sought and obtained 
felony indictments against approximately 120 people detained on August 
7. It is unclear how many, if any, additional people will be criminally 
prosecuted. Charges brought thus far include illegal reentry and 
fraudulent use of documents, and those indicted face potential 
imprisonment of several years.
    The DOJ Justice Manual makes clear that ``the attorney for the 
Government's belief that a person's conduct constitutes a Federal 
offense and that the admissible evidence will probably be sufficient to 
obtain and sustain a conviction is not sufficient standing by itself to 
commence or recommend prosecution. The prosecution must also serve a 
substantial Federal interest, and the prosecutor must assess whether . 
. . there exists an adequate non-criminal alternative to prosecution. 
It is left to the judgment of the attorney for the government to 
determine whether these circumstances exist.'' (Comment to DOJ Justice 
Manual 9-27.220). The description of what constitutes a ``substantial 
Federal interest'' in section 9-27.230 and the analysis of whether a 
non-criminal alternative to prosecution is adequate under section 9-
27.250 mitigate against subjecting those detained on August 7 to 
criminal charges. As set forth in the comment to section 9-27.250, 
``[w]hen a person has committed a Federal offense, it is important that 
the law respond promptly, fairly, and effectively. This does not mean, 
however, that a criminal prosecution must be commenced.''
    The argument that criminal prosecutions should not be undertaken 
and constitute undue ``piling on'' in these circumstances is supported 
by both the prior conduct of prosecutors in the Southern District of 
Mississippi and the focus of Executive Order 13768 issued by President 
Trump on January 25, 2017. In a December 9, 2009, press release 
regarding the guilty plea of the human resources manager for a 
Mississippi facility at which more than 550 immigrant workers were 
detained, the United States Attorney for the Southern District at that 
time proclaimed, ``This prosecution is in line with the Department's 
emphasis on prosecuting employers, not employees. Prosecuting employees 
is hardly a deterrent to companies bent on ignoring the law.'' Current 
United States Attorney Mike Hurst was one of the Assistant United 
States Attorneys responsible for prosecuting that case. (DOJ Press 
Release attached hereto). In that instance, criminal charges were 
brought against only 9 of the nearly 600 immigrant workers detained.
    In Executive Order 13768, President Trump identified the purpose of 
his emphasis on immigration enforcement as pursuing those who ``engage 
in criminal conduct in the United States'' and those who ``have served 
time in our Federal, State, and local jails.'' Consistent with this 
emphasis, then-Secretary of Homeland Security John Kelly stated on the 
April 16, 2017, episode of ``Meet the Press'' that ``[o]f course, ICE 
operate [sic] more or less in the interior and do targeted actions 
against illegal aliens plus. What I mean by that is, just because 
you're in the United States illegally doesn't necessarily get you 
targeted. It's gotta be something else.'' (Transcript at https://
www.nbcnews.com/meet-the-press/meet-press-april-16-2017-n747116).
    My analysis of the intake forms collected by the Mississippi 
Immigration Coalition reveals that almost none of those detained in 
these raids had any criminal record prior to being rounded up and taken 
into custody on August 7. As for the approximately 120 people who have 
been indicted criminally, many of those individuals are young mothers 
with no more than a third-grade education who themselves have been the 
victims of sexual crimes. The majority of the Latino workers in 
Mississippi's poultry processing plants have held their jobs for years 
without incident. To the extent that the goal of this administration's 
enhanced immigration enforcement efforts is to ferret out those who 
actually do ``present a significant threat to National security and 
public safety'' as described in Executive Order 13768, those detained 
and criminally charged in Mississippi do not fit that profile. Again, 
Mississippi is not better off as a result of these raids, and it is 
hard to imagine how criminal prosecution of this collection of 
individuals already embroiled in serious civil administrative cases 
furthers any substantial Federal interest.
    Much will be said today about the staggering human cost being paid 
by those detained in the raids and their families. I will comment only 
briefly. While our Coalition has been able to provide direct financial 
assistance over the last 3 months, we will not be able to sustain our 
support for the hundreds of families who will be subjected to legal 
proceedings for months and years to come without any means of working 
and earning money. I am not an expert in immigration policy, and I will 
leave the complexities of immigration enforcement and reform to others. 
However, having spoken with countless families who are financially 
ruined and in desperate need of money for food, shelter, medicine, and 
other basic necessities, I respectfully request that the House 
Committee on Homeland Security take whatever action it can to provide 
those detained in the Mississippi raids of August 7, 2019, with 
temporary work authorization. Unless these people are permitted to earn 
money while awaiting disposition of civil administrative and criminal 
proceedings, hundreds of children, many of them American citizens, will 
face food scarcity, a winter without electricity, housing instability, 
and limited access to health care. Regardless of any differences of 
opinion we might have regarding politics or immigration policy, my 
prayer is that our shared humanity will unite us in the quest to make 
certain that serious harm does not come to these good people who have 
come to our country and demonstrated a work ethic and commitment to 
family that should serve as an inspiration for us all.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Father Odel to summarize his statement for 
5 minutes.

  STATEMENT OF FATHER ODEL MEDINA, PASTOR, ST. ANNE CATHOLIC 
                 CHURCH, CARTHAGE, MISSISSIPPI

    Father Medina. Thank you.
    Yes, my name is Father Odel Medina, a Catholic priest who 
belongs to the order of Missionary Servants of the Most Holy 
Trinity and pastor of St. Anne Catholic Church in Carthage.
    This parish is located in the diocese of Jackson where 
Bishop Joseph Kopacz is the leader.
    First of all, I would like to thank the representative of 
Homeland Security Committee as well as Chairman Bennie Thompson 
and Ranking Member Mike Rogers for the opportunity to give my 
testimony.
    My testimony is about the impact due to the raids that 
occurred August 7, 2019, in the community of Carthage. This 
community has been deeply affected because there are in 
Carthage many members of the Hispanic community that were 
working in the chicken plants where the raids took place.
    These people, I can personally attest, are hard workers who 
contribute to the local, State, and National economy. These are 
people of family, they are people of faith, and they are--and 
they pay their taxes.
    Many of them have lived in the United States 5 years or 
more or most of them have children that are citizens of the 
United States, children that are suffering from separation from 
their families due for their parents either being deported or 
are still in the detention center pending the deportation 
process.
    The trauma of the children is too painful. They do not 
understand why their parents have been arrested. They said, my 
parents are not criminals. They are not bad people. They were 
working. Why does Immigration put them in jail?
    I have with me a letter and a picture from 2 children whose 
father is still in detention center. I have permission to share 
this with you today. Their 13-year-old son wrote a letter 
begging to church to release his father by bail.
    His father is someone that has been in the United States 
from 19 years old. Allow me to highlight part of the letter, 
and let me tell you, today, ironically, this father is going to 
present in front of the church.
    The letter said, ``Dear Church, I hope you understand me. 
My dad is a good hard worker that loves to live with us and 
loves to go to church. For us and for my grandparents, he 
usually works extra for also grandparents for food and 
supplies.
    I don't want him to leave me by myself with my mom and 
brother because it won't be a complete family without him. He 
was always there for me. When I was sad he made me laugh. He 
also helped me with my math homework.
    When I didn't understand it, he was my best friend that 
always played with me. So please can you give us a bail for my 
dad?
    We are so sad without him because as soon as we came home 
from school the day when the police caught my dad, we were 
waiting for him and then he called me on my phone and he said, 
`Don't be sad that the ICE policemen have caught me. Pray for 
me, please.'
    That is when I started to cry a lot. I started to pray with 
all my heart and feelings. So, please, let my dad be a citizen 
here because I need his love and careness with me. Thank you 
for reading this letter that I wrote with my heart. God bless 
you on everything you do and have.''
    This is just one simple example of the reality of many 
families but also representatives, I believe these raids called 
National attention to urgent necessary to reform the 
immigration system.
    The proof is that you are here as well. So let me tell you 
also this part of my testimony. When people heard about the 
raids they started calling me from all over the United States, 
people from many races and religions, like Jewish people in 
Florida that told me they know what it means to be under 
persecution and segregation. They said, please, let help.
    African-American people told me, Father Odel, we know what 
it means to be segregated in the past. People from Chicago, 
California, and Virginia called me to say, Father Odel, this is 
not right. We need to do something. How can we help?
    You can help me with money and assistance, I told them, but 
the best help is to change the immigration system. This is a 
phenomenon that people are aware that we need to do something.
    This new generation of citizens, the children of these 
families, will never forget the ones that helped them and their 
families.
    This is a National outcry and I believe many of these 
decisions are in your hands. I pray to God to give you the 
wisdom to resolve this issue in the right way.
    In conclusion, thank you for--thank you again for giving me 
the opportunity to express my testimony on behalf of these 
people that all cry out for help, and I assure you my prayer 
because I know this is not easy to handle.
    God bless you.
    [The prepared statement of Father Medina follows:]
                Prepared Statement of Father Odel Medina
                       Thursday, November 7, 2019
    I am Father Odel Medina of the Missionary Servants of the Most Holy 
Trinity and pastor of St Anne's Catholic Church in Carthage, 
Mississippi, a parish located within the Catholic diocese of Jackson, 
Mississippi, which is overseen by Most Reverend Joseph Kopacz. On 
behalf of St Anne's Catholic Church, the local Catholic community and 
the Catholic diocese of Jackson, I would like to thank the House of 
Representatives Homeland Security Committee, as well as Chairman Bennie 
Thompson and Ranking Member Mike Rogers for the opportunity to submit 
this written statement for the record and testify before the committee 
at this field hearing. In this statement, I will share the impacts of 
the recent immigration raids upon St Anne's Catholic Church and the 
Carthage community as well as the Catholic Church's perspective on 
immigration enforcement and family unity.
    The August 7 immigration raids deeply affected St Anne's Catholic 
Church and our community. I appear before you today to discuss the 
impacts on our community, particularly on families, and to offer some 
policy recommendations to prevent future family separations and 
devastations of this kind.
          i. human consequences of august 7 immigration raids
    On August 7 Immigration and Customs Enforcement (ICE), the 
enforcement branch of the U.S. Department of Homeland Security (DHS), 
conducted raids on 7 poultry plants operating in the Canton, Carthage, 
Forest, Laurel, and Morton communities here in Mississippi.\1\ It is 
estimated that 680 workers at these sites were apprehended by ICE. In 
the following days approximately 300 of these individuals were 
eventually released on ``humanitarian grounds''\2\ as almost all had 
small children who needed care. The additional roughly 400 people were 
sent to immigrant detention facilities located in Mississippi and 
Louisiana.
---------------------------------------------------------------------------
    \1\ Catherine Shoichet, 680 undocumented immigrants are arrested in 
Mississippi, CNN, August 8, 2019 available at https://www.cnn.com/2019/
08/07/us/mississippi-immigration-raids/index.html.
    \2\ U.S. Department of Justice, Numerous Previously Detained Aliens 
with Small Children Released on Humanitarian Grounds, August 8, 2019 
Press Release available at https://www.justice.gov/usao-sdms/pr/
numerous-previously-detained-aliens-small-children-released-
humanitarian-grounds.
---------------------------------------------------------------------------
    The impact of these immigration raids was and continue to be 
devastating to our community. Compared to other States in the 
southeastern United States, Mississippi does not have a large 
undocumented immigrant community. The Pew Research Center estimates 
that about 20,000 undocumented immigrants live in Mississippi, 
approximately 0.7 percent of the State's total population and 35 
percent of the immigrant population in 2016.\3\ But while the 
undocumented immigrant community may not be extremely large, it is an 
integrated community that has been living and contributing to our local 
economy, parish, and city for many years. To this end, it is estimated 
that 21 percent of undocumented adults in Mississippi have been in the 
country for 5 or more years, and their children, many of whom are U.S. 
citizens, represent 1.8 percent of elementary and high school students 
in the State's public schools.\4\
---------------------------------------------------------------------------
    \3\ U.S. unauthorized immigrant population estimates by State, 
2016, Pew Research Center, February 5, 2019, available at https://
www.pewresearch.org/hispanic/interactives/u-s-unauthorized-immigrants-
by-state/.
    \4\ Id.
---------------------------------------------------------------------------
    I see the human dimensions of these statistics in my work at St 
Anne's Catholic Church, where I am the pastor. There are many 
hardworking immigrant families who attend our church, contribute to the 
community, worked in the poultry plants and also are members of the 
parish who had lived in Carthage for many years. While some are 
documented, many of the parents of these family units are undocumented. 
Many have U.S. citizen children. Mixed-status families, such as these, 
where the parents may lack immigration status, but the children have 
legal immigration status and, in many instances, may be U.S. citizens 
is not new phenomena but instead represents an increasing immigration 
reality in the United States as we wait for larger immigration reform. 
Currently there are an estimated 4 million children living in the 
United States that are members of mixed status families.\5\ And it is 
these families who often suffer and did indeed suffer on August 7. By 
my count, I estimate that approximately 84 families from our parish 
have been negatively affected and, in some cases, still separated by 
the raids.
---------------------------------------------------------------------------
    \5\ Randy Capps, Michael Fix, and Jie Zong, A Profile of U.S. 
Children with Unauthorized Immigrant Parents, Migration Policy 
Institute, January 2016, available at https://www.migrationpolicy.org/
ChildrenofUnauthorized-FactSheet-FINAL.
---------------------------------------------------------------------------
    The day of the raids and several days after--I saw devastated 
children who were terrified and wondering about their parent's 
whereabouts, worrying when their parents would return or if they would 
return at all.
    These are the words of ``Carlos''\6\ a child who experienced the 
traumatic separation that I mentioned. Carlos's letter to a judge 
reflect his experience and feelings. (see attached letter from Carlos). 
Carlos is the son of parents that were both affected by the raids. 
Carlos' mother was released with an ankle monitor leaving her unable to 
work. Carlos' father remains in detention. Carlos' father came to the 
United States 19 years ago at age 16. Both of Carlos' parents are hard 
workers dedicated to providing a good life for their children and 
sending whatever funds they earned to their families in Guatemala who 
live in extremely poor conditions. Carlos' father is also a dedicated 
leader at my parish, always volunteering to provide landscaping or 
maintenance assistance and is a member of the church choir. This family 
exemplifies so many of the families that I have the opportunity to 
minister to: Hard-working, family-oriented, community-focused. These 
families experienced hardship and trauma first-hand due to the raids.
---------------------------------------------------------------------------
    \6\ Name changed to protect confidentiality.
---------------------------------------------------------------------------
    But equally important to the human suffering that occurred because 
of the raids was the resiliency and the strength that was demonstrated 
by our community. Almost immediately, we understood the needs of 
families who have been impacted and started collecting supplies and 
resources that were being donated by the community. St Anne's Catholic 
Church and several other organizations became organizing points for 
gathering donations. It was inspiring to see people turn to their faith 
and their community places of worship for support and spiritual 
guidance. People sent items from all over: Water and groceries and baby 
supplies. In addition to the supplies collected the needs for the 
families is quite large: While some were released from ICE custody, 
many lost their jobs and are in removal proceedings now. Many have lost 
their jobs at the plant and are dealing with financial concerns and 
also psychological trauma affecting themselves and their children. But 
in the midst of this, some of the very people who had been picked up 
during the raid came back to St. Anne's to help assist us gathering 
donations. Literally some of those people most impacted stepped up to 
help others in their community. Leaders like ``Maria'': 23-year-old 
``Maria''\7\ came to the United States when she was 11 years old to 
join her mother. Maria attended school and learned to speak fluent 
English. Even though Maria was eligible for DACA, she did not have the 
financial resources for her application. Due to a lack of the proper 
documentation, she was unable to pursue higher education and instead 
pursued full-time employment at a poultry plant where she was working 
at the time of the ICE raids of August 7, 2019. As members of St. Anne 
Catholic Church, Maria and 2 other women affected by the raids 
approached me to see what they could do to help themselves and others 
who were affected. Even though the experience was extremely difficult, 
Maria's deep faith conviction led her to accept my invitation to take a 
leadership role in the response plan that I created. Maria's English 
and Spanish skills, her special organizational abilities and her 
steadfast spirit have helped to lead the entire St. Anne community 
through this crisis. Although her own immigration status is uncertain, 
Maria has not given up being there for the rest of the community.
---------------------------------------------------------------------------
    \7\ Name changed to protect confidentiality.
---------------------------------------------------------------------------
    Another member of the volunteer response team is a father of 5 
children that were all born in the United States. ``Luis''\8\ and his 
family have lived in the United States for 17 years. Luis is a skilled 
mechanic which was his job at one of the poultry plants. Luis was 
arrested on the day of the raids and was released with an ankle 
monitor. Luis and his family are dedicated and faithful members of St. 
Anne Catholic church. Luis is a well-known leader among the Hispanic 
community. He was one of the first to approach me to ask how he can 
help. In spite of the uncertainty of his own immigration situation, 
Luis never hesitated to offer assistance in providing resources for all 
the families that were affected. One thing that calls attention to Luis 
is that when donors and charities ask him what he needs, he always asks 
if they can find him a job because he does not want to be a burden on 
society or the government.
---------------------------------------------------------------------------
    \8\ Name changed to protect confidentiality.
---------------------------------------------------------------------------
    I highlight the stories of my neighbors and parishioners to remind 
lawmakers of the very human consequences that result from such actions 
like the August 7 raids. I am hopeful that today I can raise my voice 
on behalf of those who are now too afraid or to traumatized to speak 
about what occurred and how negatively it has impacted their lives, 
their families, and our community. But I also note that individuals 
like Maria and Luis are precisely the type of people we want in our 
community as they make us a better more integrated community.
         ii. catholic social teaching on welcoming the newcomer
    The Catholic Church in the United States has long advocated for and 
served immigrants and refugees. This missionary call comes from the 
perspective of our biblical tradition, which urges us to love, act 
justly toward, and identify with persons on the margins of society, 
including newcomers and those on the move, such as migrants and 
refugees. Our long experience as a pilgrim people in a pilgrim church 
has made us intimately familiar the experience of being with uprooted, 
persecuted, and imprisoned.
    Many Old Testament narratives speak very directly to the reality of 
migrants and newcomers. Like many migrants, Jacob's son, Joseph was 
sold into involuntary servitude and trafficked to a foreign land, Egypt 
(Gen 37:18-36), where he became a devoted and trusted servant (Gen 
39:1-6). After being falsely accused by his master's wife, he was 
imprisoned (Gen 39:11-20). Pharaoh ultimately found him ``endowed with 
the spirit of God'' and put him in charge of the land of Egypt (Gen 41: 
37-41). Given a chance to succeed, Joseph more than fulfilled his 
responsibilities, by saving the people of Egypt and ``the whole world'' 
from the effects of a devastating famine (Gen 41: 55-57).
    The Catholic Church has repeatedly spoken of the Gospel imperative 
to protect the rights of refugees, to promote the reunification of 
families, and to honor the inherent dignity of all migrants, whatever 
their status. Unfortunately, the modern U.S. immigrant enforcement 
system represents a far cry from solidarity or communion. It divides us 
from our brothers and sisters and separates families. We are 
particularly concerned about family detention and the separation of 
families through enforcement measures which go against the basic tenets 
of Catholic social teaching.
    This is not to say that we do not acknowledge the role of the 
Government in ensuring public safety and agree that those who are a 
threat to our community should indeed be a target of immigration 
enforcement and if necessary, detention. However, our teaching reflects 
that the role of the Government in undertaking efforts to secure its 
borders and enforce its laws should be humane and just. Enforcement 
like that which occurred in the workplace raids of August 7 contributes 
to the misconception that all immigrants are criminals and a threat to 
our unity, security, and well-being, and most disturbingly separates 
families, including U.S. citizen children from their parents while 
inflicting trauma and fear.
    As a community member and leader who witnessed these traumatic 
effects on immigrant families and children, I urge you to consider our 
recommendations as set forth below.
                       ii. policy recommendations
A. DHS Must Observe and Implement Existing Policies to Protect Children 
        During Raids from Undue Harm
    During the August 7 raids, hundreds of the individuals apprehended 
had school-age and in some cases under 5-year-old children who were 
either left at school or without adult care upon arriving home from 
school the day of the raid. This lack of coordination prompted 
educators, childcare providers and community volunteers to have to find 
ways to care for and comfort them and sparked National notice.\9\ While 
many of the parents have since been released from ICE custody on 
humanitarian grounds so that they can provide care for their children, 
there was no plan in place to ensure the well-being and care of the 
children the day and night of the raid. Some children were in the worst 
cases, left with strangers due to the lack of planning. ICE's own 2007 
guidelines stipulate that before raids that will result in the arrest 
of 150 or more individuals, ICE should alert and coordinate with the 
Department of Health and Human Services (HHS) Division of Immigration 
Health Services (DIHS) or with State and local social service entities 
(if DIHS is unavailable).\10\ While the Government states that it did 
engage in humanitarian releases based on inquiries of whether those 
apprehended had children and offered to provide cell phones for parents 
to contact their children,\11\ this process was haphazard and still did 
not prevent several children from being left waiting anxiously for 
their parents after school. Notice to relevant State and local and 
appropriate child welfare contacts must always occur in these 
situations. While not condoning the raids themselves, it is vital that 
all existing policies and procedures should be followed to ensure that 
children are not more unduly harmed than what will be expected as their 
parents are being separated from them.
---------------------------------------------------------------------------
    \9\ Ray Sanchez, Their first day of school turned into a nightmare 
after record immigration raids, CNN, August 8, 2019 available at 
https://www.cnn.com/interactive/2019/08/us/mississippi-ice-raids-
cnnphotos/index.html.
    \10\ Guidelines for Identifying Humanitarian Concerns among 
Administrative Arrestees When Conducting Worksite Enforcement 
Operations, U.S. Immigration and Customs Enforcement, 2007 available at 
https://www.nilc.org/wp-content/uploads/2015/11/ice-hum-guidelines.pdf.
    \11\ See U.S. DOJ, supra note 2.
---------------------------------------------------------------------------
B. Release Individuals Still Detained Due to the August 7 Raid and 
        Enroll Them in Case Management-Focused ATD Programs
    While noting the continued concerns with the August 7 raids, I must 
turn to addressing the current reality of the families who have been 
continually separated due to the aftermaths of the raids or been 
financially destabilized due to raids. We as a community are still 
dealing with trauma, economic insecurity, and family separation. As it 
relates to the approximately 300 individuals remaining in detention, we 
urge that you reconsider this form of custody and instead consider 
enrolling those still detained, particularly the parents of children, 
on alternatives to detention, especially alternatives to detention that 
involve case management. Many of these individuals have strong 
community ties given their long-standing presence in the United States. 
As a result, these individuals have robust incentives to appear in 
immigration court, and their release to the community with 
individualized case management services is both appropriate and 
preserves family unity and human dignity.\12\ Enrollment in an 
alternative to detention that utilizes case management will enable the 
individual to remain in the community at this time while still engaged 
in the on-going immigration process.
---------------------------------------------------------------------------
    \12\ USCCB, et al., The Real Alternatives to Detention, June 2019, 
available at https://justiceforimmigrants.org/wp-content/uploads/2019/
06/The-Real-Alternatives-to-Detention-June-2019-FINAL-v.2.pdf.
---------------------------------------------------------------------------
    Community-based case management alternatives are effective at 
ensuring compliance, without using electronic monitoring.\13\ For 
example, the ICE Family Case Management Program (FCMP), that ran from 
January 2016 through June 2017, had compliance rates of over 99 percent 
with court hearings and ICE appointments, all at a cost far below that 
of detention.\14\ Additionally, allowing these individuals to still be 
present in their community and in their children's lives provides 
opportunity for family strengthening and stability.
---------------------------------------------------------------------------
    \13\ Id.
    \14\ Id.
---------------------------------------------------------------------------
c. reform the larger immigration system to recognize the contributions 
     of immigrants like my parishioners at st. anne catholic church
    The larger immigration system in the United States is broken and 
must be fixed. The Catholic Church has long advocated for bipartisan 
meaningful legislative reform. But this effort must come now--as the 
human consequences of our broken immigration system continue to 
devastate our community and create a culture of fear. We must recognize 
the human dignity and contributions of immigrants who have lived, 
worked, and worshipped in our community and who are by every measure 
American but for immigration status. The families that I have served 
and ministered to at St Anne's have lived in our community for many 
years, they have American citizen children, they were paying taxes and 
supporting our local economy. We need to work together to find a way to 
modernize our immigration system to recognize the human dignity of 
those living here and find a way for them to move forward with their 
lives here in the United States without fear of being separated from 
their families.
                            iii. conclusion
    Thank you again for the opportunity to speak about our vibrant and 
strong community and the incredible work of the St. Anne's Catholic 
Church parishioners. I urge you to remember the human consequences of 
what happened here with the August 7 immigration raids. We are still 
dealing with the fallout, but we are a strong resilient community. At 
St. Anne's Catholic Church and in the Diocese of Jackson we will 
continue our work to ensure that our community members and neighbours 
feel safe and welcome regardless of their immigration status. We 
welcome your support and urge you all to continue to give meaningful 
oversight to DHS enforcement policies and work for larger immigration 
reform.

    Chairman Thompson. Thank you very much. Very powerful 
testimony.
    We now recognize Judge Slaughter-Harvey to summarize her 
statement for 5 minutes.

   STATEMENT OF CONSTANCE SLAUGHTER-HARVEY, PRESIDENT OF THE 
       BOARD, LEGACY EDUCATION AND EMPOWERMENT FOUNDATION

    Ms. Slaughter-Harvey. Thank you, Congressman Thompson, and 
I appreciate the presence of the other Members of Congress.
    As a native Mississippian and as a long-time resident, I 
have seen changes in the political and legal system. I 
witnessed African-Americans beaten and degraded for exercising 
basic rights as Americans.
    Shortly after my graduation, I filed lawsuits on behalf of 
victims and their families for brutality, beatings, and even 
death inflicted at the hands of police officers and other law 
enforcement personnel.
    While we were not successful in many of these legal 
actions, I always hoped we served notice on the law enforcement 
officials.
    But in recent years, and more recently, in recent months, 
it seems the notice was apparently not received. I appreciate 
your description of what happened in my home town of Forest 
following the raids.
    But not only were the employees who were arrested surprised 
and caught off guard; most in the Forest and Morton communities 
of Scott County were actually surprised and quite disturbed.
    The manner in which the raids was conducted was appalling 
and inhumane, to say the least. The poultry workers were 
treated as terrorists and animals. That upsets me.
    But local law enforcement offices, as you will hear today, 
were themselves unaware of the raids and many expressed 
disappointment with the lack of notice.
    When I first learned of the ICE raids, my heart dropped as 
I felt heat in my nose. I contacted CPS officials--that is 
Children Protective Services officials--and I represent that 
agency in Scott County. Our concern was what was happening to 
the children.
    I was advised the day after that nobody in CPS in Scott 
County knew about the raids. There was no notice for State 
employees to take care of these children.
    I was contacted by individuals who are beneficiaries of 
Legacy, our program, and one of the ladies called and said that 
she needed me to come over and talk to her child.
    When I went over, he ran up to me and said, Ms. Connie, why 
do they hate my momma? The only thing I could do was grab him 
and tell him that his mother was loved.
    My grandson, who is with me today, was also affected. He 
was in tears because one of the boys whose mother was arrested 
is his best friend. He sees what this country is coming to and 
there is no exception for an affliction of pain on children.
    I am, and probably will remain, disturbed. My church, St. 
Michael's Catholic Church in Forest, was torn apart. At least 
200 of our parishioners are still detained. That should not 
happen in America.
    I don't want to get personal. I have submitted my comments 
to this panel. But there are many questions posed by community 
residents concerning the timing of the raids, the secrecy of 
the raids, the lack of planning and coordination of action, and 
the lack of compassion for the children whose families have 
been destroyed.
    The efforts to terrorize certain citizens has been 
successful. They are now intimidated, afraid, and angry. These 
raids disrupted so many lives in my community, and for that I 
am extremely resentful.
    Many families have been destroyed and probably will never 
recover. I am sad that our children were subjected to this type 
of Gestapo action.
    Gentleman and lady, what a damning and shaming indictment.
    Thank you.
    [The prepared statement of Ms. Slaughter-Harvey follows:]
            Prepared Statement of Constance Slaughter-Harvey
                            November 7, 2019
    My name is Constance Slaughter-Harvey, and I am founder and 
president of the Legacy Education and Community Empowerment Foundation, 
Inc. in Forest, Scott County, Mississippi. Our mission is to empower 
our children and families in order to empower our communities. I also 
serve as Scott County Youth Court Prosecutor. In that capacity, I 
represent the MS Department of Child Protection Services.
    As a native and life-long citizen of Mississippi, I have seen 
changes in the political and legal arenas. My heart ached when I 
witnessed African Americans beaten and degraded for exercising basic 
rights as Americans. Shortly after my graduation from the University of 
Mississippi (Ole MS) School of Law in 1970, I filed many lawsuits on 
behalf of victims and their families for brutality, beatings, and even 
death inflicted at the hands of police officers and other law 
enforcement personnel. While we were not successful in many of those 
legal actions, I always hoped we served notice on the law enforcement 
systems. In recent years, it seems the notice was apparently not 
received.
    On the morning of August 8, 2019, I sensed that our past efforts 
had been in vain when hundreds of persons were thrown to the ground, 
handcuffed, and arrested with no notice as to why they were being 
arrested. According to several friends who were arrested and detained 
and later released, as well as friends whose family members are 
detained in Natchez and Jenner, they were not informed of the charges 
against them when they were forcibly removed from their employment. 
Most were not informed of charges until their court appearances weeks 
later. This procedure runs contrary to our legal guarantees.
    Not only were the immigrants surprised and caught off guard, most 
in the Forest and Morton communities of Scott County were surprised and 
disturbed. The manner in which the raid was conducted was appalling and 
inhumane. The poultry workers were treated as terrorist and animals. 
Local law enforcement officials were unaware of the raids and many 
expressed disappointment with the lack of notice.
    When I first learned of the ICE raids, my heart dropped as I felt 
heat on my nose. I contacted CPS officials who had been contacted by 
the local schools regarding children whose parents were arrested. I was 
also advised that none of the CPS staff was alerted by their 
supervisors until later that night when CPS workers were contacted to 
come to a local facility to check on children whose parents were 
arrested and detained. When they arrived, there were several children 
who were being care for by relatives.
    The following day, I was contacted by relatives of Legacy Change 
Agents who are enrolled in Legacy's Mentoring Programs. They asked that 
I meet with them to console the minors. When I arrived, they rushed up 
and hugged my neck, and asked if their parents were going to be sent 
away. Several of these Legacy children are still disturbed because 
their fathers remain in detention. Others are crying that their fathers 
will not ever return. Two mothers of our Legacy Change Agents were 
arrested and later returned to the plant. They wore leg monitors and 
the children remain fearful that their mothers will be taken away 
again.
    The initial reaction from the local communities in Scott County was 
shock and concern for the children whose parents were arrested without 
having an opportunity to arrange for the care of their children. 
Regardless of political persuasion, most residents were uncomfortable 
with the process. While many expressed they did not support immigrants 
breaking the law, they felt that many had been in Scott County and 
Mississippi for more than 10 years, and had become a vital and 
contributing part of our community. The children are integral members 
of the school families and have relationships with other students who 
are not immigrants. They are leaders in the academics, sports, and 
other school activities. They have become a part of our community 
fabric and make contributions in all walks of life. In fact, my 
grandson's friend's mother was arrested. Tears were shed by both of 
these youth. Even at early ages, they question the motives of officials 
orchestrating the raids. My heart aches to see these youth affected to 
the extent they may lose hope for a future where justice and fairness 
are extended to all persons.
    At least 200 members of our church community, St. Michael's 
Catholic Church, remain in jail as a result of the raids. The vast 
majority of our parish membership is Hispanic and their absence is 
visible in all facets of the church's operations. Many of these 
parishioners work long and hard to support the church as well as the 
local economy. They, along with other immigrants, carry their loads in 
our towns and contribute significantly to our local economy. The raids 
have affected the local economy and the absence of workers and their 
financial investments are quite noticeable.
    The local churches and organizations immediately responded to the 
crisis following the arrest of detainee family members. The United 
Methodist Church was among the first to respond and was joined by other 
churches and missions. The Food Network in Morton, St. Michael's, and 
the Baptist Association have also been instrumental in providing 
assistance. The United Methodist Trinity Mission continues to provide 
humanitarian assistance with distribution of food, donated by various 
organizations and persons, and payment of utilities and rent. The 
community support has decreased slightly over time but there are 
several churches and organizations that continue to provide assistance.
    We have been fortunate to have legal assistance from local and out-
of-State lawyers. Legal assistance clinics were held at Legacy's 
office, Trinity Mission, St. Michael's, and San Martin's Catholic 
Churches. Many detainees arrested during these raids have had initial 
court appearances in Federal court, including the Legacy Change Agents 
and their families. Legal assistance is being provided and coordinated 
through the MS Center for Justice and other legal entities.
    There are many questions posed by our community residents 
concerning the timing of the raids, the secrecy of the raids, the lack 
of planning and coordinating these actions, and the lack of compassion 
for the children whose families have been destroyed. Additional 
concerns are the lack of prosecution of employers who hired the 
immigrants without checking their citizenship status, and the failure 
to provide detainees with notice as to the specific criminal charges.
    Unfortunately, the efforts to terrorize Hispanic immigrants have 
been successful and the majority, some of whom have their papers and 
are legal, remain intimidated.
    These raids disrupted many lives in our communities. In fact, many 
families have been destroyed and may never recover. I am saddened for 
our children that this type of gestapo action has returned to our 
State. What a shaming indictment.

    Chairman Thompson. Thank you very much for your testimony.
    I now recognize the gentlelady, Ms. Lewis, to summarize her 
statement for 5 minutes.

   STATEMENT OF LORENA QUIROZ-LEWIS, LEAD ORGANIZER, WORKING 
     TOGETHER MISSISSIPPI, MISSISSIPPI IMMIGRANT COALITION

    Ms. Quiroz-Lewis. Thank you, Chairman Thompson, and Members 
of the House Homeland Security Committee for the opportunity to 
testify today and for holding this field hearing here in 
Mississippi to shine a light on the devastating impacts of the 
August worksite raids.
    My name is Lorena Quiroz and I am the immigration project 
lead organizer with Working Together Mississippi. I have been 
working, along with many others, to support families in crisis 
in response to the aftermath of the raids.
    Three months later, this work is on-going. Today, I am 
sharing a few stories from impacted individuals and families. 
Many of these individuals could not be here today with us, some 
because they are afraid and some because they are still in 
detention. But their stories must be told.
    August 7, 2019, was the first day of school in Mississippi. 
We heard the news that ICE detained 680 people at poultry 
plants in the central part of the State and sprung into action.
    Many kids would return home from school to find one or both 
of their parents gone that day. For those who were detained in 
the raids, recounting the brutality of the officers is painful.
    One individual said, we were treated like animals. We were 
told we weren't coming back home. Why do they hate us so much?
    Another woman was in her car when an ICE officer approached 
her. He forcibly removed her from the car after cutting her 
car's--her seatbelt with a knife and then threw her on the 
ground.
    She begged the officer to let her call her children but he 
moved her inside with the rest of the detained workers.
    After the chaos of the raids, people were transferred to 
detention centers in the region. The story of a woman, who will 
refer to as L, demonstrates the many issues in detention from 
language access to treatment of detainees.
    L is still detained 3 months later, despite having 3 
children at home who are in the care of a neighbor. L speaks 
Mam, 1 of 3 ancient dialects that many of those detained speak. 
She speaks just a little Spanish.
    She did not understand the questions that were asked during 
the raid. She was detained in Mississippi and then transferred 
to Louisiana. Her health has deteriorated.
    She eats only once a day and is in constant pain due to a 
chronic ailment. When I went to visit her with her children, 
her 5-year-old didn't recognize her and was afraid to speak to 
her.
    Families continue to scramble to find their loved ones. 
Over half of the person's detained were released. Others were 
sent to 2 detention centers in Mississippi and Louisiana. We 
began to search for the detained by conducting intakes, but 
noticed that days later were weren't able to trace these 
detainees.
    More detention centers began popping up. Individuals 
detained went from being held in 2 detention centers to now 
spread across 13 different detention centers hours apart.
    The trauma that these raids have caused is something that 
will outlast even the legal cases. Children did not sleep for 
days after the raids and still cry every night because their 
mom is not there to put them to sleep.
    I know a teenager who missed several days of school due to 
her anxiety and depression, teased by classmates about her 
family being deported.
    There is a great need for counseling and trauma-informed 
care. But our mental health system is not equipped to handle 
these cases.
    We have very limited capacity and there is only one 
bilingual licensed trauma counselor in the entire State. One. 
She is working around the clock to provide services and to 
train licensed clinicians that are not bilingual on trauma or 
cultural competency while also trying to get them interpreters.
    This community and these families are hard-working and 
proud people. They often work 10 to 12 hours a day enduring 
horrendous working conditions. Workers tell stories of sexual 
harassment, lack of bathroom breaks, and child labor. Many of 
these families have been a part of our community for years, 
even decades.
    They have purchased homes, cars, opened bank accounts, plan 
rodeos, attend a church, held quinceaneras, even became 
business owners.
    We can address the immediate crisis before us caused by the 
anti-immigration policy of the current administration. This 
work must be done while we continue to create new and welcoming 
immigration policies that effectively put people on a pathway 
to citizenship and create safe and better paying working 
environments.
    What needs to happen next? Individuals detained should be 
released and reunited with their families. The Government 
should immediately provide documentation on the whereabouts of 
all still in detention.
    Additional funding and resources for mental and other 
health-related issues are needed. A long-term crisis fund 
should be established with public and private dollars.
    We must end work-site raids and enforcement activities that 
tear families apart. Congress must hold DHS and ICE accountable 
for its actions and fight to hold the line against DHS's 
growing budget.
    Money for enforcement activity only results in the 
devastation of our communities and lasting trauma. Our families 
deserve to be united and free in their own communities.
    Chairman Thompson, if we work together to address these 
issues we can move forward and build a welcoming community in 
Mississippi.
    [Speaking foreign language.]
    Thank you.
    [The prepared statement of Ms. Quiroz-Lewis follows:]
               Prepared Statement of Lorena Quiroz-Lewis
                            November 7, 2019
    Thank you, Chairman Thompson and Members of the House Homeland 
Security Committee, for the opportunity to share my testimony here 
today, and for holding this field hearing here where so many people 
were impacted by the huge worksite raids in August.
    My name is Lorena Quiroz and I am the Immigration Project Lead 
Organizer with Working Together Mississippi (WTM), a State-wide 
organization that is committed to building a non-partisan, 
institutionally-based vehicle of civic engagement in Mississippi. In my 
role with WTM, I coordinated the organizing response to the raids in 
relationship to 3 of our members: Catholic Charities, the Catholic 
Diocese of Jackson, and the Mississippi Center for Justice.
    In the aftermath of the raids here in August, I have been working 
with our community to support impacted families. I will share a few 
stories from impacted individuals and families that I have spoken with 
over the last 3 months across the region. Many of these individuals 
could not be here with us today. Some because they are afraid, and some 
because they are still detained 3 months later. I'm here because their 
stories must be told.
                  the view from the ground on august 7
    August 7, 2019 was the first day of school here. As soon as we 
heard the news that Immigration & Customs Enforcement (ICE) had 
detained 680 people at 6 different poultry plants in the central part 
of the State, we sprung into action, knowing that many kids would 
return home from school to find one or both of their parents gone. This 
was the case of a 13-year-old who pleaded on camera, ``I want my mom.''
    Neighbors sprung into action to help out and to try to explain the 
unexplainable to young kids that their parents weren't coming home.
    Recounting the brutality of the raids is painful. One impacted 
individual said, ``We were treated like animals, like criminals taunted 
by the ICE officers. We were told we weren't coming back home. Why do 
they hate us so much? If only they knew, we left our families and 
friends, we came here so that our children could have a chance at a 
better life.''
    One woman, ``M,'' recalls being pushed to the floor, and being made 
to kneel and held at gunpoint.
    Another woman told us of being in her car when an ICE officer asked 
for her papers. He forcibly removed her from the car after cutting her 
seat belt with a knife, and then threw her to the ground, tying her 
hands very tightly. She begged the officer to let her call her children 
who were in school but he moved her inside with the rest of the 
detained workers.
    After the workers were arrested at this particular plant, she 
described how they were all put on a bus and told they were going 
somewhere where there fingerprints would be taken. The officers teased 
her and the other workers by offering water which none of them could 
drink because their hands were still bound. This mom of two young kids 
was terrified and felt sick. She had just worked a night shift and felt 
like she was going to faint. She is still scared of what will happen to 
her and her children.
                        the view from detention
    After the chaos of the raids, people were transferred to detention 
centers in the region without access to interpreters. The majority of 
people detained speak a language other than Spanish or English, and 
couldn't fully understand the directions they were given during the 
raid or the questions being asked--especially questions about whether 
there was someone at home to care for children. This language barrier 
resulted in children being left in the care of friends, extended family 
and neighbors. And while in detention, people were asked to sign 
documents that were not translated and without the help of an 
interpreter to understand the documents in their own language. Most 
submitted to authority without any hesitation or understanding of their 
rights.
    I worked directly with the family members to try to locate those 
detained and access basic information about their cases, and to help 
them set up visits to the detention centers.
    ``L's'' story illustrates many of these issues in detention. She is 
still detained 3 months later despite having 3 children at home. Thanks 
to a neighbor, her children are cared for, but still there is a worry 
that the neighbor could be detained or that the children will be taken 
away. L speaks Mam, which is 1 of 3 ancient dialects that many of those 
detained speak--and she speaks just a little Spanish. This language 
barrier makes communication very difficult and so she did not 
understand the questions that were asked during the raid. First she was 
detained in Mississippi and then was transferred to Louisiana. Her 
health has deteriorated while she has been detained--she eats only once 
a day and is in constant pain due to a chronic ailment. When I went to 
visit her with her children, her 5-year-old didn't recognize her and 
was afraid to speak to her. I have submitted for the record many other 
letters and stories recounting horrible conditions in detention that 
demand this Committee's oversight.
    In the last 3 months, so many families have been scrambling to find 
their loved ones. Over half of the persons detained were released, and 
the others were sent to 2 detention centers in Natchez, Mississippi and 
Jena, Louisiana. As a community with organizers and attorneys, we began 
the search for the detained by conducting intakes and we began to 
notice that days later we weren't able to trace these detainees. 
Detention centers began popping up in different parts of Mississippi 
and Louisiana, so that individuals detained in the raid went from being 
held in 2 detention centers to now spread across 13 different detention 
centers.
    To say that communication with loved ones is a challenge is an 
understatement. The barriers seem insurmountable and they continue to 
multiply. The disappearance of family members to another detention 
center is traumatic and expensive because planned visit dates can no 
longer happen with the transfers and phone calls for a week cost more 
than an average phone bill. The Mississippi Immigrant Coalition has 
been helping offset some of these costs, but bills are on-going and 
there's a limit to the amount of funding available.
                             lasting trauma
    Families are living in fear, depressed and anxious. The trauma that 
these raids have caused is something that will outlast the legal cases 
and maybe even the lives of those detained.
    I have heard about children who did not sleep for days after the 
raids and still cry every night because their mom is not there to put 
them to sleep. The impact on children in high school should not be 
overlooked. I know of a teenager who missed several days of school due 
to her anxiety and depression, and was also teased by classmates about 
her family being deported. Other children in high school have told me 
that they are required to attend truancy detention after school because 
they missed so many days of school. They are being forced to pay for 
something they had no control over because of the atmosphere of fear 
that was created after the raids. In addition to fear, others were 
would not stop crying, still others had no parents at home to help them 
get ready for school.
    There is a great need for counseling and trauma-informed care, but 
our mental health system is not equipped to handle all these cases. We 
have very limited capacity and there's only one licensed trauma 
counselor in the entire State. One. She is doing her best to write 
reports for attorneys, to schedule appointments for children, teen 
groups, and to make referrals. She is working around the clock to 
provide services and to train licensed clinicians that are not 
bilingual on trauma or cultural competency, while also trying to get 
them interpreters.
    We can do better than this. We need more support to handle this 
humanitarian crisis caused by the worksite raids.
                               now what?
    These are hardworking and proud people. They often work 10 to 12 
hours a day enduring horrendous working conditions. The smell of the 
plants remains in their nostrils even after work hours. They are forced 
to pay for their own safety equipment and work tools. Workers tell 
stories of sexual harassment. They tell of not being able to take 
bathroom breaks. They have often been humiliated verbally abused. Child 
labor has also been a part of the work life of these plants.
    Many of these families we're talking about today have been working 
here for years, even decades. They're a part of our community and 
contributors to our economy. They've purchased homes, cars, opened up 
bank accounts, planned rodeos, attended church, held quinceaneras, even 
became business owners.
    Hundreds of families lost their only source of income after the 
raids, which has impacted the economic fabric of this community. Many 
of the people released have ankle monitors and are no longer able to 
work. Churches and community and advocacy groups have rallied together 
to raise money to help out with basic needs. Volunteers give up their 
time to be able to help distribute humanitarian aid and provide help 
with utilities. There's so much more to life than this--but children no 
longer have birthday parties and families no longer gather together--
our community sacrifices the beauty of life that brings people together 
because they are simply trying to survive each day.
    My question as a U.S. Citizen and an immigrant myself from Ecuador 
is: Can't we do better? Can we not live up to the religious values of 
our diverse traditions that call for us to welcome the stranger? Can we 
not live up to the American tradition of welcoming the huddled masses 
yearning to be free?
    I say that we can. The following are some suggestions that can be 
implemented and funded by public/private partnerships. These 
partnerships can deal with the immediate crisis before us caused by the 
anti-immigrant policies of our current administration. This work must 
be done while we continue to create new and welcoming immigration 
policies. Policies that welcome those who contribute to rebuilding and 
bringing new life to these rural communities. Policies that create a 
legal pathway for those who are willing to do work that others do not 
want to do, and policies that create safe and better-paying working 
environments.
    Here are my brief suggestions:
  <bullet> Individuals detained in the raid should be released and 
        allowed to reunite with their families.
  <bullet> Transparency and accountability from DHS is critical. The 
        Federal Government should immediately provide documentation on 
        the whereabouts of all still in detention.
  <bullet> Funding and resources for mental and other health-related 
        issues facing these families and their children should be 
        developed with governmental and private participation.
  <bullet> Interpreters should be trained and made available to 
        schools, mental health professionals, law enforcement 
        personnel, and legal service workers.
  <bullet> A long-term crisis fund should be established with public 
        and private dollars.
    Here in Mississippi, we can see how this level of harm and 
devastation could have been prevented. And we also know that while the 
scale of what happened here is large, it is not an isolated set of 
events, but part of the increased enforcement efforts under this 
administration. We must end worksite raids, and enforcement activities 
that tear families apart leaving communities struggling to survive. 
Congress must hold DHS and ICE accountable for its actions and 
treatment of our community members--our families, friends, and 
neighbors--by holding investigations and demanding answers. This 
hearing is the first step. Congress must also fight to hold the line 
against DHS's growing budget. Money for more enforcement activity only 
results in the devastation of our communities and lasting trauma. Our 
families deserve to be united and free in their own communities and we 
will all work together to fight for that day to come. Chairman 
Thompson, I believe if we work together to deal with the issues I have 
just raised, we can move beyond this crisis and build a welcoming 
community in Mississippi.
    Thank you.

    Chairman Thompson. Thank you very much. I thank the 
witnesses.
    [Applause.]
    Chairman Thompson. I thank the witnesses for their 
testimony. I will remind each Member that he will have 5 
minutes to question the panel.
    I now recognize myself for questions.
    Mr. Johnson, given your work in the U.S. Attorney's Office 
and the work with these families, is your testimony here that 
there was some discretionary authority that could have been 
exercised with respect to this raid?
    Mr. Johnson. It is, Congressman Thompson.
    The Department of Justice publishes a Justice Manual 
recognizing that we don't prosecute cases criminally in each 
instance where there may be a technical violation of the law 
and they provide specific guidance that makes clear that simply 
because a Government lawyer believes a crime may have been 
committed and even if they believe they can prove it in a court 
of law, the manual says that the prosecution must also serve a 
substantial Federal interest and they must assess whether there 
is an adequate non-criminal alternative to prosecution.
    Prosecutorial discretion in our system is vitally 
important. U.S. Attorney Hurst said in the aftermath of these 
raids that we are a country of immigrants but we are also, and 
more than that, a country of laws, as if he and the Department 
of Justice had no choice but to prosecute every matter they 
thought might be a violation.
    That is not the case. To the extent that that is what he 
intended to communicate, the Department of Justice Justice 
Manual speaks to the contrary.
    Chairman Thompson. Father Medina, can you give this 
committee your experience in contacting or attempting to 
contact ICE on behalf of some of the families that you were 
working with?
    Father Medina. Well, the day of the raids I tried to reach 
them to see where the people were and I didn't have any access. 
Actually, nobody knew where the people were. We went to the 
office--ICE Homeland Security office here in Jackson. Nobody 
were there. So I didn't have any result trying to reach them.
    Chairman Thompson. So your testimony is that the day of the 
raid those individuals who might have had an interest in what 
was going on didn't have anybody to talk to?
    Father Medina. No. I went to the office of ICE Homeland 
Security and it was locked. So they moved to someplace else, I 
believe in airport or Army facility, and they were--they have 
the people. So I----
    Chairman Thompson. Ms. Harvey, as I understand it, part of 
the requirement or the protocol is that--and we will get to it 
with our next panel--but ICE officials are supposed to, like, 
notify school districts, human service people that they are 
preparing this.
    This was the first day of school.
    Ms. Slaughter-Harvey. This was----
    Chairman Thompson. So are you aware of any notification 
that occurred in Scott County?
    Ms. Slaughter-Harvey. I am aware that it did not occur. 
Several employees at the Mississippi Department of Children's 
Services--Children's Protective Service--were caught off-guard, 
were absolutely shocked.
    In fact, their supervisors were not notified. The 
principals and the superintendents in 5 public schools in Scott 
County, one went on television and stated that he had 
absolutely no knowledge of what happened and his efforts to 
contact someone responsible--those efforts were in vain.
    Chairman Thompson. So, basically, those children in the 
custody of the school district at the time of the raids--the 
school district didn't know what was going on?
    Ms. Slaughter-Harvey. No idea. No idea, and what happened 
is that because of the confusion the students whose parents 
were arrested did not come to school the next day.
    Chairman Thompson. Yes.
    Ms. Slaughter-Harvey. They were traumatized.
    Chairman Thompson. Mr. Johnson, you wanted to say 
something?
    Mr. Johnson. I did not, your Honor.
    Chairman Thompson. Oh.
    So, Ms. Lewis, can you give the committee some of your 
experience with trying to make contact with ICE on behalf of 
some of the people we are talking about here today?
    Ms. Quiroz-Lewis. Many of the problems arose because of the 
language barrier. A lot of people assumed that the folks that 
were arrested spoke Spanish. But their language--it is a 
different language they speak, at least 3 or 4 different 
languages.
    So reaching out to us, even that in itself was a little bit 
complicated and there are no interpreters that speak the 
indigenous language here in the State of Mississippi.
    So that was difficult trying to find. We also had intakes 
done and then as they moved around in detention centers we just 
kept losing people, kept--we couldn't trace anyone.
    Chairman Thompson. Thank you very much.
    I will yield to the gentlelady from Houston for 5 minutes.
    Ms. Jackson Lee. Mr. Chairman, first of all, let me thank 
you for holding this probably one of the most significant 
hearings that the Homeland Security Committee has held and it 
is attributable to your leadership and I am grateful to be in 
your community at this time.
    It is very difficult to assess and to provide my outrage in 
a short period of time. But let me say that this is one of the 
most or maybe the most cruel and inhumane forms of government 
action that I have seen in a very, very long time.
    [Applause.]
    Ms. Jackson Lee. I am so grateful for the astute leadership 
of all of you as panels and, certainly, I want to acknowledge 
the leadership of Dr. Constance Slaughter-Harvey because she 
captured the connection of how the criminal justice system can 
be used as it relates to colored people and we become the 
product of that system.
    Mass incarceration is an example. Lynching is an example of 
the use of one's race or background to oppress them.
    So let me quickly get to my questions and say that I hope 
out of this hearing many of us propose a variety of remedies. 
But let me try to go to Mr. Johnson.
    If I don't get to all of you--I am very grateful, Father 
Medina, for your leadership. I come from the Houston-Galveston 
diocese and we are always engaged in these issues dealing with 
our brothers and sisters.
    But let me specifically go to you, Mr. Johnson--Professor 
Johnson, former U.S. Attorney. There is something about value 
when you get into a case. Could be a DA raid where you shut 
down a major cartel linkage or a major meth operation, and you 
assess the value.
    Six hundred and eighty workers--303 of them were released. 
That is almost half that didn't need to be arrested at all, to 
be honest, and 32 of those 303 individuals, including 18 
minors, were released on-site.
    Tell me if you, in your work, would analyze the 
effectiveness of that kind of raid as it relates to resources 
and relates to results. I want to get to Ms. Quiroz-Lewis so if 
you could, very quickly.
    So when we at the Federal Government give money to the DOJ, 
this is wasteful. Those who might have been relevant as a 
danger to the community could have been picked up if they were 
known to be workers quietly at home or at work.
    Mr. Johnson.
    Mr. Johnson. Congresswoman Jackson Lee, all I will say is 
you are absolutely right. I find this a shocking use of DOJ 
resources. They brought in 600 Federal agents, Congresswoman, 
to arrest 680 people.
    The amount of money spent, the manpower, committed to 
arresting people who have been working in these communities for 
years and decades, have been law-abiding citizens is troubling.
    There are issues that the Department of Justice could and 
should address. They make these decisions to the exclusion of 
other law enforcement priorities and opportunities.
    So we are spending time arresting these good people and 
locking them up in our jails when we have real problems, and I 
would be very concerned, Congresswoman Jackson Lee, if I was--
--
    Ms. Jackson Lee. Thank you.
    So that is an investigation that we need to initiate either 
out of Homeland and some of the responsibilities.
    Let me quickly ask 2 questions to Dr. Constance Slaughter-
Harvey and then to Ms. Quiroz-Lewis.
    I understand, Ms. Quiroz-Lewis, if you and then--that many 
of these are Guatemalans. I don't know if many people know that 
a lot of Guatemalans came here. I think it was an earthquake 
just some months back.
    But in any event, a lot of issues are going on in Central 
America. But they have an indigenous language. I want you to be 
able to just pierce into that how difficult it is for their due 
process rights to be exercised when no one can communicate, and 
they may perfectly have a legitimate reason and right to either 
seek asylum after the fact or some other remedy.
    To you, Doctor, if you could comment on the idea of when 
the laws are misused against people of color who don't have 
rights or the wherewithal to defend themselves.
    Ms. Quiroz-Lewis.
    Ms. Quiroz-Lewis. Yes, and I spoke about L. It was very 
difficult for me to communicate with her, and she spoke 
Spanish. So I can just imagine what it was like hearing the 
orders in the language that she wasn't familiar with.
    Also, when she was arrested she couldn't understand what 
was going on, signing papers which she couldn't read of a 
completely different language.
    We say that people understand in the language of their 
heart. That is the language that they learn at home. So 
everything is confusing.
    Then they get yelled at in a different language because 
people assume that they speak Spanish. There is 4 different 
indigenous languages.
    Ms. Jackson Lee. Right.
    Ms. Quiroz-Lewis. Calling people to interpret in the court 
we have to find court interpreters from all over the country 
because there is such a limit--such limited resources.
    So this has been excruciating even for the folks that are 
doing organizing work to doing the legal intakes to make sure 
that everything that they--that they are receiving they are 
understanding accurately, because one word can really cause a 
serious mistake in the due process in the legal and then also 
to obtain resources for them.
    Ms. Jackson Lee. Doctor.
    Ms. Slaughter-Harvey. Yes, ma'am.
    Madam Congressman, it is a nightmare--it has been for many 
years--to provide quality legal services to individuals who 
cannot communicate.
    We could not communicate in Mam. Some of us can't 
communicate in Spanish, and to advise an individual of their 
Constitutional rights or basic rights that we would extend to 
anyone in our language when they cannot understand is a 
travesty.
    We found that in this particular instance, many of the 
detainees, most of whom were Guatemalans, had no earthly idea 
as to what was being said. None whatsoever. None of the agents, 
as I understand it, could speak Spanish and definitely not Mam.
    The individuals who were speaking Mam when they were 
brought before our Federal judge, she was kind enough to have 
an interpreter from California on the line.
    The other individuals who speak Spanish were in the dark. 
It was only the individual who could speak Mam that could help 
these individuals.
    So it is really--as I said, it is an indictment on our 
system.
    Ms. Jackson Lee. I thank the Chairman. I thank the 
witnesses.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much. Thank you very 
much.
    We will--and I will say this again at the end--we will 
probably have some questions based on some of the answers that 
we have had from the witnesses today and we will get back to 
you.
    We will now recognize the gentleman from Houston, Mr. 
Green, for 5 minutes.
    Mr. Green of Texas. Thank you, Mr. Chairman, and I would 
like to thank the witnesses for appearing today and I want to 
compliment all of the many people who have taken the time to be 
here.
    Mr. Chairman, as you know, we have these field hearings 
across the country and your constituents have demonstrated that 
this is of interest to them and that means a lot to me, 
personally, and I think to the committee as a whole.
    Let us not make the mistake of assuming that what ICE 
imposes is not the will of the President.
    Ms. Slaughter-Harvey. All right. All right. All right.
    Mr. Green of Texas. I think we have to acknowledge that 
when the President says this is a deterrent that this is 
something that is coming from the White House and it is 
difficult to imagine how a President can see children separated 
from their parents--babies--and still say that this is a 
deterrent.
    [Applause.]
    Mr. Green of Texas. It is difficult to imagine. It is a 
very painful thing to have to grapple with these issues. But 
let us do so.
    Attorney Johnson, you indicated that these people were not 
a threat. Let us for the record now place evidence in the 
record of what you say.
    Is it true that there were no gangs of Latinos that were 
threatening and terrorizing the people in this area? Is this--
is this the case? No gangs, Attorney Johnson?
    Mr. Johnson. That is true, Congressman Green. One hundred 
percent true.
    Mr. Green of Texas. Father, are you aware of circumstances 
in the area? Would you agree that there were no gangs?
    Father Medina. Not at all.
    Mr. Green of Texas. Your Honor.
    Ms. Slaughter-Harvey. Yes, sir.
    Mr. Green of Texas. Any gangs that you have heard of 
terrorizing people--Latinos?
    Ms. Slaughter-Harvey. No, sir. I work as a youth court 
prosecutor in Scott County and it has never come to my 
attention, not to my desk, that there were any gangs, Latino or 
Hispanics, in Scott County.
    Mr. Green of Texas. Ms. Quiroz-Lewis.
    Ms. Quiroz-Lewis. No, sir. I work directly with the 
families and the youth organizing and none of that is present.
    Mr. Green of Texas. Now, there are those who would say that 
the persons arrested were a drain on the economy--that they--
they are the reason that your unemployment rate may not be at 
someplace comparable to the National average.
    Were they a drain on the economy, Attorney Johnson?
    Mr. Johnson. To the contrary, Congressman Green. They are a 
vital part of an industry that creates $3 billion of revenue 
each year in Mississippi alone.
    In addition, you do not hear Mississippians clamoring for 
the jobs that these people held and have held for quite some 
time.
    Mr. Green of Texas. Father.
    Father Medina. I am sorry. I didn't follow you.
    Mr. Green of Texas. Are they a drain on the economy? Did 
they take up services that others would have benefited from but 
for them being here?
    Father Medina. Of course, I believe that the local economy 
and National economy is--they are giving a lot to the local 
economy and the National economy. They are hard workers.
    Mr. Green of Texas. Thank you.
    And Judge?
    Ms. Slaughter-Harvey. Quite the contrary. Hispanics and 
Latinos in Scott County work hard. They have many skills. But 
they are not appreciated when it comes to compensation.
    The chicken plants where most of them are employed have 
suffered because no one would take the jobs that they took.
    So no, sir, they are not a drain. In fact, just the 
opposite.
    Mr. Green of Texas. Ms. Quiroz-Lewis.
    Ms. Quiroz-Lewis. No, sir. One of the things that I 
witnessed when we accompanied our victims to their bail bond 
hearing, one of the first things they asked the judge is, can I 
work--can I go back to work, even until I am asked to leave 
this country? I just want to work.
    Mr. Green of Texas. National studies have shown that those 
persons who are part of the immigrant community have lower 
crime rates than the general population and some of it has to 
do with the fact that they want to stay out of the view of the 
constabulary.
    Have you found that the crime rate in the community has 
been higher, just based on your anecdotal evidence, Attorney 
Johnson?
    Mr. Johnson. I think the crime rate in this community is 
exceedingly low. You will hear from Sheriff Lee, who will 
confirm that.
    One of the troubling things, as you know, Congressman 
Green, is they are so concerned about being caught up in the 
system that they under report when they themselves are victims 
of crimes.
    Mr. Green of Texas. Let me just move quickly.
    If you agree with Mr. Johnson--Attorney Johnson--would you 
kindly just extend the hand into the air so that I can build a 
record?
    Let the record reflect that all of the persons on the panel 
have agreed that the crime rate is low.
    Let me close with this. I appreciate what you do as persons 
associated with NGO's, various community organizations. This is 
not going to be easy. But what you are doing today will make it 
better for us to do something to make a change.
    Thank you very much, Mr. Chairman. I yield back the balance 
of my time.
    Chairman Thompson. Thank you. The gentleman yields back.
    [Applause.]
    Chairman Thompson. The Chair now recognizes the gentleman 
from Memphis, Tennessee, for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chairman.
    First, I would like to commend your representative here. 
Representative Thompson is most respected in Washington. He is 
Chairman of an important committee and his holding this hearing 
is important. I appreciate him inviting me here.
    I also want to reference, you know, it is not necessarily a 
derision when he said that he thinks of Memphis as being a part 
of Mississippi.
    Mississippi has given us many of our greatest cultural 
artists who have left Mississippi--Elvis and B.B. King and a 
lot of others have left Mississippi for Memphis. Mississippi 
has given Memphis many of its finest citizens and we have given 
DeSoto County some of our worst.
    [Laughter.]
    Mr. Cohen. Memphis is known in song as ``Memphis in the 
Meanwhile'' of John Hiatt or ``Long Distance Information, Get 
Me Memphis, Tennessee.'' Mississippi, I can only think of Nina 
Simone. But Nina Simone was thinking of an old Mississippi that 
Judge Slaughter-Harvey remembers.
    Judge Slaughter-Harvey, is that connection with the old 
Mississippi that Nine Simone sang of similar to what we have 
with immigrants, that there are efforts by--in this State that 
are antagonistic toward others--toward people of color?
    Ms. Slaughter-Harvey. I would say that if not the same 
maybe a little worse. It is really disheartening to look at 
some of the officials who are responsible for guaranteeing 
basic rights and notice how they look at the immigrants, how 
they treat them, and how they speak to them.
    I can identify with the disrespect and the inhumanity 
because I was treated in a similar way but not nearly as bad. I 
knew my rights as an American citizen. These individuals don't 
know their rights.
    I could demand my rights. I could fight. They can't. So I 
could protect myself. They can't.
    Mr. Cohen. Let me remind everyone of the fact that on 
June--well, it wasn't June, it was April 5, 2018 there was a 
raid in Bean Station, Tennessee, which at the time was the 
largest workplace raid in our Nation in nearly a decade, and it 
was so similar to this one it is eerie.
    I have my notes from a hearing we had concerning that. We 
wrote Secretary Nielsen, probably to deaf ears, and 
Commissioner Kautter and it was similar with the way the 
children were treated--they were traumatized--and the actions, 
and the fact that the employer was not arrested. This was a 
meat processing plant. But the employer was not arrested but 
the employees were.
    It makes me think that what this was--what did Tennessee--
Mr. Johnson, you said why Mississippi. I suspect why 
Mississippi and why Tennessee is because this is red meat--red 
meat--that Trump is throwing to his base to say, look, I am for 
you, and it is why----
    Mr. Johnson, do you think that might have been why it 
happened here?
    Mr. Johnson. I certainly believe that might have been why 
it happened here because there is no other good explanation, 
Congressman Cohen.
    There has not been any sense in Mississippi that we are at 
risk in any way, that our communities are endangered in any 
way. So what else might it be but the dictates of an 
administration that hasn't learned the lessons of history, that 
when you round up people based on the color of their skin or 
their country of origin, we always look back in horror and 
shame.
    Mr. Cohen. You mentioned the previous U.S. Attorney. Was 
that an Obama appointee?
    Mr. Johnson. It was an acting U.S. Attorney who had begun 
at the end of the Bush administration and then was carried over 
into the beginning of the Obama administration.
    Mr. Cohen. Bush is starting to look pretty good.
    [Laughter.]
    Mr. Johnson. I have said that more than once, to my 
surprise.
    [Laughter.]
    Mr. Cohen. You know, I am sorry of what occurred here and 
it is similar to what happened in Tennessee, and I think it is 
a demeaning of America.
    The economy here, and Father Medina, you might know, or Ms. 
Lewis--I don't know, but in Morristown, Tennessee, which is far 
to the east, this hurt the economy of Morristown.
    Has this hurt the economy here in Mississippi as well?
    Ms. Quiroz-Lewis. Yes.
    Father Medina. Yes.
    Ms. Quiroz-Lewis. Very much so.
    Mr. Cohen. It has?
    Ms. Quiroz-Lewis. Yes, sir.
    Mr. Cohen. The policy of this administration is to use 
these raids, theoretically, to deter immigration along our 
Southern Border.
    Does this, do you believe, in any way at all diminish the 
people in Central America who want a better place to not come 
here?
    Mr. Johnson.
    Mr. Johnson. They are driven by the human spirit and I 
don't think anything is going to stop the effort to better your 
situation and help your children.
    Mr. Cohen. So you don't think they read the Jackson Clarion 
Ledger down there in Guatemala?
    [Laughter.]
    Mr. Johnson. Or paid any attention to it.
    Mr. Cohen. Thank you.
    I yield back the balance of my time.
    Chairman Thompson. The gentleman yields back.
    Let me thank our panel of witnesses. You have been 
excellent. I will allow a Member who might have another 
question if they want.
    But let me make a couple comments. You know, a lot of the 
people who ICE detained never got a--never got their check, and 
we have been struggling, trying to make sure that wherever 
those individuals are, they should have received a paycheck.
    So we have been working the various agencies to try to make 
sure that that happens. One of the things we hear around the 
country is that companies take the lost wages and keep them, 
and so the families never receive the checks.
    So we are trying to work with local officials to make sure 
that those families, in fact, receive whatever earnings that 
they were due, and that is a challenge.
    The other thing is because we are a nation of laws, we can 
treat people better than what these raids signify and I think 
this hearing is trying to elevate that.
    I have, for the record, it cost--this is the--it cost 
$478,000 to conduct that 1-day raid. That is a significant 
amount of money.
    We are still trying to get some of the other costs. But 
those are dead salary costs that it cost for that raid. That is 
a lot of money, and we think that while the people were doing 
their job, that discretion, because I have seen businesses that 
are no longer open because their customers are no longer 
around, and that is part of that economic concern that 
Congressman Green talked about, and others.
    So I think if the individuals impacted have not been a 
threat to the community, then the community should have been 
engaged in whatever you did.
    So we will hear in our next panel of witnesses what 
actually took place. I look forward to it.
    Any other questions?
    Ms. Jackson Lee. Mr. Chairman, if I could just ask Mr. 
Johnson, does he have a record of how many children are still 
separated from their parents.
    Either Ms. Quiroz-Lewis or Mr. Johnson, do you have any 
knowledge?
    Mr. Johnson. We have attempted to come up with a number, 
Congresswoman. We think the number of children affected overall 
exceeds 1,500 children.
    Many children may have one parent present but another 
parent is still incarcerated, detained, as Ms. Quiroz 
recognized.
    Chairman Thompson. There is an outstanding letter to ICE 
asking for that.
    Ms. Jackson Lee. So we will get to ask that again. Do you 
have any numbers?
    Ms. Quiroz-Lewis. Yes. No numbers, but we have several 
families that we are working with and it just complicate things 
so much because they are American citizens--these children--and 
then trying to reunite them if they get deported causes a 
myriad of problems. So there is just a lot of suffering still.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Chairman Thompson. Thank you. Let me thank the panel.
    Mr. Johnson, do you want a closing statement?
    Mr. Johnson. If I may add one thing.
    I think we would be remiss, all of us would be, if we 
didn't recognize that we are part of a larger coalition--the 
Mississippi Immigration Coalition.
    It is dangerous to attempt to list everyone but I think, 
your Honor--Congressman Thompson--it is important for everyone 
to recognize the hard work of organizations like MIRA, Bill 
Chandler, and Patricia Ice who have worked in this field for a 
very long time; El Pueblo Mississippi, the Mississippi Center 
for Justice, the Southern Poverty Law Center, ACLU, SEIRN, 
FWD.us, the clinics at Ole Miss Law School, Bob Hildreth, who 
gave generously to our bond fund. We spent over $400,000 of 
privately-raised money to try to bond out at this point about 
60 people; Catholic Charities of the Jackson diocese, the faith 
communities from these communities and countless, countless 
volunteers who have gotten nothing back from this and who are 
still compelled to work.
    This has been a huge effort and we are not equipped to 
handle this. We are doing the best we can, but it has been a 
team effort and I wanted to mention those organizations.
    Chairman Thompson. Thank you very much.
    Let me thank our panel of witnesses again. Your testimony 
will be included in the record. The record will be kept open 
for 10 days. So you might have some questions and we ask that 
you get back to us with your answers.
    Thank you very much.
    [Applause.]
    Chairman Thompson. We are now going to ask our second panel 
of witnesses to please come forward.
    [Pause.]
    Chairman Thompson. We are going to start our second panel 
of witnesses. I welcome the second panel of witnesses.
    Our first witness, Mr. Jere Miles, is a special agent in 
charge of the New Orleans Field Office for U.S. Immigration and 
Customs Enforcement of the Department of Homeland Security.
    Mr. Miles has worked with ICE Homeland Security 
Investigations for over 10 years and has a impressive record. 
Welcome.
    Next, we have the Honorable Michael Lee, who currently 
serves as a sheriff for Scott County, Mississippi. The 
sheriff's law enforcement duties include keeping the peace 
within the county in addition to serving as the county's jailer 
and keeping a jail docket. He currently lives in Forest, 
Mississippi. Welcome.
    Last, Dr. William Truly serves as the mayor of Canton, 
Mississippi. Canton was 1 of the 6 cities where the site of an 
ICE raid on August 7. He was elected to office in 2017 but 
began working in the public interest at the age of 16. He is 
accompanied at the table with the superintendent of Canton 
Public Schools, one of the districts located.
    Without objections, the witnesses' full statement will be 
inserted in the record.
    I now ask each witness to summarize his or her statement 
for about 5 minutes, beginning with Mr. Miles.

 STATEMENT OF JERE T. MILES, SPECIAL AGENT IN CHARGE, HOMELAND 
 SECURITY INVESTIGATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Miles. Chairman Thompson, distinguished Members of the 
committee, thank you for opportunity to be here before you.
    Chairman Thompson. Hit your mic.
    Mr. Miles. I am sorry. Sorry about that, sir.
    Chairman Thompson and distinguished Members of the 
committee, thank you for the opportunity to appear before you 
to discuss HSI's work site enforcement strategy, which consists 
of a 3-pronged approach: Enforcement, criminal arrest of 
employers, administrative arrest of employees, compliance, Form 
I-9 employment eligibility verification inspections, civil 
fines, and suspension and debarment, and outreach of the ICE 
Mutual Agreement between Government and Employers program.
    Homeland Security Investigations is the Department's 
primary criminal investigative agency and it is focused on 
disrupting and dismantling transnational criminal 
organizations.
    As the sole investigative agency, we combine customs and 
immigration authorities. HSI investigates and enforces more 
than 400 Federal criminal statutes that protects our Nation's 
trade, travel, financial, and immigration systems.
    HSI special agents use this authority to investigate all 
types of cross-border criminal activity and work in close 
coordination with our Federal, State, local, Tribal, and 
international partners in a unified enforcement strategy to 
secure the United States.
    Today, I would like to speak about our successful efforts 
in conducting targeted law enforcement operations. We do not 
conduct raids, sweeps, or checkpoints. Any such reports create 
panic and place communities and law enforcement personnel in 
unnecessary danger.
    Groups falsely reporting such activities are doing a 
disservice to those they claim to support.
    HSI utilizes Form I-9 inspections across a wide spectrum of 
industries throughout the United States. HSI refers for 
suspension and debarment from Federal Government contracting 
individuals and businesses that commit serious, criminal, or 
civil offenses or engage in fraud or other seriously improper 
conduct.
    The ICE Mutual Agreement between Government and Employers 
program is a voluntary partnership with the private sector that 
offers training to strengthen the integrity of employers' work 
forces and curb employment of unauthorized workers.
    The IMAGE program seeks to promote principles of ethical 
business conduct and prevent the deliberate hiring of 
unauthorized workers through employers' self-governance.
    As ethical and diligent employers begin to adopt the IMAGE 
best practices, HSI will be able to more efficiently enhance 
its focus on unscrupulous employers and egregious violators of 
the Nation's immigration laws.
    HSI prioritizes its criminal work site enforcement 
investigations by focus on the most egregious violators, which 
include employers that mistreat or exploit their workers based 
upon their unlawful status, aid in the smuggling of their alien 
work force into the United States, create false identity 
documents or facilitate document fraud, utilize unauthorized 
workers as a business model, and/or knowingly and willfully 
hire unauthorized workers.
    HSI continues to prioritize the protection of our Nation's 
critical infrastructures and key resource sectors and 
industries by ensuring that unauthorized workers do not have 
access to sensitive facilities or information.
    On August 7, 2019, HSI executed 8 Federal criminal search 
warrants and 7 Federal civil search warrants. These warrants 
were the result of an approximately 18-month investigation that 
was initiated pursuant to tip line leads against the companies 
involved.
    Today, I will attempt to explain it in the time allotted to 
me. HSI worked diligently to develop a comprehensive plan to 
address the concerns that came out of previous activities of 
this size or nature.
    HSI conducted coordination meetings first on a biweekly and 
later a weekly basis among all of our participating partners as 
well as ICE enforcement and removal operations leading up to 
the execution of the operation.
    Each search location was given its own supervisory group to 
manage detention decisions at a local level to minimize the 
detention period of those determined to be amenable to some 
type of humanitarian release.
    There were 32 such cases to include 9 minors that self-
identified on scene. HSI preassigned personnel to make phone 
calls to the impacted schools after the operations began.
    We also set up a friends and family telephone hotline, 
which provided custody information to relatives and friends of 
individuals who were detained in connection with this 
enforcement operation. This hotline provided information to 343 
callers.
    HSI has dedicated more than 24,000 investigative hours to 
this case, seized more than 850,000 documents, 61 digital 
devices, and more than 22 terabytes of data.
    To date, there are 119 indictments for criminal activities 
and the identification of more than 400 individuals using 
previously-issued Social Security Numbers. That is ID theft.
    These investigations continue. I am grateful for the 
opportunity to appear before you and share HSI's efforts to 
conduct targeted work site enforcement actions and discuss our 
continued commitment to utilize our full complement of 
authorities.
    I thank you for the support you provide HSI as we execute 
our mission and I look forward to your questions.
    [The prepared statement of Mr. Miles follows:]
                  Prepared Statement of Jere T. Miles
                       Thursday, November 7, 2019
    Chairman Thompson, Ranking Member Rogers, and distinguished 
Members: Thank you for the opportunity to appear before you today to 
discuss U.S. Immigration and Customs Enforcement (ICE) Homeland 
Security Investigations' (HSI) worksite enforcement strategy, which 
consists of a 3-pronged approach. We utilize: (1) Enforcement (criminal 
arrests of employers and administrative arrests of employees); (2) 
compliance (Form I-9 Employment Eligibility Verification inspections, 
civil fines, and suspension and debarment); and (3) outreach (the ICE 
Mutual Agreement between Government and Employers program).
    As the largest investigative agency within the U.S. Department of 
Homeland Security (DHS), ICE HSI investigates and enforces more than 
400 Federal criminal statutes to include criminal provisions found 
within the Immigration and Nationality Act under Title 8 and U.S. 
customs laws under Title 19, as well as general Federal crimes under 
Title 18, and the Controlled Substances Act under Title 21. HSI Special 
Agents use this authority to investigate all types of cross-border 
criminal activity and work in close coordination with our Federal, 
State, local, Tribal, and international partners in a unified interior 
enforcement strategy to secure the United States.
    Today, I would like to assure you that ICE HSI conducts targeted 
law enforcement operations. Any reports of arbitrary enforcement 
actions create panic and place communities and law enforcement 
personnel in unnecessary danger. Any groups falsely reporting such 
activities are doing a disservice to those they claim to support.
       introduction to worksite enforcement/interior enforcement
    On November 6, 1986, President Reagan signed into law the 
Immigration Reform and Control Act of 1986, creating both a path to 
legalization for many individuals in the country unlawfully, and 
employer sanctions provisions prohibiting the knowing employment and 
hiring of unauthorized aliens. It also required verification of worker 
identity and employment eligibility to reduce employment as a 
motivating factor for future illegal immigration. The employer 
sanctions provisions further changed with the passage of the 
Immigration Act of 1990 and the Illegal Immigration Reform and 
Immigrant Responsibility Act of 1996. ICE HSI has devoted considerable 
resources to bringing administrative sanctions against unscrupulous 
employers and arresting and administratively removing undocumented 
workers once these workers are subject to a final order of removal. In 
2007, ICE HSI modified its strategy to incorporate criminal 
investigations and prosecution of unscrupulous employers or employers 
who commit egregious violations, and in some cases, seizure of assets 
derived from unlawful employment schemes. ICE HSI continues to use this 
strategy, utilizing a 3-pronged approach of enforcement, compliance, 
and outreach. Interior enforcement, including workplace enforcement, is 
inherently tied to border security and without a sustained and focused 
worksite enforcement effort that addresses the pull factor of illegal 
employment, our ability to change the paradigm of border security will 
be limited.
Enforcement
    ICE HSI prioritizes its criminal worksite enforcement 
investigations by focusing on the most egregious violators, which 
include employers that mistreat or exploit their workers based upon 
their unlawful status, aid in the smuggling of their alien workforce 
into the United States, create false identity documents or facilitate 
document fraud, utilize unauthorized workers as a business model, and/
or knowingly and willfully hire unauthorized workers. ICE HSI continues 
to prioritize the protection of our Nation's critical infrastructures 
and key resource sectors and industries by ensuring that unauthorized 
workers do not have access to sensitive facilities or information. 
Presidential Policy Directive 21 identifies 16 critical infrastructure 
sectors: Chemical; Commercial Facilities; Communications; Critical 
Manufacturing; Dams; Defense Industrial Base; Emergency Services; 
Energy; Financial Services; Food and Agriculture; Government 
Facilities; Healthcare and Public Health; Information Technology; 
Nuclear Reactors, Materials and Waste; Transportation Systems; and 
Water and Wastewater Systems.
Compliance
    Employers are required by law to verify the identity and employment 
eligibility of all new hires and to attest that to the best of their 
knowledge, their employees are authorized to work in the United States. 
To ensure that employers are complying with the law, ICE HSI utilizes 
Form I-9 inspections across a wide spectrum of industries throughout 
the United States. ICE HSI refers for suspension and debarment from 
Federal Government contracting individuals and businesses that commit 
serious criminal or civil offenses, or engage in fraud or other 
seriously improper conduct. A debarment period is proportionate to the 
seriousness of the offense and is generally for a period of 3 years. 
Longer periods can be imposed in cases where there is egregious 
misconduct. Individuals and businesses subject to suspension and 
debarment are excluded from doing business/participating with the 
Federal Government, acting as representatives or agents of other 
contractors, and as individual sureties.
Outreach
    The ICE Mutual Agreement between Government and Employers (IMAGE) 
Program is a voluntary partnership with the private sector that offers 
training to strengthen the integrity of employers' workforces and curb 
employment of unauthorized workers. The IMAGE program seeks to promote 
principles of ethical business conduct and prevent the deliberate 
hiring of unauthorized workers through employer self-governance. As 
ethical and diligent employers begin to adopt the IMAGE best practices, 
ICE HSI will be able to more efficiently enhance its focus on 
unscrupulous employers and egregious violators of the Nation's 
immigration laws. Employers who sign an IMAGE agreement are deemed 
certified upon completion of these requirements: Enrolling in E-Verify; 
establishing a written hiring and employment eligibility verification 
policy to include internal Form I-9 audits at least once per year; and 
submitting to a Form I-9 inspection.
             stakeholders and non-government organizations
    ICE HSI works closely with U.S. Citizenship and Immigration 
Services and the Department of Justice, Immigrant and Employee Rights 
Section to discuss and resolve issues that affect each other's 
authorities, policies, and guidance. This strong working relationship 
allows the agencies to informally and proactively find common-sense 
solutions to complex worksite enforcement issues. ICE HSI also provides 
presentations to non-Government entities (e.g., American Immigration 
Lawyers Association (AILA), trade associations, grower associations, 
State and local government agencies, civic groups, and labor 
organizations). ICE HSI disseminates important information on changes 
to the law or policy and our current worksite enforcement efforts. ICE 
HSI believes that these presentations promote transparency, provide 
clarity of our mission and foster trust and confidence regarding our 
worksite enforcement efforts.
                     the mississippi investigation
    On August 7, 2019, ICE HSI executed 8 Federal criminal search 
warrants and 7 Federal civil search warrants. These warrants were the 
result of approximately 18 months of investigation that was initiated 
pursuant to several Tip Line leads against the companies involved. It 
was during the execution of these search warrants that ICE HSI detained 
680 unauthorized aliens and encountered 18 that were determined to be 
minors (less than 18 years of age) who were released as soon as their 
age was verified.
    ICE HSI worked very hard to develop a comprehensive plan to address 
the concerns that came out of previous activities of this size or 
nature. ICE HSI conducted coordination meetings--first on a biweekly 
and later a weekly basis, among all of our participating State and 
local law enforcement partners, as well as, ICE Enforcement and Removal 
Operations (ERO) leading up to the execution of the operation. Each 
search location was given its own supervisory group to manage detention 
decisions at a local level to minimize the detention period of those 
determined to be amenable to some type of humanitarian release, such as 
the minors that were identified on scene; there were 32 such cases. ICE 
HSI pre-assigned personnel to make phone calls to the impacted schools 
after the operations began and as detainees advised of the existence of 
their children or families. We also set up a friends and family 
Telephone Hotline, which provided custody information to relatives and 
friends of individuals who were detained in connection with this 
enforcement operation. This hotline provided information to 343 
callers.
    In all, ICE HSI dedicated more than 24,000 investigative hours to 
this case, and seized more than 850,000 documents and 61 digital 
devices with more than 22 terabytes of data. To date, there are 119 
indictments for criminal activities and the identification and 
interview of 8 victims of identity theft (unauthorized aliens were 
using SSNs belonging to the victims). These investigations continue.
                               conclusion
    Thank you again for the opportunity to appear before you today and 
for your continued support of ICE HSI and its law enforcement mission. 
ICE HSI is committed to conducting these enforcement operations every 
day in locations around the country as part of the agency's on-going 
efforts to protect the Nation, uphold public safety, and protect the 
integrity of our immigration laws and border security. The men and 
women of ICE HSI conduct themselves with the utmost professionalism and 
integrity as they execute their duties. Those we encounter will 
continue to be treated humanely and respectfully.
    I appreciate your interest in this important issue and look forward 
to your questions.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Sheriff Lee to summarize his statement for 
5 minutes.

   STATEMENT OF MIKE LEE, SHERIFF, SCOTT COUNTY, MISSISSIPPI

    Sheriff Lee. Mr. Chairman and Members of this committee, it 
is an honor and a privilege to be invited to appear before you 
to discuss the recent immigration enforcement actions in Scott 
County.
    I am Mike Lee. I am sheriff of Scott County. I have been 
since 2007. I previously served as chief of police for the city 
of Forest for 10 years and have nearly 30 years of law 
enforcement career enforcement.
    I have lived in Scott County all my life. As the highest-
ranked law enforcement officer in Scott County, I am 
responsible for policing our entire county.
    For a perspective of our county, Scott County is east of 
our capital city, Jackson. The county has approximately 28,000 
residents. The most recent Census data provided by the U.S. 
Census Bureau states that approximately 11.5 percent of our 
citizens identify as Latino.
    We have had Latino workers in Scott County since the 
1990's. Cook Foods employs over 3,000 people, some of which are 
immigrants. Latinos constitute a large work force in Scott 
County and are important to our economy.
    Those workers have become a part of our community. Their 
children attend local schools and participate in local sports. 
The feedback I have received from our citizens is that folks 
admire Latino communities--our Latino community's work ethic 
and their commitment to family.
    In my role of sheriff, I do not believe Latino workers 
present a danger to our community. I base that on the fact that 
I have not seen a spike in crime as a result of Latino 
individuals living and working in our county.
    Currently, my jail, the Scott County Detention Center, is 
holding approximately 125 inmates. Only 3 of those 125 inmates 
identify as Latino and 1 of those 3 is actually a Scott County 
resident.
    This, in my opinion, is the best evidence of the lack of 
impact Latino workers have had on Scott County's criminal 
justice system.
    Simply put, the Scott County Sheriff's Department has not 
had problems with the Latino community.
    I previously mentioned Cook Foods. Cook is one of Scott 
County's largest employers. On August 7, 2019, of course, Cook 
Foods was one of the plants in the State of Mississippi Federal 
immigration officials raided.
    Nearly 250 employees were arrested at Cook Foods by 
immigration officers.
    First, let me say that as sheriff, I swore an oath to 
uphold the Constitution of the United States and the 
constitution of the State of Mississippi.
    I stand behind our Federal officers and in no way am I 
criticizing the hard work of enforcing our immigration laws. 
However, I feel that the actions on this day could have been 
handled better had my agency been prepared in advance.
    My office had no notice of the raid and, therefore, was 
taken by surprise. After the raids, my office, the school 
system, local citizens, all had to step up to care for many of 
the children whose parents were arrested.
    Children of those arrested had nowhere to go for hours once 
school let out. The first parents to return to Scott County did 
not arrive until 11 p.m. that night.
    Thanks to our schools, local citizens that included my wife 
and daughter, and my department, we were able to care for those 
children during the interim.
    However, forewarning of the action or while the action was 
foregoing would have allowed my office to be better prepared 
for the problems left in the wake of the raid.
    Thank you for the opportunity to appear before you this 
morning.
    [The prepared statement of Sheriff Lee follows:]
                     Prepared Statement of Mike Lee
                            November 7, 2019
    Mr. Chairman and Members of this committee, it is an honor and a 
privilege to be invited to appear before you to discuss the recent 
immigration enforcement actions in Scott County. I am Mike Lee, the 
Sheriff of Scott County and been sheriff since 2007. I previously 
severed as chief of police for the city of Forest for 10 years and I 
have nearly 30 years as a career law enforcement officer. I have lived 
in Scott County all of my life. As the highest-ranked law enforcement 
officer in the county, I am responsible for policing the entirety of 
Scott County.
    For perspective, Scott County is east of our capitol city Jackson. 
The county has approximately 28,000 residents. The most recent census 
data provided by the U.S. Census Bureau states that approximately 11.5 
percent of our citizens identify as Latino.
    We have had Latino workers in Scott County since the 1990's. Koch 
Food employs over 3,000 people some of which are immigrants. Latinos 
constitute a large work force in Scott County and are important to our 
economy. Those workers have become a part of the community in Scott 
County. Their children attend local schools and participate in local 
sports. The feedback I have received from Scott County citizens is that 
folks admire our Latino communities work ethic and commitment to 
family.
    In my role as sheriff, I do not believe Latino workers present a 
danger to our community. I base that on the fact that I have not seen 
any spike in crime as a result of Latino individuals living and working 
in Scott County.
    Currently, my jail is holding approximately 125 inmates. Only 3 of 
those 125 inmates identify as Latino and 1 of those 3 is a Scott County 
resident. This, in my opinion, is the best evidence of the lack of 
impact Latino workers have had on the Scott County's criminal justice 
system. Simply put, the Scott County Sheriff's Department has not had 
problems with the Latino community.
    I previously mentioned Koch Foods. Koch is one of Scott County's 
largest employers. On August 7, 2019, Koch Foods was one of the plants 
in the State of Mississippi that Federal immigration officials 
``raided''. Nearly 250 employees were arrested at Koch Food by 
immigration officers.
    First, let me say that as sheriff of Scott County, I swore an oath 
to uphold the Constitution of the United States and the constitution of 
the State of Mississippi. I stand behind our Federal officers and in no 
way am I criticizing their hard work enforcing our immigration laws. 
However, I feel that the action could have been handled better had my 
agency been prepared in advance.
    My office had no notice of the ``raid'' and, therefore, was taken 
by surprise. After the raids, my office, the school system, and local 
citizens had to step in to care for many of the children whose parents 
were arrested. Children of those arrested had nowhere to go for hours 
once school let out. The first parents to return to Scott County did 
not arrive until 11 o'clock PM. Thanks to our schools, local citizens 
which included my wife and daughter and my department, we were able to 
care for those children during the interim. However, forewarning of the 
action would have allowed my office to better prepare to handle the 
problems left in the wake of the raid.
    Thank you for the opportunity to appear before you this morning.

    Chairman Thompson. Thank you very much.
    [Applause.]
    Chairman Thompson. The Chair recognizes Dr. Truly for his 
statement for 5 minutes.

  STATEMENT OF WILLIAM TRULY, JR., MAYOR, CANTON, MISSISSIPPI

    Dr. Truly. My name is William Truly, practicing physician 
and mayor of the city of Canton. I certainly want to recognize 
Congressman Lee and thank you for all of the good deeds that 
you have done not just for the State of Mississippi, for this 
Nation.
    Congressman Thompson, we are aware of your contributions to 
this Nation, and Congressman Green and Congressman Cohen, we 
thank you for being here, here in our State.
    I have with me today, who is not testifying but who is with 
me, the superintendent of schools of the Canton Public School 
District, Mr. Gary Hannah. I also have with me my chief of 
police, Mr. Otha Brown and I also have with me my fire chief, 
Mr. Kenneth Pierce.
    What happened on the day of the raid was supposed to have 
been a surreptitious clandestine act perpetrated by ICE. I want 
to take you back to August 7, 2019, when without warning, 
notice, or acknowledgement, ICE invaded the city of Canton and 
raided Peco Poultry for the purpose of identifying and 
documenting undocumented immigrants who work at Peco Foods.
    There were 7 poultry industries in the State of Mississippi 
that were raided by ICE for the purpose of accomplishing an 
intended mission.
    As the mayor of the city of Canton, I was never noticed or 
informed about the preplans an imminent raid of one of our 
businesses here in the city of Canton.
    My discovery was accidental, as a consequence of a citizen 
informing me that ICE was on Fulton Street at Peco's, carrying 
workers away by handcuffs and who were transported to the 
National Guard Armory in Flowood, Mississippi.
    I approached one of the ICE officers and introduced myself 
as the mayor of the city of Canton and requested to speak with 
whomever was in charge for the purpose of trying to understand 
and assess what was occurring in my city.
    It was at that time I was able to visualize only Hispanic 
workers being placed on buses for the purpose of being 
transported to a site, which was unknown to me at that time.
    To my knowledge, no African-American workers were arrested 
or transported. My chief of police, Otha Brown, the 
superintendent of education, Gary Hannah, and the director of 
the Department of Human Services were never informed.
    It is my understanding that at the time that the raid took 
place that some of the individuals were documented with 
appropriate papers.
    This was the first day of school and the children of these 
individuals who were arrested and transported to an unknown 
site to be processed--the children were still in school and the 
children returned home not knowing that their parents had been 
arrested.
    The Hispanic population in the city of Canton are not gang 
members. They are not rapists. They are not murderers, but 
folks who work and pay taxes, purchase goods, take care of each 
other and their families.
    It is my understanding that at Pecos Foods there were at 
least 125 to 130 Hispanic employees who were arrested that 
resulted in an acute loss of 125 to 130 Pecos workers.
    I do not know the economic loss to Pecos nor do I know the 
economic loss or impact of this raid to the city of Canton. But 
I do know that it was an economic impact.
    Throughout the State of Mississippi there were 7 poultry 
industries that were raided, 680 people arrested. Thirty of 
those were released.
    This was a terrifying moment for those individuals who 
weren't arrested that included the separation of parents from 
children, it is my understanding that nothing was in place for 
the children of the arrestees to be safe, protected, and 
secured.
    No social services, including DHS, were noticed or placed 
on notice to target children who were going to be separated 
from their parents.
    I am of the opinion that when ICE raids or invades a 
community or a target in that community, at least the mayor and 
the governing authorities, the chief of police, the 
superintendent of schools, and the director of human services 
should be placed on notice.
    It was a terrifying experience for the arrestees and a 
puzzling experience for me and for my community.
    Congressman Cohen talked about Nina Simone. A lot of people 
in here are too young to remember Nina Simone. But when she was 
talking about that record ``Mississippi Goddam'' she was 
talking about Plessy v. Ferguson as well as the Board of 
Education--Brown v. the Board of Education.
    She was talking about the Little Rock Nine. She was talking 
about mayors being blocked out of the University of 
Mississippi. She was talking about Schwerner, Goodman, and 
Chaney.
    She was talking about the atrocities of humanity and man's 
inhumanity to man. She was talking about brutality and 
apartheid during the days of yesteryear.
    You asked the question, ``Have things changed?'' I hope so.
    I thank all of you.
    [The prepared statement of Dr. Truly follows:]
                Prepared Statement of William Truly, Jr.
                            November 7, 2019
    On August 7, 2019 without warning, notice, or acknowledgment, ICE 
had invaded the city of Canton and raided PECO Poultry for the purpose 
of identifying and documenting undocumented immigrants who worked at 
PECO foods. There were 7 poultry industries in the State of Mississippi 
that where raided by ICE for the purpose of accomplishing an intended 
mission. As the Mayor of the city of Canton I was never noticed, or 
informed about the pre-plans and imminent raid of one of our businesses 
here in the city of Canton. My discovery was accidental as a 
consequence of a citizen informing me that ICE was on Fulton Street at 
PECO poultry carrying workers away by handcuffs and who were 
transported to the National Guard Armory in Flowood, MS. I approached 
one of the ICE officers and introduced myself as Mayor of the City and 
requested to speak with whomever was in charge for the purpose of 
trying to understand and assess what was occurring in my city. It was 
at that time I was able to visualize only Hispanic workers being placed 
on buses for the purpose of being transported to a site which was 
unknown to me at that time. To my knowledge, no African American 
workers were arrested or transported. My Chief of Police Otha Brown, 
the Superintendent of Education Gary Hannah and the director of the 
department of human services were never informed. It is my 
understanding that at the time that the raid took place that some of 
the individuals were documented with the appropriate papers. This was 
the first day of school and the children of these individuals who were 
arrested and transported to an unknown site to be processed were still 
in school and returned home not knowing that their parents had been 
arrested. The Hispanic population in the city of Canton are not gang 
members, rapist, or murderers, but folks who work, pay taxes, purchase 
goods, take care of each other and their families. It is my 
understanding that at PECO Foods there were at least 125 to 130 
Hispanic employees who were arrested that resulted in an acute loss of 
125 to 130 PECO workers. I do not know the economic lost to PECO's nor 
do I know the economic lost or impact of this raid to the city of 
Canton. Throughout the State of Mississippi there were 7 poultry 
industries that where raided, 680 people arrested, and 300 of those 
were released. This was a terrifying moment for those individuals who 
were arrested that included the separation of parents from children. It 
is my understanding that nothing was in place for the children of the 
arrestees to be safe, protected, and secured. No social services, 
including DHS, were placed on notice to target children who were going 
to be separated from their parents. I am of the opinion that when ICE 
raids or invades a community and/or a target in that community at least 
the mayor and the governing authorities, chief of police, the 
superintendent of schools, and the director of department of human 
services should be placed on notice. It was a terrifying experience for 
the arrestees and a puzzling experience for me as the mayor and for 
this community.

    Chairman Thompson. Thank you very much.
    [Applause.]
    Chairman Thompson. I yield myself 5 minutes for 
questioning.
    Sheriff Lee, your testimony was as a chief law enforcement 
official in Scott County you received no advanced notice of the 
ICE raids we are talking about here.
    Sheriff Lee. No, sir. I received no advanced notice nor did 
I receive any notice while the raids were continuing.
    Chairman Thompson. Thank you.
    Mayor, your testimony as the mayor of Canton that your 
conversation with the superintendent of education and your 
chief of police and fire chief, that there was no notification.
    Dr. Truly. That is correct, sir.
    Chairman Thompson. So Mr. Miles, what does the policy for 
ICE say about notification?
    Mr. Miles. To be honest with you, Mr. Chairman, we don't 
have a policy that says we are obligated to notify anyone.
    Chairman Thompson. So I want to enter into the record a 
letter from Matthew Albence, who is deputy director, senior 
official performing duties as director for ICE, and let me tell 
you what he said in his letter of September 7.
    He said the school districts contacted during this 
operation include Covington, Jasper, Jones, Wayne, Lauderdale, 
Smith, Newton, Scott, Madison, Rankin, Clarke, Quitman, Leake, 
Laurel, and Forrest Counties.
    So somebody is wrong.
    [Laughter.]
    Chairman Thompson. I will enter this into the record.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Mr. Miles. But is there a question, Mr. Chairman, because I 
have a list of all the names we contacted at those school 
districts.
    Chairman Thompson. Well, if you have them, you need to 
provide them to the committee.
    Mr. Miles. Then I am more than happy to provide them.
    Chairman Thompson. So have you--did you contact the Scott 
County Sheriff's Department?
    Mr. Miles. Never said I did, sir. But I did say----
    Chairman Thompson. Wait. Wait. Hold on.
    Mr. Miles. We did say we contacted the school districts.
    Chairman Thompson. Hold on. Hold on.
    Now, I will ask the question. You just answer. All right.
    So did you contact the Scott County Sheriff's Department?
    Mr. Miles. No, sir. We did not.
    Chairman Thompson. Thank you.
    Mr. Miles. But we did contact the school districts.
    Chairman Thompson. Did you contact the Madison County 
School District?
    Mr. Miles. Yes, sir. Assistant Superintendent Ellen 
Aregood.
    Chairman Thompson. What about the Canton School District?
    Mr. Miles. Canton doesn't seem to be on here. It seems like 
we only contacted county school districts.
    Chairman Thompson. So if I told you that Peco Foods is 
located in the Canton School District----
    Mr. Miles. Then I would say it was an oversight.
    Chairman Thompson. It was an oversight?
    Mr. Miles. That is correct.
    Chairman Thompson. OK. But you did not contact them?
    Mr. Miles. On the list that I have, there is no reflection 
of a Canton School District being contacted.
    Chairman Thompson. Well, so what social service agencies 
did you contact?
    Mr. Miles. We didn't contact any social service agencies 
but it was my understanding that the United States Attorney's 
Office spoke to someone in the social service agency. But I 
don't remember their name.
    Chairman Thompson. Who told you that?
    Mr. Miles. The United States Attorney.
    Chairman Thompson. Who? The United States Attorney?
    Mr. Miles. Yes, sir. The United States Attorney. He was in 
our office in Jackson, Mississippi during the day of the raid, 
the same as me, all day long.
    Chairman Thompson. So he told you he talked to somebody?
    Mr. Miles. Mm-hmm.
    Chairman Thompson. But you don't know who?
    Mr. Miles. I don't remember the name. I don't remember the 
name that he gave me.
    Chairman Thompson. So have you gotten any information about 
the companies who had the individuals employed?
    Mr. Miles. I am sorry. What do you mean?
    Chairman Thompson. Well, in turn, you performed the work 
site raids?
    Mr. Miles. No, sir. I did--we did 8 criminal search 
warrants and----
    Chairman Thompson. OK. You were there?
    Mr. Miles [continuing]. And you asked me if I got any 
information about the companies. In my testimony, I entered 
that we seized 850,000 documents and we seized 22 terabytes of 
information. That is not needed to prove that people are here 
illegally, sir.
    Chairman Thompson. So what is needed?
    Mr. Miles. Pardon me?
    Chairman Thompson. What is needed? If you say that is not 
needed----
    Mr. Miles. That is--that is our investigation against the 
other--of the other allegations in the investigation.
    Chairman Thompson. What other allegations?
    Mr. Miles. The one that you keep alluding to, sir, whether 
we are investigating a company or not.
    Chairman Thompson. Well, I am just trying to get to the 
information.
    Mr. Miles. And----
    Chairman Thompson. Now, I will ask the questions and I hope 
you will be civil with your response.
    Mr. Miles. I am doing the best I can.
    Chairman Thompson. And you are not doing too good. So----
    Mr. Miles. Are you saying that I am lying? Because I----
    Chairman Thompson. Well, no. I am saying you are not 
responding. I didn't say you were lying. And so----
    Mr. Miles. But you asked me what--you asked me what we got 
there, sir, and I told you what we got there. I got 850,000 
documents.
    Chairman Thompson. No, look. I will ask the questions----
    Mr. Miles. OK.
    Chairman Thompson [continuing]. And you just answer only 
when you are asked a question.
    Mr. Miles. OK.
    Chairman Thompson. No editorializing. OK. Thank you.
    Sheriff, you have been in Scott County all your life. One 
of the things we are trying to do with this hearing is 
determine whether or not the people who were arrested were 
threats to the community, had they created any problem, and I 
think your testimony has pretty much said these are good 
people.
    Am I correct?
    Sheriff Lee. Yes, sir. The workers that--pretty much let me 
make sure I am making this clear. But the workers that were 
taken, primarily if not all--they may have criminal records 
unknown to me but were good hardworking people.
    Chairman Thompson. Thank you.
    I yield to the gentlelady from Texas.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much and 
let me thank all the witnesses. Let me thank Mr. Miles, Sheriff 
Lee--greetings from my sheriff in Houston. I work extensively 
with law enforcement.
    Mayor, of course, let me give greetings from my mayor in 
Houston, Mayor Sylvester Turner. I know that you all have 
probably interacted, and thank you for your leadership along 
with the superintendent.
    Let me be very clear. This hearing is not, Mr. Miles, 
intended to not recognize the legal apparatus of the United 
States of America dealing with the question of law and 
immigrants.
    We are a Nation of laws and we are a nation of immigrants. 
But I do want to pointedly try to raise some concerns and I 
want you to take it in the spirit that I am--have 
responsibility of oversight, as the Chairman has brought us 
here for this hearing.
    So let me find out, did you find any high-dollar target 
amongst the 608 persons that you wrapped up and raided?
    Mr. Miles. I would ask you to clarify what do you mean by 
high-dollar target.
    Ms. Jackson Lee. Some persons that were involved in major 
criminal activity, somebody that you had been looking for for 
decades, years months. You find anybody in that group?
    Mr. Miles. To date, no, ma'am. We have not found anybody--
--
    Ms. Jackson Lee. All right. You released--my time is 
short--you released about 303 individuals immediately. So that 
shows that they either had some basis of being able to get out. 
Is that correct?
    Mr. Miles. We released them for humanitarian reasons. Yes, 
ma'am.
    Ms. Jackson Lee. Well, but they--that means that they were 
not--well, you said even with humanitarian reasons they are too 
dangerous to release. That was--that was the case. Is that 
correct?
    Mr. Miles. That is correct.
    Ms. Jackson Lee. How long have you been in ICE? How long 
have been an ICE officer?
    Mr. Miles. I have been an ICE officer since its inception 
in 2003.
    Ms. Jackson Lee. So under the Obama administration for 8 
years you were able to do your job. Is that correct?
    Mr. Miles. Yes, ma'am.
    Ms. Jackson Lee. Did you do any--did you do a raid of this 
type? I know that under the previous administration there were 
deportations. I am not asking that question. A raid of this 
type during those 8 years, just you in particular.
    Mr. Miles. No, ma'am. Those 8 years I was in Mexico.
    Ms. Jackson Lee. All right. But you did not engage in one--
--
    Mr. Miles. No, not in Mexico.
    Ms. Jackson Lee [continuing]. Whether you were in Mexico or 
the United States. So this raid came under, as has been 
indicated, this administration. Didn't get any high-dollar 
target, used a half a million dollars in 1 day's work almost, 
as I understand the numbers. Is that correct?
    Mr. Miles. It was my understanding that the numbers that we 
provided were the costs for the total investigation. I would 
have to go back and look at that.
    Ms. Jackson Lee. But you have to go back.
    Now, do you have the precise numbers of children that are 
still not reunited with their family?
    Mr. Miles. No, ma'am. I don't have that number.
    Ms. Jackson Lee. Do you realize how indicting that answer 
is? Do you realize that we who are in this room are parents? I 
would imagine you might be.
    I don't want to project. But you may have relatives, nieces 
and nephews. But we are looking at families here. For me to sit 
here as a mother and have the answer that you do not know the 
answer to the question how many are not yet reunited, let me 
make an official request. I think the Chairman has already had 
a letter.
    Again, I want to know the numbers of children that are not 
yet reunited with their family members. Will you provide that 
to us, sir?
    Mr. Miles. I will do everything in my power to get you the 
number you requested.
    Ms. Jackson Lee. Let me--because of the circumstances, let 
me thank you so very much.
    I promote the working of Federal law enforcement with local 
law enforcement, Sheriff. How devastating is it for your 
department out on the streets dealing with protecting this 
community not to know about this raid?
    How devastating, how piercing it is in terms of 
relationship with your Federal law enforcement, which I know 
you work with very well?
    Sheriff Lee. Yes. We work with all Federal agencies and 
welcome all Federal agencies in and work well with them, too.
    I assume that when these raids were done the need for 
secrecy was felt to keep them from local law enforcement so 
that, for lack of better terms, word did not get out, and I 
understand that.
    But if our office could have been notified after these 
raids or during these raids, we somewhat could have been able 
to easily handle the situation we had after the schools let 
out.
    I wish I had a monetary amount to know how much Scott 
County citizens spent with the Sheriff's Department to know how 
much money we lost trying to make sure that children were in 
the right places and trying to play catch up.
    Ms. Jackson Lee. Thank you.
    Doctor, would you, as mayor--we believe in local officials 
being apprised and respected in our Federal efforts.
    What did that do to you in your community and the 
responsibilities you have as mayor? Everybody calls the mayor.
    Dr. Truly. Well, we have a responsibility to keep people 
safe. When you have ICE coming in and raiding your community 
there is always the potentiality for escalation--escalation 
that perhaps the outcome may not be good.
    I am under the impression that our health department, our 
ambulance, our police chief, our fire chief, and all of those 
who are--who have an interest in protecting folks need to know 
that a situation like this has occurred in your town and there 
is always a risk for a negative outcome.
    There is always traffic jams. There are always problems. So 
I think that we just need to know. I think that--I think that a 
policy or some kind of guidelines need to be instituted by 
Congress of letting at least the chief of police know, some 
kind of----
    Ms. Jackson Lee. Do you think the policies, Mayor, were 
cruel?
    Dr. Truly. Ma'am?
    Ms. Jackson Lee. Do you think the policies were cruel in 
terms of how mothers----
    Dr. Truly. I think so. I mean, we--it is almost like an 
agency came and they took over our town.
    Ms. Jackson Lee. I am sorry?
    Dr. Truly. It is like an agency came in and took over our 
town and we didn't know anything about the agency coming in. It 
is just they came into town without any collaboration, without 
any corroboration or acknowledgement.
    Ms. Jackson Lee. I thank you, Mayor.
    Just, Mr. Miles, did you arrest any companies so far right 
here in this community? Have you charged any of the employers? 
Have you charged any of the employers?
    Mr. Miles. No, ma'am. To date, we have not charged any of 
the employers.
    Ms. Jackson Lee. You have not charged any of the employers?
    Mr. Miles. No, ma'am.
    [Laughter.]
    Ms. Jackson Lee. That warrants me taking off my glasses, 
Mr. Chairman. I just want to put this in the record. I am 
concluding. Thank you, sir.
    The Federal Register--if I could put into the record, the 
Federal Register of July 1, 2019, Mr. Chairman, Volume 84, 
Number 126, it will evidence that a facility for unaccompanied 
children in Carrizo, Texas, is empty.
    But they have been allotted $300,800,000 to retain 
unaccompanied children and they have been allotted $50 million 
for the first crunch, and that facility is now empty.
    So I just want to contribute that for the concept of the 
failed policies that we are now putting--having a hearing for.
    With that, I yield back. I ask unanimous consent to put it 
in the record.
    Chairman Thompson. Without objection.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman Thompson. The Chair recognizes the gentleman from 
Texas for 5 minutes.
    Mr. Green of Texas. Thank you, Mr. Chairman.
    Mr. Miles, would you, for the record, just state your 
official title, please?
    Mr. Miles. Yes, sir. I am the special agent in charge for 
Homeland Security Investigations out of New Orleans, Louisiana.
    Mr. Green of Texas. How long have you held this post, 
please?
    Mr. Miles. Since 2018. March 4 was my official date of 
report.
    Mr. Green of Texas. As it relates to this raid, how long 
did you participate in the planning of it?
    Mr. Miles. How long did I participate in the planning of 
it?
    Mr. Green of Texas. Yes.
    Mr. Miles. I probably got involved with the planning of it 
in June 2019.
    Mr. Green of Texas. So you were there for an extensive 
amount of time?
    Mr. Miles. There is no good way to answer that question, 
sir. The best I could say is we had meetings on a regular basis 
because, again, my office is in New Orleans. So most of the 
planning occurred in Jackson. I would travel over for the 
meetings as appropriate.
    Mr. Green of Texas. Did you--did your plan work pretty much 
as you intended?
    Mr. Miles. I would say that our plan worked well. To sit 
here and say that it was a perfect plan would not be----
    Mr. Green of Texas. Not perfect, but it worked well?
    Mr. Miles. Yes.
    Mr. Green of Texas. So you planned to have 10 phones for 
680 detained people?
    Mr. Miles. Eleven. Yes, sir.
    Mr. Green of Texas. Eleven phones?
    Mr. Miles. Yes, sir.
    Mr. Green of Texas. Understanding that people would have to 
contact relatives, have children picked up, but you decided on 
11 phones for 680 people?
    Mr. Miles. That is correct, sir.
    Mr. Green of Texas. And you planned to separate the 
children from their parents?
    Mr. Miles. No, sir. We planned to arrest people that were 
violating Federal law.
    Mr. Green of Texas. In the process did you contemplate--I 
am sure you did--that some of these persons would have 
children?
    Mr. Miles. Yes, sir. We did.
    Mr. Green of Texas. So you had to plan to separate them or 
you were going to plan to keep them together. But the evidence 
is such that you separated them. Is this true? Does the 
evidence show that you separated children from their parents? 
It does.
    Mr. Miles. I would argue that if you are going to use the 
definition of the word separating, no, we did not because the 
word separate insinuates that the children were with them. The 
children were not with them. The children were in school.
    Mr. Green of Texas. Well, let me ask you this. Were they 
able to go home to their children that evening, a good many 
people?
    Mr. Miles. No, sir. Like anybody that gets arrested for a 
crime in the United States they don't go home.
    Mr. Green of Texas. The Government has many definitions, 
but when a parent can't go back to a child and the child is 
expecting the parent, in my world that parent is separated from 
the child.
    Mr. Miles. As is with anybody that is arrested in the 
United States, sir.
    Mr. Green of Texas. Thank you.
    Mr. Miles. Any person in your district----
    Mr. Green of Texas. Is it--is it true--is it true that you 
separated mothers who were breastfeeding?
    Mr. Miles. My understanding is that we received reports of 
that and none of those reports ever bore out.
    Mr. Green of Texas. Well, I have got evidence from my 
reports indicating that at least 3 mothers who were 
breastfeeding were separated from their babies.
    Mr. Miles. I would--we will take that evidence as well, 
sir, because the report that I received I responded to.
    Mr. Green of Texas. There is also--there is a person in 
this room who spoke to me this morning and indicated that she 
is aware of a mother who was separated who was breastfeeding.
    Mr. Miles. My argument to that would be then bring the 
mother, because that is the only way we work with testimony. We 
don't work with second-hand testimony.
    Mr. Green of Texas. So, now, let us see if we can 
summarize.
    You planned this raid. As a result of the raid, parents 
were separated from their children. As a result of the raid, 
mothers who may or may not have been breastfeeding were 
separated from their children.
    As a result of the raid, you had 11 phones for some 600 
persons who were going to need to contact people, and as a 
result of the raid you, on the first day of school--on the 
first day of school separated parents from their children in 
the sense that those parents were not there to pick up their 
children on the first day of school.
    Did you plan to do this on the first day of school?
    Mr. Miles. We planned to do it on August 7.
    Mr. Green of Texas. Was it unknown to you that August 7 was 
the first day of school?
    Mr. Miles. I would say that yes, it was unknown to me that 
it was the first day of school.
    Mr. Green of Texas. Well, then is it--is it the case then 
that you did not plan well?
    Mr. Miles. Again, I think we planned well for the fact that 
it was a day of school.
    Mr. Green of Texas. Did you conclude--you said you planned 
well. Are you concluding that you planned well by, on the first 
day of school, implementing this raid in this area? So you 
planned well? If you planned well, you did what you said you 
were going to do.
    Mr. Miles. Well, my thing would be what is the difference 
between the first day or the tenth day of school? The parents 
are still not going home. We planned for that. We----
    Mr. Green of Texas. Well, here is the difference, I am 
proud to tell you but I wish the superintendent could tell you. 
But I am going to tell you what it is.
    Those children, many of them, are going to school for the 
first time. It is the first day for a lot of first graders. 
These babies--these babies are expecting their parents to be 
there for them when they return home. Babies ought not be 
separated from their parents, Mr. Miles. Babies ought not be 
separated.
    [Applause.]
    Mr. Green of Texas. Mr. Miles, my time is up but I have got 
to say this to you. I don't believe that you believe that this 
was a very good deterrent. I don't believe it. But I want you 
to say it. Do you believe that this was a very good deterrent?
    Mr. Miles. Deterrent to what?
    Mr. Green of Texas. Deterrent in the sense that the Chief 
Executive Officer of this said it was a good deterrent--your 
boss, the President.
    Mr. Miles. So am I allowed to editorialize now----
    Mr. Green of Texas. You are allowed to tell me whether or 
not you think this was a good deterrent.
    Mr. Miles. I actually do believe it was a good deterrent.
    Mr. Green of Texas. That is unfortunate, because taking 
babies from mothers is not the deterrent that this country 
wants to be known for. We are a better country than this, to 
borrow a phrase from my colleague, Mr. Thompson.
    [Applause.]
    Mr. Green of Texas. We are a better country, Mr. Miles. We 
are a better country.
    I yield back, Mr. Chair.
    Chairman Thompson. The gentleman from Texas yields back.
    The Chair recognizes the gentleman from Tennessee.
    Mr. Cohen. Thank you, Mr. Chair.
    First, to Mayor Truly----
    Dr. Truly. Yes, sir?
    Mr. Cohen [continuing]. You and Congressman Thompson and 
the sheriff here and Mr. Johnson and judge are indications that 
Mississippi is better, and I know Mississippi is better. It 
couldn't have been worse, but it is much better.
    But when I see the shootings at the Emmett Till sign and 
when I see the Klan being observed there, I worry about some of 
the elements that still exist in Mississippi and I am sure you 
do as well.
    [Applause.]
    Mr. Cohen. Mr. Miles, does your jurisdiction include Bean 
Station, Tennessee?
    Mr. Miles. It does not now, sir.
    Mr. Cohen. Did it in--when the raid occurred there?
    Mr. Miles. It absolutely did.
    Mr. Cohen. Were there any--was the employer there charged 
with any offenses?
    Mr. Miles. To my understanding, one of the employers there 
has pled guilty and has been sentenced to 18 months.
    Mr. Cohen. One?
    Mr. Miles. That is correct. But he was the CEO.
    Mr. Cohen. All right. The raid was because of IRS 
irregularities. None of the people who were arrested other than 
him had IRS problems, did they?
    Mr. Miles. To be honest, sir, I don't know what happened 
before my tenure here.
    Mr. Cohen. I am talking about in Bean Station.
    Mr. Miles. No, I know when you are talking about, sir. It 
was before my tenure here.
    Mr. Cohen. OK.
    Mr. Miles. I didn't take over--in my own paper, I reported 
March 4 but I didn't actually show up until late April. This 
occurred before I showed up.
    Mr. Cohen. I got you.
    Mr. Miles. So I wasn't in the planning or any of it.
    Mr. Cohen. Let me ask you this, and this is a question that 
you, hopefully, have some information from. We have heard--it 
has been reported to me that immigration organizations that 
come to Tallahatchie to help detainees--that people detained 
from raids are kept separate from the asylum population. Do you 
know if that is true or not?
    Mr. Miles. I don't know, sir. That would be a question for 
enforcement and removal operations as they manage all of our 
detention population.
    Mr. Cohen. OK. So you are not familiar--this would be--how 
many of the people seeking asylum or seeking immigration judges 
while detained in Tallahatchie would again beyond your 
knowledge?
    Mr. Miles. That is correct, sir.
    Mr. Cohen. Let me go back to what Mr. Green was asking you. 
First on a school day and not knowing it was the first day of 
school, I can kind-of understand you might have other things in 
mind.
    But in the future you might want to take that into 
consideration and the raid could have been a week earlier when 
school was not in session and it would have been just as 
effective as not and, yet, the parents would have been home. So 
maybe in the future take that in consideration.
    Do you know how many of the people that were arrested here 
in Mississippi had previous violent criminal histories?
    Mr. Miles. I do have a number for previous criminal 
histories.
    Mr. Cohen. How about violent criminal history?
    Mr. Miles. I am looking right now.
    Mr. Cohen. Thank you, sir.
    Mr. Miles. I think we have 6 domestic violence, 1 rape, 2 
battery, 1 resisting arrest and----
    Mr. Cohen. Resisting arrest is not a felony.
    Mr. Miles. I wouldn't know, sir. It is a State crime. In 
the State I was in, resisting arrest is a felony.
    Mr. Cohen. Where? In Louisiana it is a felony for battery?
    Mr. Miles. No, sir. I was a deputy sheriff of South 
Carolina for 8 years.
    Mr. Cohen. OK.
    Mr. Miles. South Carolina, resisting arrest was a felony.
    Mr. Cohen. Resisting arrest is different than just a 
battery, though. I might have missed the----
    Mr. Miles. Exactly. I thought you said resisting arrest 
wasn't a felony. No, I am sorry. Then battery could be a 
felony. It depends upon the battery.
    Mr. Cohen. Well, let us not get into all those 
technicalities. Not many of the people had violent crimes?
    Mr. Miles. That is correct.
    Mr. Cohen. How many of those people are still incarcerated? 
Do you know?
    Mr. Miles. I would not have that number, sir. Again, the 
detention is run by our enforcement and removal operations.
    Mr. Cohen. OK.
    Sheriff Lee, I want to commend you on your position and 
your State. You reflect well on Mississippi and I am real happy 
Forest is spelled with one R. I had to check that out.
    Sheriff Lee. Yes, sir.
    Mr. Cohen. That is good.
    Sheriff Lee. Yes, sir.
    Mr. Cohen. How has this affected your city economically?
    Sheriff Lee. Economically, we have--what was alluded to, I 
believe, by the Chairman earlier, we have businesses that are 
there for our Latino community.
    These businesses act within the laws and there are no 
problems with those, and some of those stores that are near 
where Cook Foods is in Scott County are either in the process 
of closing down or have completely closed down.
    Mr. Cohen. Mayor, how did this affect Canton?
    Dr. Truly. Well, it has had a negative impact on the city 
of Canton. When you have that many people who are arrested, 
those individuals purchase goods. Many of them purchase homes. 
As a consequence to a lack of income, that is not going to 
happen.
    Mr. Cohen. What was your medical specialty or what is your 
medical specialty?
    Dr. Truly. Family medicine. Family----
    Mr. Cohen. As a family practice doc, how do you think this 
psychological effect on children will last with them, if it 
will? Is it a temporary thing or is it a long--a lifelong----
    Dr. Truly. Oh, it is ad infinitum.
    Mr. Cohen. So that can't be taken away? That is going to 
affect those children forever?
    Dr. Truly. That is--yes.
    Mr. Cohen. Let me follow up with Mr. Miles.
    Mr. Green's question about do you think this was an 
effective deterrent and you said it was, why do you think this 
is a deterrent to folks wanting to come across the border and 
to come to the United States?
    Mr. Miles. I think it is an effective deterrent because a 
lot of the people that are coming here are coming here for 
economic reasons, and when we start telling them that coming 
here illegally to get employment is not going to work, it will 
deter them from coming here.
    I think that what happens is we confuse the argument of 
asylees and economic immigration, and there is a vast 
difference.
    I spent 7 years in Mexico. I spent 7 years working with the 
Mexican government, the Guatemalan government, looking at 
immigration, looking at cartels.
    So I am telling you that when we take away some of the 
economic incentive it is going to have an impact. I think one 
of the witnesses previously made a comment of do they read the 
Jackson Herald. No, they don't.
    But the people that move them here, that is a whole other 
underground industry. They know and they tell them, and then 
they say, come now--don't come now--don't do this, because it 
is--again, it is a huge industry, and the fact that we are 
sitting here and we are talking about it in these terms about 
how it is not dangerous to Mississippi, fine.
    There are 400 stolen IDs there of these innocent employees. 
You keep saying they haven't committed a crime. They are law-
abiding citizens. They stole the IDs of 400 U.S. citizens. Four 
hundred U.S. citizens. Where is their voice?
    Mr. Cohen. Mr. Miles, you have got a tough job and there is 
some poem, I guess, that is about the military not to reason--
ours is not to reason why, ours is but to do or die, and you 
are kind-of put in that spot. You don't make the policy but you 
have to carry it out. I understand that.
    But I also think that going after employers, and you 
mentioned in response to Mr. Chairman Thompson that you got all 
this data and I hope you use the data to get the employers, 
because if the employers, who are really the root of the 
problem, don't have an incentive to hire the folks and they 
won't have that incentive if they are arrested like the 
gentleman was or the man was or woman or whoever in Bean 
Station, then you are not going to have that problem and it 
seems like that is the place you should concentrate your 
activities.
    Mr. Miles. Representative Cohen, that is exactly what we 
are doing. That is why this case was started 18 months ago, for 
the purpose of going after the highest level we can get to. 
That is what HSI does. We are not satisfied with going after 
the low-level people.
    But as I am assuming that all of you understand, it is a 
lengthy process to build a criminal prosecution. We serve 
search warrants. That is one step in the building of a criminal 
investigation.
    It is not the final step. It is not the first step. It is a 
step. Unfortunately, it is a very visible step and we come 
under a lot of criticism for it.
    Then 7 months from now, a year from now, when we finalize 
the investigation there will be nobody thanking us for it.
    Mr. Cohen. Thank you, sir, and I appreciate your service.
    Chairman Thompson. Thank you very much.
    The gentlelady from Texas has a question.
    Ms. Jackson Lee. I want to follow up on that previous line 
of questioning.
    Thank you, Mr. Chairman, and I am going to say we thank you 
for your service. I think I acknowledged the fact that this is 
a Nation of laws and a Nation of immigrants as well.
    Let me, again, focus on the collective results even though 
this is still going somewhat through the process. I see a sign 
back there--I think I can read it--by one of the mothers, one 
of the members of the community. It says, we need the whole 
family, and I think that is what her sign is saying.
    So I believe she is talking about to keep the family 
together and children should not be separated. So I cannot 
emphasize enough that you must give us the numbers, if you 
will, of the children still unaccompanied.
    The second is to deal with I am baffled by the purpose of 
this raid because the number of agents could have as well found 
these individuals in their respective homes over a period of 
time, and at the same time--at the same time that you were 
doing this raid the President of the United States announced 
another cruel act of indicating to cities across America that 
he was getting ready to raid across this country, and that 
means that mayors and police persons had to try to address the 
panic.
    I think it was earlier said it interferes with law 
enforcement because no one wants to give information as to 
whether they are victimized if they are in that community or to 
be able to help if they see some crime being perpetrated.
    So you were being victimized yourself by this announcement 
that really petered out, unless they are going to do it 
around--on Christmas Day. Maybe that is when they are going to 
do it next.
    In Houston, Texas, our churches open the doors as an effort 
to make sure that people were protected not against, 
ultimately, being brought to a response but for the fear of 
raids at 1 and 2 in the morning or whenever they would be.
    My question to you, as you were saying that there was some 
value to it--but my question to you, I understand the military 
adheres to the rules and the orders of the commander-in-chief.
    But ICE is a civilian organization and in America civilian 
Federal workers and others have rights. If someone in your 
organization came and said this is not the right way to do 
this, this is not effective, this is cruel, it is inhumane, 
tears are coming to my eyes, I am a parent, how would that 
person be responded to?
    Would you send that person's information up to Washington? 
Would it get to the Secretary of Homeland Security?
    Would the President be aware that some of the very people 
that are working under these cruel policies feel offended and 
that they don't work? Would that happen?
    Mr. Miles. I would say that I--yes, I would relay that 
information to my chain of command. That is what I would do 
with any complaint that a worker brought forward to me.
    But I will say this, if I am permitted, is that it is one 
thing to sit here and say this is cruel, this is this, this is 
the other.
    But it is the law, and the Congress writes and enacts the 
law. We don't. The problem with looking at us and saying, you 
should exercise discretion, I honestly believe it puts too much 
power in the hands of the police, do you not?
    Because if you want us as a unit, as a group, to go--we'll 
not enforce the law, that is not really what we are designed 
for. It is designed for you to change the law.
    Ms. Jackson Lee. Mr. Miles, I--first of all, let me just 
say this Chairman has allowed you to answer any question.
    You have rights here and I welcome your answer. But I beg 
to differ with you. It is not Congress's policy to separate 
families and mothers from children.
    That is the policy of the President of the United States. 
That is not our policy. It is not our policy.
    [Applause.]
    Mr. Miles. I didn't say it was. I said it is a criminal law 
to come into this country illegally.
    Ms. Jackson Lee. No. Well----
    Mr. Miles. It is a criminal law to steal the ID of 400 U.S. 
citizens.
    Ms. Jackson Lee. We had the policy as a misdemeanor. This 
administration has altered it to be a felony.
    But let me finish my--just this last question, Mr. 
Chairman. So we didn't create that policy.
    But at the same time, it was not our policy. The law is one 
thing, but to implement the law in certain ways is another 
thing.
    There is no prohibition for agents to go knock on doors of 
people who they know where they are or to indicate to the 
employer, we need 10 people to come out from the job. There is 
nothing that stops you from doing it. It might take longer.
    But let me--let me finish my line of questioning to you. 
That person would not be retaliated against, right, who decided 
to say enough is enough, because I know these people come from 
places where they are being decapitated and murdered. So their 
information would go up. Is that my understanding?
    Mr. Miles. If someone came and filed a complaint, said they 
didn't want to do this job, yes, ma'am.
    Ms. Jackson Lee. Finally, it is my understanding that to 
date there have been no major crimes solved except for the 
immediacy of immigration laws, but no major crimes have been 
solved out of the 608 persons that were rounded up, now 303 
taken out. Is that correct, to date?
    Mr. Miles. Four hundred cases of identity theft, ma'am.
    Ms. Jackson Lee. Pardon me?
    Mr. Miles. Four hundred cases of identity theft.
    Ms. Jackson Lee. I don't--I don't diminish that. But what I 
am saying----
    Mr. Miles. But is that not a serious crime?
    Ms. Jackson Lee. But I am saying that----
    Mr. Miles. But is that not a serious crime? You are asking 
if there is a serious crime.
    Chairman Thompson. Just a--just a minute now.
    Ms. Jackson Lee. I have the time.
    Chairman Thompson. She has got to ask the question before 
you can answer it.
    Mr. Miles. But she did. She asked if it is serious crime 
and 400--identity theft is a serious crime, no?
    Chairman Thompson. Mr. Miles, OK. Just calm down.
    Mr. Miles. I am very calm, sir.
    Chairman Thompson. No, just--then be quiet.
    Mr. Miles. Oh, OK. So that is different. I will be quiet. 
But it is not calm down. I am very calm.
    [Laughter, applause.]
    Ms. Jackson Lee. Let me say this, Mr. Miles, because you 
won't get me on the record saying that identity theft is not 
important or serious. All of us have been in law enforcement, 
me from the perspective of being a former judge in a municipal 
court and as well being involved with this committee, in 
Judiciary, for a very long time.
    So what I am saying is you made no major massive bust of 
some syndicate or crime issue. Individual cases like that are 
important. Now, just getting that--yes or no, you did not bust 
any major crime syndicates. Is that correct?
    Mr. Miles. No, ma'am. We did not bust any major crime 
syndicates.
    Ms. Jackson Lee. So, Mr. Chairman, let me just say--I am 
not sure if this is the time that we are supposed to respond to 
closing or I yield back, but I would certainly like to make a 
few points.
    Chairman Thompson. Thank you. The Chair will recognize the 
gentleman from Texas.
    Mr. Green of Texas. Thank you, again, Mr. Chairman.
    Mr. Miles, in your letter--pardon me, your testimony--your 
written testimony you indicate that ICE and HSI conducts 
targeted law enforcement operations. Is that correct?
    Mr. Miles. That is correct, sir.
    Mr. Green of Texas. To conduct a targeted law enforcement 
operation requires that you do some advanced investigation. Is 
that correct?
    Mr. Miles. Yes, sir. That is correct.
    Mr. Green of Texas. It would cause one to assume that you 
knew that at these various locations there would be persons who 
would be in violation of the laws that you were enforcing. Is 
this correct?
    Mr. Miles. That is correct, sir.
    Mr. Green of Texas. If you knew that there were persons who 
were in violation of the laws, namely, immigrants, you would 
also have some evidence that employers were in violation of the 
law as well.
    Mr. Miles. Sir, that is a complicated question that you 
can't answer with a yes or no question.
    Mr. Green of Texas. It is not a complicated question, Mr. 
Miles.
    Mr. Miles, if you know that the employees are there and 
that you have got an E-verify system and you are going to 
arrest the employees, you have evidence that the employers are 
also in violation of the law, Mr. Miles. You have that 
evidence.
    [Applause.]
    Mr. Green of Texas. Now, I walk you through it--I walk you 
through it with intentionality, Mr. Miles, because here is what 
happens.
    You indicated that you wanted to take away the economic 
incentives and you do that by coming in and taking the 
undocumented persons, have them do a perp walk, show some of 
that on television, and then you can somehow deter persons in 
your mind--you think you can anyway--but you don't have a perp 
walk for the employers. They don't get arrested. You don't 
handcuff them and take them away.
    [Applause.]
    Mr. Green of Texas. You are still investigating them. Isn't 
it true that you have not arrested an employer--there is no 
employer jailed for this? Is this true? You said it was 
earlier, Mr. Miles.
    You need not think long. Sophisticated sophistry is not 
going to be available today. Is it true that there are no 
employers incarcerated?
    Mr. Miles. It is true. There are no employers incarcerated.
    Mr. Green of Texas. None. This happened months ago.
    Mr. Miles. That is true.
    Mr. Green of Texas. You knew before you came that laws were 
being broken but you picked on the undocumented persons to the 
exclusion of the employers, who were supposed to check the E-
verify system.
    Mr. Miles, this is not the way we treat people in the 
United States of America.
    [Applause.]
    Chairman Thompson. Gentleman yields back.
    Mr. Green of Texas. I yield back, Mr. Chair.
    Chairman Thompson. The gentleman from Tennessee.
    Mr. Cohen. Mr. Chairman, I want to thank you for inviting 
me here. I have learned a lot. It has been a privilege to be in 
Tougaloo, this famous institution.
    I have to get back to Memphis. I have got a day's worth of 
folks waiting in my office starting at 3 o'clock and I got to 
meet with them. So I am off to Memphis.
    Chairman Thompson. Yes. Well, let me thank you again for 
coming down. Your presence has meant a lot to us. Thank you 
very much.
    [Applause.]
    Chairman Thompson. So we will have, in the interest of 
time, a wrap-up.
    Ms. Jackson Lee. Let me, Mr. Chairman, thank you so very 
much.
    Again, I must emphasize to Mississippi what a major asset 
Chairman Thompson has been to the securing of this Nation. We 
do not take a back seat on this committee.
    Every day, we walk into the Homeland Security room--meeting 
room we know the daunting responsibility we have to all of the 
witnesses here to care for this Nation.
    To all of those who are here, I know that amongst you are 
patriots, men and women who have served in the United States 
military. I was just recently in a hearing or in a meeting 
dealing with the unfortunate treatment of immigrant military 
personnel.
    So we are being guided by policies that really have no 
basis in substance. They are skewing the Constitution and the 
way we have matched immigrants and laws and citizens.
    Mr. Miles, you are on record saying no employer has been 
arrested. That is why my question was whether or not if there 
was a SAC--a Special Agent in Charge--or a ICE officer agent 
who came and said this is patently unfair, I would hope that 
their message would get to Washington, to us, to the Secretary, 
and maybe, ultimately, to the person who has been the 
implementer of these cruel and unworkable policies that are 
impacting families and children.
    The President needs to know that in the places beyond the 
boundaries of Washington none of his policies are working. 
There is no border wall. He is cruelly separating children.
    [Applause.]
    Ms. Jackson Lee. Families are being, if you will, not 
reunited and I don't know whether or not you are making the 
Nation safe with these particular policies. I am not suggesting 
your work does not make us safe.
    So I hope that you can convey that there is a great deal of 
disturbance around this issue. No employer arrested, children--
not able to give us the numbers of those still separated.
    The idea that we want to promote from Washington is 
cooperation with local officials, school districts, 
superintendents, and now you are saying to us or we are seeing 
here--I am embarrassed.
    That these local officials have a responsibility--the 
sheriff even admitted that you could have investigations that 
may not need an immediate information out.
    But while it was going on the mistreatment of the mayor 
when he asked an agent what is going on, and an agent cutting a 
seatbelt--anybody with a weak heart might have passed out right 
there, and it was a woman.
    So I want to close my remarks by an apology to these 
families. I have enough dignity to apologize on behalf of the 
United States and not diminish----
    [Applause.]
    Ms. Jackson Lee [continuing]. And not diminish the men and 
women who work for Homeland Security and I will not take a back 
seat to my advocacy for those individuals.
    But I am willing to apologize because this is a ill-
conceived, cruel, inhumane, and ineffective way to govern our 
immigration laws.
    If you have suggested that I have, as a Member of Congress, 
written some law that gives the permission for separation of 
children, there is no print to that. It is the way it is 
enacted. Policies are what causes that.
    So it is my intent, Mr. Chairman, to put into the record 
``Nobody Opened the Door'' rally--neighbors' rally--during an 
ICE raid in Houston, Texas.
    I ask unanimous consent.
    Chairman Thompson. Without objection.
    [The information follows:]
  Article From the New York Times Submitted by Hon. Sheila Jackson Lee
`nobody opened the door': neighbors rally during an ice raid in houston
By Manny Fernandez and Kerry Lester, July 15, 2019.
    HOUSTON.--The immigration raid early Monday morning at the El 
Paraiso Apartments in Houston was not exactly a major victory for law 
enforcement. It was foiled, in part, by 19-year-old Kaylin Garcia.
    Shortly before 7 a.m. Monday, Ms. Garcia was sitting in her car 
near her family's apartment, in a largely Hispanic section of southwest 
Houston about 15 miles from downtown. She saw four Immigration and 
Customs Enforcement agents walk by--one dressed in camouflage fatigues 
and the others wearing black T-shirts and bulletproof vests. They were 
knocking on apartment doors. She took a picture of the agents with her 
phone, posted it to her Facebook page and notified some of her 
neighbors.
    At least one of her neighbors saw Ms. Garcia's picture and heard 
about her warnings--the family slid the chain closed on their door. 
When the agents knocked on the door, the family--an undocumented 
Honduran man and his wife, along with their American-born children and 
another relative--kept silent and never opened it. After a minute or 
two, the agents left.
    ``I wasn't scared,'' Ms. Garcia said. ``I was scared for my 
neighbors.'' She added, ``Nobody opened the door.''
    The anticipated large-scale ICE raids aimed at rounding up at least 
2,000 migrant parents and children appear to have run into similar 
problems in other parts of the country. With widespread publicity about 
the raids, many undocumented migrants have been counseled to avoid 
opening their doors. Neighbors, immigration lawyers and migrant rights 
advocates are issuing warnings when any ICE agents are spotted. 
Following any report of a raid--real or rumored--the news media 
descends within minutes: At El Paraiso in the afternoon, Ms. Garcia 
spoke to a pack of television and newspaper reporters who had converged 
on the complex.
    President Trump said on Monday that the raids that began over the 
weekend were ``very successful,'' though it wasn't clear what 
operations he was referring to. Immigrant lawyers and advocacy groups 
reported only scattered raids that seemed to result in relatively few 
arrests.
    ``Many, many were taken out on Sunday; you just didn't know about 
it,'' Mr. Trump told reporters at a White House event. ``It was a very 
successful day, but you didn't see a lot of it.''
    In the suburbs northeast of Atlanta, immigrant advocates reported 
at least two encounters with ICE agents. In one of them, they said, 
immigration agents were involved in a vehicle pursuit of two people; 
the two eventually ditched their car outside a chiropractic clinic and 
fled on foot, said Adelina Nicholls, director of the Georgia Latino 
Alliance for Human Rights. In another case reported to her group, 
immigration authorities reportedly stopped a white van with an 
unspecified number of passengers.
    The Minnesota Immigrant Rights Action Committee reported that ICE 
officers surrounded a car in Minneapolis on Monday morning and when the 
occupant apparently locked the doors, officers busted out the back 
window, unlocked the doors and dragged the person out. Their account 
was based on witnesses who spoke to members of the committee when they 
arrived on the scene a short time later.
    ``We then took pictures of the damaged window on the car of the man 
who had been detained,'' the group said in a statement. ``You can see 
how all the glass fell into the car filling his child's car seat. He 
left his work bag in the front seat and his coffee mug in the holder 
still steaming with hot coffee.''
    ICE officials have not officially commented on the raids, and did 
not confirm any reports on their operations. It was not clear whether 
the incidents reported involved the administration's latest plan to 
deport recently arrived migrant families, or were routine operations 
targeting various people with deportation orders. The agency arrested 
158,581 immigrants overall in the 2018 fiscal year, an 11 percent 
increase from the previous year.
    Across the country, many undocumented immigrants were staying home 
and avoiding public places.
    In Chicago, the normally bustling Discount Mall in the heart of the 
city's mainly Latino Little Village neighborhood stood eerily quiet on 
Monday, as it had over the past several days because of fears of ICE 
encounters. ``There's hardly people here no more,'' said Krisandra 
Ruvalcaba, a store owner, as she organized shelves of religious statues 
and paintings, Guns N' Roses T-shirts, blankets and shoes--with few 
customers around to buy them.
    Regina Kang, whose family owns the nearby Viva Fashion store, said 
a number of her employees had failed to show up for work. ``They tell 
me, `I can't come in,' '' she said. ``I'm understanding about it, it's 
a scary time.''
    People exchanged information about the ICE operations on a Facebook 
page. One person posted: ``Please Help, Friend with restaurant in MA 
needs to train staff & terrified workers how to deal with ICE. 
Resources?''
    Susana Salgado, a manager at Centro Romero, an immigration and 
family service center on Chicago's North Side, said teachers had spent 
the past week teaching students at their summer program what to do 
should ICE agents come to their door. ``We tell them to be careful when 
they answer, even if they think, `Oh, it's the pizza delivery guy,' '' 
she said. ``These children have had the same training as we give to 
adults.''
    At the El Paraiso Apartments in Houston, Ms. Garcia, her neighbors 
and even workers at the complex said they were proud to have had a hand 
in making ICE's job more difficult on Monday morning. Still, though ICE 
officials declined to discuss the details of their operation at the 
apartment complex, residents and workers said they believed a few 
people were taken away.
    ``I knew it was going to happen, but I didn't think it was going to 
happen here,'' said Odilia Leija, the property manager. ``I started 
making out a letter for my residents, letting them know they don't have 
to open their doors, making sure they look out their windows before 
they open doors. They're all working people. We do criminal background 
checks. We got good residents.''
    The family who had been warned by Ms. Garcia sat together in their 
living room on Monday afternoon, still rattled, even hours later, by 
the knock on the door that morning.
    A 21-year-old cousin who lives with the family was the one who 
heard the agents--they knocked on the door two or three times, he said, 
and announced: ``Please open the door. This is ICE.''
    ``I didn't say anything,'' said the man, who, like the rest of the 
family, was fearful of having his name published. ``I was silent. 
Everyone else was silent, too.'' After a minute or two, he said, they 
left.
    ``I was a little bit afraid,'' said the man, who had just been 
released in June from an ICE detention facility in Texas. ``I wasn't so 
much afraid for myself, but I was afraid for my cousin, who is 
undocumented.''
    The couple's 9-year-old son wanted to go outside and see the TV 
cameras, but his parents were reluctant, deciding against going 
outdoors at all--for how long, they couldn't say. ``We're not going to 
leave,'' said the husband, who works in construction. ``They could come 
back later. I canceled everything.''
    Eventually, the couple allowed their son to leave the apartment. He 
went around the complex knocking on neighbors' doors--in this case, to 
hand out fliers to the neighbors, in Spanish, advising them of their 
rights in case the ICE agents came back.

    Ms. Jackson Lee. I ask unanimous consent for an article in 
the Chronicle, ``Houston Congresswoman Said Undocumented 
Immigrants Could Seek Shelter in Churches During Raids.'' I ask 
unanimous consent.
    Chairman Thompson. Without objection.
    [The information follows:]
Article From the Houston Chronicle Submitted by Hon. Sheila Jackson Lee
 houston congresswoman said undocumented immigrants could seek shelter 
                 in churches during announced ice raids
By Lara Korte, July 13, 2019.
    U.S. Rep. Sheila Jackson Lee met with faith leaders in Houston on 
Saturday to invite undocumented immigrants to seek refuge in churches, 
mosques and synagogues and call on religious organizations to open 
their doors ahead of Sunday's anticipated deportation roundup by U.S. 
Immigration and Customs Enforcement officers.
    ``It is to my dismay that I have to come home to find many of those 
who live in my jurisdiction, my constituency, are panicked, frightened 
and in fear of their lives,'' said Jackson Lee, a Houston Democrat. ``I 
say to the Federal authorities that you are well aware and on notice 
that you are not able to come into a church and demand anyone that is a 
representative of the faith to give anyone to anyone.''
    Jackson Lee gathered with faith and local leaders Saturday 
afternoon at the Living Water International Apostolic Ministries in 
Houston. The ministry, along with half a dozen other churches, 
announced it would shelter undocumented immigrants Sunday who fear they 
are in danger of being taken by ICE.
    ``We want to be a beacon of light for those who may be in fear. So 
when I got the call, I couldn't do anything but accept,'' said apostle 
Robert Stearns, leader of Living Water. ``There is nothing strange to 
us in doing this. This is our heart and our passion.''
    Immigrant communities in Houston and cities across the country have 
been preparing in the past week for the deportation raids that Federal 
officials say will start Sunday. The operation will target some 2,000 
undocumented immigrants. The New York Times reported this week that the 
raids could also include ``collateral'' deportations--the removal of 
undocumented immigrants that were not the target of the raids but 
happen to be there when they happen.
    ICE officers are, technically, allowed to enter ``sensitive 
locations'' such as churches, schools and hospitals but generally try 
to avoid doing so.
    ``Enforcement actions may occur at sensitive locations in limited 
circumstances, but will generally be avoided,'' according to the ICE 
website. ``ICE officers and agents may conduct an enforcement action at 
a sensitive location if there are exigent circumstances, if other law 
enforcement actions have led officers to a sensitive location, or with 
prior approval from an appropriate supervisory official.''
    It is not clear if the churches will face legal consequences for 
sheltering undocumented immigrants from deportation. Stearns, with 
Living Water, said his church is not trying to break the law, but 
rather do what it believes to be right.
    ``We need the president to understand that there are some areas 
that we're duty bound to do,'' Stearns said. ``We're just trying to 
sustain those who need to be sustained until Congress and him can get 
some things together and get some things sorted out.''
    Jackson Lee's office did not immediately respond to questions about 
potential legal repercussions.
    Cesar Espinosa is the executive director of Familias Inmigrantes y 
Estudiantes en La Lucha, a group that advocates for immigrants and 
social justice in Houston. Espinosa said many immigrants are fearing 
for their lives and safety ahead of Sunday and could be looking for a 
place of refuge.
    ``As long as we can remember, the church has always been a 
sanctuary for people who are fleeing persecution,'' Espinosa said.
    Texas Republicans have continually criticized Democrats' stance on 
the border crisis and deportation operations. On Saturday, U.S. Rep. 
Dan Crenshaw, a Houston Republican, tweeted what he called a summary of 
Democrats' immigration plan: no border wall, no asylum reform, 
decriminalization of improper border crossings and not enforcing 
deportation orders.
    ``Seriously, ask yourself: is that your position?'' Crenshaw wrote. 
``Most Americans say no.''

    Ms. Jackson Lee. And another about the mayor of the city of 
Houston weighs in on an expected ICE raid. None of this is to 
violate the law. It is only to recognize that we can enforce 
the law.
    [The information follows:]
    Transcript From All Things Considered Submitted by Hon. Sheila 
                              Jackson Lee
     houston mayor sylvester turner weighs in on expected ice raids
July 11, 2019.
    Houston is one of ten cities preparing for ICE raids this weekend. 
NPR's Audie Cornish speaks with Houston Mayor Sylvester Turner about 
how the raids could affect his city.
    AUDIE CORNISH, HOST: We're joined now by Houston, Texas, Mayor 
Sylvester Turner. His city is one of 10 preparing for the possibility 
of ICE raids this weekend.
    Welcome to the program.
    SYLVESTER TURNER: Well, thank you for having me.
    CORNISH: So what was the effect of having advanced notice on this?
    TURNER: Well, I think, certainly, families are concerned that--it 
has enhanced the anxiety level of people within my city. Families are 
concerned about being separated from their loved ones. And, quite 
frankly, it impacts, adversely, public safety as well because we rely 
on immigrants and others to report when crimes are being committed in 
their neighborhoods or where they may be living. And so it has had an 
adverse effect there. And then people are shying away from public 
services--things that they need for themselves and for their family 
members, so I can't quite see the upside. But we certainly can see the 
downside of the publication of these advanced raids.
    CORNISH: What kind of guidance have you given your law enforcement 
personnel? Is there a possibility that--yes, let me just end there. 
What guidance have you given your law enforcement personnel?
    TURNER: Well, let me just say that we have repeatedly said that 
Houston Police Department is not ICE. We are not going to be 
participating with ICE on these type of raids. Now, it's one thing--let 
me separate some things out. If we are talking about people with 
criminal records, people who have committed violent crimes, people who 
have felonies, people who are members of gangs like MS-13, that's one 
thing 'cause we certainly don't want those individuals in our city, 
period, OK?
    CORNISH: But how are you going to make that distinction in a raid 
situation? I mean, are officials doing anything to shield people from 
possible arrest?
    TURNER: Well, with respect to people who are here like DREAMers and 
people who have been here for quite some time or people who have come 
to this country because they are seeking better opportunities, that's a 
different class. And we're advising people that they do have due 
process rights. They do not have to answer the door. They do not have 
to let anybody into their home. And we encourage people to call the 
Immigration Rights Hotline--1-833-468-4664.
    CORNISH: The Trump administration has argued that these raids are 
meant to act as a kind of deterrent. If you have a crisis, as we are 
seeing on the border, and there are people in the country illegally, 
shouldn't the government be stepping in to try and solve that problem?
    TURNER: Well, I think there's a better way to do it. We do need 
comprehensive immigration reform. You can't do this on a State-by-
State, city-by-city basis. That's not going to do it. There are 
problems in many of these countries outside of the United States. We 
need to address those problems in those particular countries where 
people are coming from. For us in the city of Houston, I mean, this is 
the most diverse city in the United States. One of four Houstonians is 
foreign-born. And, quite frankly, we are not in the habit of separating 
families; parents from their children. So again, it's one thing if the 
focus of these raids is on people with criminal records, people who've 
have committed violent crimes, people who are part of gangs. That's one 
thing. But if we're simply talking about deporting people who have been 
here for quite some time, that their crime is only coming here to seek 
a better way of living or to provide a better opportunity for their 
families, that's a different situation.
    CORNISH: You've mentioned the separation of families. What concerns 
do you have about the potential for that? Is there any kind of 
provision the city can make, especially in the case of maybe small 
children?
    TURNER: Well, what we are simply doing as best we can is to make 
sure that people know their rights. They are--regardless of how you got 
here when you came to this city or any other in the United States, you 
do have due process rights. And we want to make sure that people know 
what their rights are.
    CORNISH: Does any of this undermine the attempt of cities like 
yours to be kind-of sanctuaries, so to speak?
    TURNER: Well, this is a welcoming city. City of Houston is a 
welcoming city. We're very diverse. We seek every day to be very 
inclusive. Let me just say I don't think this does anything to deter 
people from coming here. And it doesn't create public safety--enhance 
public safety right here in the city of Houston.
    CORNISH: Sylvester Turner is the mayor of Houston. His city is one 
of 10 where ICE raids are to happen this weekend.
    Thank you for speaking with ALL THINGS CONSIDERED.
    TURNER: Thank you. Thanks for having me.

    Ms. Jackson Lee. But we do not have to be perpetrators of 
injustice and we do not have to duplicate those adversaries in 
places where many of us know--despotic leadership like Russia.
    We don't have to be Russia. We can be the United States of 
America, a great country, respecting you and all of you.
    [Applause.]
    Ms. Jackson Lee. Mr. Chairman, I yield back. I thank you 
for having us in this hearing and we have a lot of work to do 
in Washington, DC.
    I yield back.
    Chairman Thompson. Thank you very much.
    The Chair recognizes the gentleman from Houston, Texas.
    Mr. Green of Texas. Thank you, Mr. Chairman.
    I would like to compliment you for bringing this hearing to 
this college. I compliment you because, Mr. Chairman, I have 
been in Congress since 2005 and, to be very honest, there are 
not many Chairpersons who would hold this hearing about this 
topic at this time.
    You deserve an expression of appreciation. I compliment 
you. I compliment you, Mr. Chairman. I compliment you. I 
compliment you.
    [Applause.]
    Mr. Green of Texas. I want to close with this. There were 
indications that the immigrants were not--are not a threat, 
that there was not a local request for aid and assistance. 
There was no invitation from the local constabulary to have 
this take place.
    It seems to me that in targeting we ought to at least, 
before we perfect a raid of this type, talk to the local 
sheriff.
    He might have information about the crimes that are being 
committed. Talk to the mayor. He might have an opinion about 
the crimes that are being committed.
    So I just hope that this will help us and you as you 
proceed with future endeavors. My hope is that you will give 
some consideration to the local population before you do this 
again.
    I will close with this. I love my country. I say the Pledge 
of Allegiance. I sing the National Anthem. Nobody is going to 
say that I am not a patriotic American with any degree of 
credibility.
    As a patriotic American, as you are, Mr. Miles, as you are, 
Mr. Lee--Sheriff Lee--as you are, Mayor, I say to you this kind 
of behavior is totally unacceptable. It is unacceptable.
    Thank you.
    [Applause.]
    Chairman Thompson. Thank you very much. Let me thank my 
colleagues for coming to Mississippi for this hearing. I want 
to thank the people who came today to the hearing. Your 
presence speaks volumes for your interest in this issue.
    I am convinced that, over time, we will fix this problem. 
As all my colleagues have said, we are a greater country than 
this. We should not under any circumstance separate children 
from their parents.
    I am a grandparent. I know how precious young people are. I 
would not take pride in this country that separates its 
children. We are better than that.
    So I know people have a job to do and it is a difficult 
job. But you can do it with compassion, and I think it is the 
compassion, or lack of, in this situation and some others that 
causes us concern.
    So we will continue to conduct rigorous oversight. We will 
get back to the witnesses on it.
    I have some statements I would like to acknowledge for the 
record from the Southern Poverty Law Center, the National 
Immigration Law Center, the Mississippi Immigrants Right 
Alliance, the Mississippi Immigrants Right Alliance Legal 
Project, Mississippi Center for Justice, Center for Law and 
Society, Community Change Action, Southeast Immigration Rights 
Network, as well as testimonies from people who are still 
incarcerated who share their letters with us.
    [The information follows:]
 Statement of Kelli Garcia, Immigration Policy Counsel; Brandon Jones, 
   Mississippi Policy Director; Julia Solorzano, Staff Attorney; and 
  Meredith Stewart, Senior Supervising Attorney, Southern Poverty Law 
                                 Center
                            November 7, 2019
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee, the Southern Poverty Law Center (SPLC) respectfully requests 
that this statement be made part of the record for the November 7, 2019 
hearing, ``Immigration Raids: Impacts and Aftermaths on Mississippi 
Communities'' in Tougaloo, Mississippi.
    Founded in 1971, the Southern Poverty Law Center (SPLC) is a civil 
rights organization dedicated to advancing and protecting the rights of 
people of color, the poor, and victims of injustice in significant 
civil rights and social justice matters. Our Immigrant Justice Project 
represents low-income immigrants in employment and civil rights cases 
across the Southeast.
    For years, the SPLC has been advocating for and litigating on 
behalf of poultry workers throughout this region. In 2013, the SPLC 
released Unsafe at These Speeds: Alabama's Poultry Industry and its 
Disposable Workers, a landmark report that describes how poultry 
workers often suffer significant injuries and illnesses due to unsafe 
conditions in the plants. The SPLC is also currently representing 
workers from a meatpacking plant in Bean Station, Tennessee who in 
April 2018 were subjected to the largest workplace immigration 
enforcement action in nearly a decade.
   i. the trump administration's aggressive worksite raids terrorize 
                         immigrant communities
    On August 7, 2019, just days after a gunman targeted immigrants in 
El Paso, killing 22 people, the U.S. Government sent armed agents into 
workplaces throughout Mississippi as part of an ICE operation that 
culminated in 680 arrests. Workers were handcuffed and loaded onto 
buses headed to a National Guard armory, their futures uncertain. 
Children throughout the State came home from their first day of school 
to learn that their parents had been taken away.
    This was not the first time that ICE used unnecessary and brutal 
force under the Trump administration to arrest vulnerable and often 
exploited workers, wreaking havoc on communities and terrorizing 
families. In October 2017, then-acting Director of U.S. Immigration and 
Customs Enforcement (ICE), Thomas Homan, instructed ICE to quintuple 
workplace enforcement actions in 2018.\1\ Contrary to the previous 
administration's worksite enforcement policy, which generally only 
targeted employers, Homan noted that ICE would approach enforcement 
differently than in the past by going just as aggressively after 
already vulnerable employees.\2\ Shortly thereafter, in early 2018 ICE 
raided 98 7-Eleven stores in 17 States and the District of Columbia. 
During those raids, ICE arrested 21 workers for civil immigration 
violations.\3\ The magnitude of the raids continues to grow. In 2018, 
ICE conducted half a dozen large-scale worksite rates, arresting a 
total of nearly 1,000 workers.\4\ ICE has also been engaging in smaller 
worksite operations throughout the country (i.e., less than 50 
arrests).\5\ So far in 2019, ICE has conducted multiple large-scale and 
smaller worksite raids, arresting over 2,500 workers, including the 680 
workers arrested on August 7 in Mississippi.\6\
---------------------------------------------------------------------------
    \1\ Tal Kopan, ICE chief pledges quadrupling or more of workplace 
crackdowns, Oct. 17, 2017, https://www.cnn.com/2017/10/17/politics/ice-
crackdown-workplaces/index.html.
    \2\ See id.
    \3\ United Food and Commercial Workers (UFCW), Raids on Workers: 
Destroying Our Rights, 36, available at https://www.scribd.com/
document/22576349/UFCW-Raids-on-Workers-Destroying-Our-Rights.
    \4\ Holly Straut-Eppsteiner, National Immigration Law Center., 
Worksite Immigration Raids Terrorize Workers and Communities Now, and 
Their Devastating Consequences Are Long-Term, Apr. 11, 2019, https://
www.nilc.org/2019/04/11/worksite-immigration-raids-terrorize-workers-
and-communities/.
    \5\ See Acosta v. Southeastern Provision, LLC, et al., 3:19-cv-
00150 (E.D. Tenn. filed Apr. 29, 2019).
    \6\ American Immigration Lawyers Association, Announcements of ICE 
Enforcements, https://www.aila.org/infonet/ice-announcements-of-
enforcement-actions#2019.
---------------------------------------------------------------------------
    This aggressive approach to the workplace is consistent with the 
administration's approach to immigration more generally with the 
promulgation of morally and legally questionable policies such as the 
Muslim Ban, Family Separation, and Remain in Mexico. The fallout from 
the Trump administration's workplace enforcement tactics has been as 
devastating as the administration's border policies.
 ii. the trump administration's targeting of vulnerable workers harms 
                        workers and communities
    The Trump administration's recent raids have targeted low-wage 
workplaces where workers are more likely to be subject to wage theft, 
health and safety violations, and discrimination. However, instead of 
protecting the workers' rights and holding the employers accountable 
for taking advantage of a vulnerable workforce, the Government is 
arresting and deporting the worker-victims. This will only increase 
exploitative practices in industries already known for rampant labor 
violations and will harm all workers by lowering labor standards.
    Illinois-based poultry supplier Koch Foods, 1 of the 7 companies 
targeted by the August 7 Mississippi raids, settled a multi-year 
lawsuit in 2018 brought by the U.S. Equal Employment Opportunity 
Commission (EEOC) on behalf of more than 100 workers at the Morton, 
Mississippi. The primarily Latinx workers alleged serious labor 
violations including intimidation, harassment, sexual and physical 
assault, and exploitation.\7\ According to the EEOC, supervisors at 
Koch touched Latina employees, made sexually suggestive comments to 
Latina employees, hit Latinx employees and charged many of the Latinx 
employees money for normal everyday work activities. Latinx employees 
who complained about the unlawful treatment faced retaliation including 
being fired from their jobs.\8\ Southeastern Provision, LLC, the 
Tennessee plant targeted for immigration enforcement in 2018, similarly 
had a history of labor abuses. In August 2018, the Tennessee 
Occupational Safety and Health Administration (TOSHA) levied over 
$40,000 in fines on Southeastern Provision, one of the highest fines 
ever imposed by the agency. Of the 27 citations, 23 were categorized as 
``serious'' because of the risk of physical harm or death to the 
workers.\9\ In April 2019, the U.S. Department of Labor (DOL) sued 
Southeastern Provision for wage theft.\10\
---------------------------------------------------------------------------
    \7\ Mica Rosenberg & Kristina Cooke, Allegations of Labor Abuses 
Dogged Mississippi Plant Years Before Immigration Raids, Aug. 9, 2019, 
https://www.reuters.com/article/us-usa-immigration-koch-foods/
allegations-of-labor-abuses-dogged-mississippi-plant-years-before-
immigration-raids-idUSKCN1UZ1OV.
    \8\ Equal Opportunity & Employment Commission, Press Release: Koch 
Foods Settles EEOC Harassment, National Origin and Race Bias Suit, Aug. 
1, 2019, available at https://www.eeoc.gov/eeoc/newsroom/release/8-1-
18b.cfm.
    \9\ WATE.com, Owner of Grainger Co. Slaughterhouse Fined $41K for 
Hazardous Working Conditions, Aug. 25, 2018, https://www.wate.com/news/
local-news/owner-of-grainger-co-slaughterhouse-fined-41k-for-hazardous-
working-conditions/.
    \10\ See Acosta v. Southeastern Provision, LLC, et al., 3:19-cv-
00150 (E.D. Tenn. filed Apr. 29, 2019).
---------------------------------------------------------------------------
    Poultry processing plants, like those raided in Mississippi, have a 
long history of exploiting immigrant workers. Immigrant workers are the 
backbone of the poultry industry; they do this incredibly difficult 
work under dangerous conditions, contributing millions of dollars to 
Mississippi's economy. The SPLC found that three-quarters of the 
poultry workers they interviewed for the 2013 report, Unsafe at These 
Speeds, described suffering some type of significant work-related 
injury or illness.\11\ Long hours, loud noises, dangerous machinery, 
dangerous chemicals and floors that are often slick with water and raw 
chicken scraps make poultry plants particularly dangerous. Despite many 
factors that lead to undercounting of injuries in poultry plants 
according to the Bureau of Labor Statistics in 2017, poultry workers 
experienced twice as many work-related injuries and illness compared to 
all U.S. workers.\12\
---------------------------------------------------------------------------
    \11\ Alabama Appleseed & The Southern Poverty Law Center, Unsafe at 
These Speeds: Alabama's Poultry Industry and its Disposable Workers, 
Mar. 1, 2013, 3, available at https://www.splcenter.org/20130228/
unsafe-these-speeds#summary.
    \12\ Bureau of Labor Statistics, Injuries, Illnesses, & Fatalities, 
Table 1. Incidence rates of nonfatal occupational injuries & illnesses 
by industry and case types 2017, https://www.bls.gov/iif/oshwc/osh/os/
summ1_00_2017.htm (last visited Nov. 4, 2019).
---------------------------------------------------------------------------
    Because of the brutal working conditions and low pay, the poultry 
industry has struggled to find workers. Many new poultry workers leave 
within just days or weeks of starting at poultry processing plants. 
Rather than improving conditions and pay, though, the poultry industry 
began explicitly recruiting Latinx immigrants.\13\ In the 1990's, the 
Morton, Mississippi poultry processing plant, B.C. Rogers, which was 
eventually sold to Koch Foods, created the ``Hispanic Project,'' 
establishing an office in the Miami area and sending a recruiter to 
Brownsville and McAllen, Texas to recruit Latinx immigrants.\14\ 
Although the project lasted only a few years, thousands of workers 
arrived from Cuba, Mexico, Guatemala, and other Central American 
countries.\15\ In Scott County, the Latinx population increased by more 
than 1,000 percent between 1990 and 2000.\16\
---------------------------------------------------------------------------
    \13\ Charles Bethea, After ICE Came to Morton, Mississippi: About 
one in ten of the city's residents was jailed or fired after raids at 
local chicken plants. But for most, Morton is Still Home, The New 
Yorker, Oct. 31, 2019, available at https://www.newyorker.com/news/
dispatch/after-ice-came-to-morton-mississippi.
    \14\ Alissa Zhu et al., Chicken Plants Lured Them: Feds Jailed 
Them. How Mississippi's Immigration Crisis Unfolded, Clarion Ledger, 
Sept. 18, 2019, available at https://www.clarionledger.com/story/news/
2019/09/18/illegal-immigration-mississippi-ice-raid-poultry-industry-
immigrant-workers/2100785001/
    \15\ Bethea, supra note 11.
    \16\ Zhu, supra note 12.
---------------------------------------------------------------------------
    These immigrant Latinx workers are particularly vulnerable to 
exploitation, including wage theft and harassment. Yet, rather than 
protecting workers, the Trump administration has employed military-
style tactics to terrorize immigrant communities. These practices will 
drive this already vulnerable workforce even further into the shadows, 
emboldening exploitive labor practices and lowering standards for all 
workers.\17\ In fact, ICE's swift detention and removal of workers in 
the past has hampered investigations by Federal labor agencies after 
raids.\18\ In April this year, for example, the U.S. Department of 
Labor (DOL) sued the owner of the Bean Station, Tennessee meatpacking 
plant for wage theft on behalf of the same workers the Government 
arrested 1 year earlier in the raid.\19\ Unfortunately, the Government 
has already deported many of the worker-victims, which could complicate 
the DOL's efforts to hold the employer liable through its Federal 
lawsuit.
---------------------------------------------------------------------------
    \17\ See, e.g., Kati L. Griffith, Laborers or Criminals? The Impact 
of Crimmigration on Labor Standards Enforcement (2014), https://
digitalcommons.ilr.cornell.edu/cgi/
viewcontent.cgi?referer=&httpsredir=1&article=2059&context=articles; 
Dave Jamieson, Donald Trump's Crackdown On Undocumented Immigrants Is 
Silencing Exploited Workers, Mar. 8, 2017, https://www.huffpost.com/
entry/trump-immigrant-worker-abuse_n_58c03352e4b054a0ea66eef0; Sam 
Levin, Immigration Crackdown Enables Worker Exploitation, Labor 
Department Staff Say, Mar. 30, 2017, https://www.theguardian.com/us-
news/2017/mar/30/undocumented-workers-deportation-fears-trump-
administration-department-labor.
    \18\ United Food and Commercial Workers (UFCW), Raids on Workers: 
Destroying Our Rights, 36, available at https://www.scribd.com/
document/22576349/UFCW-Raids-on-Workers-Destroying-Our-Rights.
    \19\ See Acosta v. Southeastern Provision, LLC, et al., 3:19-cv-
00150 (E.D. Tenn. filed Apr. 29, 2019).
---------------------------------------------------------------------------
    The Trump administration's worksite raids have wreaked havoc on 
local communities by targeting vulnerable, low-wage workers. The 
Mississippi communities affected by the August 7 raids continue to deal 
with the aftermath. Approximately 1 in 10 Morton residents were 
detained or fired as a result of the raid.\20\ Families who were 
already living paycheck to paycheck are scrambling to pay rent or 
medical care. For many of the families, their sole wage-earner was 
detained or is currently unable to find work in the wake of the 
raids.\21\ People are afraid to leave their homes. Children who came 
home from their first day of school to discover a parent missing are 
afraid to return to school.\22\
---------------------------------------------------------------------------
    \20\ Bethea, supra note 11.
    \21\ Maya Primera, Months After ICE Raids, An Impoverished 
Mississippi community is Still Reeling, Oct. 13, 2019, https://
theintercept.com/2019/10/13/ice-raids-mississippi-workers/.
    \22\ Id.
---------------------------------------------------------------------------
           iii. congress must demand accountability from ice
    Worksite raids damage communities, harm children and families, and 
leave workers vulnerable to exploitation. Congress must hold ICE 
accountable for the unnecessary harm worksite raids have caused. 
Congress should continue to call for cuts to funding for ICE, including 
reducing funding for the operations of Homeland Security 
Investigations. Congress should obtain information about how and why 
specific worksites were targeted, how the raids were conducted, and 
what steps ICE is taking to ensure that exploited workers can cooperate 
with investigations into unlawful labor practices and receive backpay 
or money due to the them. Finally, Congress should enact legislation 
that increases work permits and protections for immigrant workers and 
includes a pathway to citizenship for immigrant workers and their 
families.
                                 ______
                                 
Statement of Jessie Hahn, Labor & Employment Policy Attorney, National 
                         Immigration Law Center
                            November 7, 2019
    Chairman Thompson, Ranking Member Rogers, and Members of the 
committee, the National Immigration Law Center (NILC) respectfully 
requests that this statement be made part of the record for the 
November 7, 2019 hearing, ``Immigration Raids: Impacts and Aftermaths 
on Mississippi Communities'' in Tougaloo, Mississippi.
    The National Immigration Law Center (NILC) is a nonpartisan 
National legal advocacy organization that works to protect and promote 
the rights of low-income immigrants and their family members. Since its 
inception in 1979, NILC has earned a National reputation as a leading 
expert on the intersection of immigration law and the employment rights 
of low-income immigrants. NILC's extensive knowledge of the complex 
interplay between immigrants' legal status and their rights under U.S. 
employment laws is an important resource for immigrant rights 
coalitions and community groups, as well as National advocacy groups, 
policy makers, attorneys, legal aid groups, workers' rights advocates, 
labor unions, Government agencies, and the media. NILC is also 
currently representing workers from a meatpacking plant in Bean 
Station, Tennessee who in April 2018 were subjected to the largest 
workplace immigration enforcement action in nearly a decade.
     hsi's massive workplace raids cause long-term community harms
    On August 7, 2019, U.S. Immigration and Customs Enforcement (ICE) 
carried out a series of devastating worksite immigration raids in 
Mississippi, arresting 680 workers and leaving many children without 
their parents when class was dismissed during their first day back at 
school. These terrorizing raids have devastating consequences for all 
community members, both immigrant and native-born. They go against 
everything our country should stand for.
    As the Trump administration's Department of Homeland Security has 
ramped up aggressive interior immigration enforcement activities, the 
role played by Homeland Security Investigations (HSI), a division 
within ICE, has come under increasing scrutiny. While HSI tries to make 
the public think that it focuses primarily on National security and 
transnational crime, it is responsible for the ramp up of worksite 
enforcement. Under Trump, ICE has vowed to increase worksite 
enforcement activities ``4 to 5 times,'' and resumed engaging in highly 
militarized and coercive large-scale worksite immigration raids. In 
fact, over the course of 2018, it conducted several high-profile 
operations in Florida, Tennessee, Iowa, 2 locations in Ohio, Nebraska, 
Minnesota, 2 locations in Texas, Arkansas, and North Carolina. Most 
recently, in August 2019, HSI engaged in the largest single State 
workplace enforcement operation in its history when it arrested 680 
immigrant workers at 7 poultry plants near Jackson, Mississippi.
    The Federal agents who descended on Mississippi poultry plants that 
day created chaos and deep pain in the lives of the families impacted, 
forever changing these communities. The long-term consequences of raids 
conducted by ICE are harming communities beyond the people ICE 
specifically targets, including children. Worksite raids of any 
magnitude are devastating for families and entire communities. The 
people impacted by these harmful raids are workers, parents, friends, 
neighbors & vital parts of our communities. Communities where ICE 
conducts massive worksite raids will suffer devastating consequences 
for years to come. This type of military-style raid, in which agents 
use unnecessary force to detain workers at their jobs unexpectedly, 
causes deep psychological and physical trauma for workers, their 
families, and their communities. They are designed to instill fear in 
immigrants, undermining their safety and ability to thrive.
    Worksite raids are a violent and widely condemned enforcement 
tactic that tear parents away from unsuspecting children, cause 
profound psychological harm, destabilize local communities, and 
generally undermine all workers' job-related rights. While HSI has 
attempted to legitimize its use of worksite raids by claiming they are 
criminal investigations, the vast majority of the workers detained are 
administratively arrested on civil immigration violations, and in most 
cases the employers are not criminally charged.
    During the spring and summer of 2018, disturbing patterns emerged 
in HSI's conduct of its worksite raids. Multiple news reports, and 
HSI's own enforcement operation plan, described that while helicopters 
circled overhead and local law enforcement blocked nearby roads, HSI 
agents stormed worksites as heavily-armed guards secured all exits. In 
the utter chaos that ensued, unsuspecting workers were subjected to 
excessive force, intimidated by police dogs, thrown to the ground, 
assaulted, had guns pointed at their heads, and were subjected to 
racist and degrading comments from HSI agents. In Ohio, plainclothes 
HSI agents initially lured a group of workers into a breakroom using 
boxes of donuts before surrounding them and arresting them. In multiple 
raids, HSI agents racially-profiled workers, rounding up brown-skinned 
workers without asking for identification or immigration status 
information--which resulted in false arrests of U.S. citizens who were 
then held unlawfully, in some cases for hours or days.
    Predictably, such enforcement brings deep trauma to those directly 
impacted by it and also terrifies the larger immigrant community. For 
many workers and their loved ones, the raids have led to serious 
mental, emotional, and physical health complications that continue to 
cause suffering 3 months later. Whenever there is a worksite raid, 
children suffer immensely. Many children still suffer from night 
terrors and severe anxiety, not knowing if their parents will still be 
there when they return home from school. After a devastating raid in 
Tennessee, the ripple effects spread across the region, with neighbors 
scrambling to care for children who had been left stranded without 
parents for hours and families sleeping in churches for days out of 
fear of ICE coming to their homes. The day after that raid, 550 
children failed to show up to local schools.
    This kind of immigration enforcement has a profoundly destabilizing 
effect on the well-being of the children whose parents are unexpectedly 
torn from them, causing severe anxiety and depression, poor sleeping 
and eating habits, inability to focus in school, and constant fear of 
separation from other family members. The impact isn't limited to the 
children whose parents were detained the day of the raids--the raids 
instilled fear in every child of immigrants, particularly in these 
communities but around the country as well. This is only exacerbated by 
the residual economic harm, leading to long-term financial instability, 
housing insecurity, and food insecurity.
    In the aftermath of the raids, the community in Mississippi came 
together to pick up the pieces, showing its strength and care for its 
neighbors by immediately coming together to support the families that 
were impacted. Their neighbors--in many cases, residents who have lived 
in Mississippi for more than a decade--went to work expecting a normal 
day and were instead ripped away from their families and out of their 
communities. These workers were active participants of vibrant 
communities.
    While HSI has engaged in criminal investigations of employers since 
its formation, the use of large-scale worksite raids to target workers 
for arrest and deportation was discontinued after 2008 due to the 
widely-documented harms and the havoc these operations cause. In public 
statements, HSI has attempted to justify its increased participation in 
worksite enforcement as necessary to ``build another layer of border 
security'' and ``reduce the continuum of crime that illegal labor 
facilitates.'' In reality, HSI is making the decision to engage in the 
most aggressive, violent form of enforcement it can take at worksites 
because the real purpose of the raids is to target workers for 
deportation while creating a media spectacle designed to intimidate 
immigrant communities into ``self-deporting.''
    While ICE attempts to downplay the brutality of its enforcement 
tactics--going so far as refusing to refer to them as raids--the 
reality across the country is that ICE is trying to change the way we 
live by making people afraid of engaging in routine activities because 
of anticipated or recent ICE enforcement in their communities. In 
diverse communities--whether in rural East Tennessee, northern Texas, 
or the rural poultry plants of Mississippi--ICE is harming not just the 
individuals it sweeps up in its arrests but the children who are 
suddenly separated from a parent, caregiver, or breadwinner, the school 
teachers struggling to meet the needs of traumatized students, and the 
health care providers who now see their patients both facing more 
health challenges but even more afraid to seek help.
    HSI represents that its worksite enforcement activities are 
designed to target employers for the most egregious violations of 
immigration law, but their words are not supported by their actions. In 
fact, 2018 saw the lowest number of Federal indictments and convictions 
of managers for unlawful hiring offenses in the last 10 years. In 
addition, of the 779 criminal worksite arrests that HSI did make in 
2018, 85 percent were of workers and 15 percent were of employers. HSI 
has expended far greater resources in pursuing criminal charges against 
workers--usually for nonviolent unlawful re-entry charges unrelated to 
the criminal investigation that prompted the raid and only identified 
after HSI took the workers into custody and fingerprinted them (see 
examples from the raids in Tennessee; Sandusky, Ohio; and Canton, 
Ohio).
    HSI also alleges that its investigations help combat the 
exploitation of workers, but that couldn't be further from the truth. 
HSI's worksite enforcement activities force immigrant workers into the 
margins and damage communities, making workers more fearful of 
deportation and more vulnerable to gross exploitation by employers. 
When HSI's own investigation of the Tennessee employer turned up wage 
and hour and safety violations on the job, it did not refer those 
violations to the proper authorities (who opened investigations only 
after the employees filed complaints).
   congress must act to hold dhs accountable for the community harms 
                          caused by ice raids
    Congress must hold Government agencies accountable for their 
actions. As details have emerged from these massive raids in 
Mississippi, we know that ICE agents racially profiled Latino workers 
and approached this like a military-style operation, using force to 
antagonize and detain hundreds of members of the community. ICE 
worksite raids cost taxpayers millions of dollars each year, and damage 
communities and local economies in the process. This waste of money is 
made worse by Trump's xenophobic agenda. When ICE is given a blank 
check and no accountability, we are enabling them to act with impunity. 
It's incredibly dangerous to pour indiscriminate taxpayer dollars into 
a Government agency that has little to no oversight.
    Right now, DHS continues to operate under a ``Continuing 
Resolution'' due to disputes in Congress regarding appropriations for 
DHS. Senate Republicans want $5 billion diverted from the Labor and 
Health and Human Services budget to provide additional money for the 
President's border wall. As we have seen time and time again, Trump 
will use the deadline of the current Continuing Resolution, which 
expires on November 21, 2019, as an opportunity to try to hold the 
paychecks of Government workers and essential services hostage to his 
xenophobic demands. Members of Congress should remember that under this 
administration, DHS has acted with impunity and ignored the will of 
Congress by dramatically overspending its budget and then demanding 
Congressional bailouts. This increased spending is directly tied to the 
community harms that are being documented in today's hearing.
    For example, in early 2019, the Government shutdown ended when 
Congress passed a bill that included a clear direction to drive down 
ICE's bloated daily detention population from 49,060 to 40,520 by the 
end of fiscal year 2019 (Sept 30, 2019). Instead, by the end of July 
2019, ICE had reached a historically unprecedented number of 55,000 
people jailed daily for civil immigration violations. We urge Members 
of Congress to fight for meaningful spending cuts in detention, 
deportation, and border militarization, as each of these pieces of the 
immigration enforcement system are at the heart of community harms and 
interior enforcement-related family separation and criminalization. We 
also urge Members of Congress to end ICE and Customs and Border Patrol 
(CBP) fiscal mismanagement by including stronger guardrails in future 
spending bills.
    In addition, there are currently several bills open for co-
sponsorship that would mitigate the harms caused by ICE's raids:
  <bullet> H.R. 3451, The Help Separated Children Act, is focused on 
        ICE practices, including allowing parents to make decisions 
        about their children's care after apprehension and before 
        deportation. It includes protections to ensure that ICE does 
        not interrogate children present during an enforcement action 
        or force them to translate, and requires sensitivity training 
        for all agents.
  <bullet> H.R. 3452, The Help Separated Families Act, is focused on 
        ensuring that the child welfare system has protocols in place 
        to ensure children are able to reunify with detained or 
        deported parents.
  <bullet> H.R. 1011, The Protecting Sensitive Locations Act, would 
        codify, expand, and strengthen existing policies regarding ICE 
        enforcement at sensitive locations, including expanding the 
        list of sensitive locations to include courthouses, public 
        libraries, and food banks. It also adds more accountability 
        measures for ICE arrests.
  <bullet> H.R. 2415, the Dignity for Detained Immigrants Act, which 
        would end private immigration detention, end mandatory 
        detention, protect vulnerable populations and institute humane 
        detention standards.
  <bullet> The Protect Our Workers from Exploitation and Retaliation 
        (POWER) Act, which will soon be re-introduced by Rep. Judy Chu, 
        expands eligibility for U visas to workers involved in certain 
        labor disputes, allows for employment authorization and stays 
        of removal for workers involved in certain labor disputes, and 
        ensures that workers detained during ICE raids cannot be 
        removed from the United States before labor agencies have an 
        opportunity to gather evidence from them regarding labor 
        violations by their employers.
    We can be a country with immigration laws that also treats people 
with heart and with fairness. Immigrants are a vital component of our 
workforce and communities, and worksite raids such as these undermine 
their safety and ability to thrive. We all benefit when everyone in our 
community has the opportunity to be safe, healthy, and successful.
                                 ______
                                 
Statement of Bill Chandler, Executive Director, Mississippi Immigrants 
                         Rights Alliance (MIRA)
   re: arrests and detention of some 680 poultry workers in central 
                              mississippi
    For nearly 20 years since the Mississippi Immigrants' Rights 
Alliance (MIRA) was founded by an alliance of faith, labor, community 
activists, and immigrants, the organization has fought to protect and 
expand the rights of migrants and immigrants who reside or want to 
reside in Mississippi. MIRA has served people from more than 70 
countries and from every continent on the globe.
    When the North American Free Trade Agreement (NAFTA) was imposed in 
1994, it removed tariffs protecting small farmers in Mexico. As a 
result, hundreds of thousands of Mexican farmers were forced off their 
land. The food processing industry took advantage of their desperation 
of those small farmers. The industry recruited some of them to work in 
poultry plants in Mississippi.
    Later, the Central American Free Trade Agreement (CAFTA) had the 
similar impact of driving people off their lands to make way for 
agribusiness operations. Individuals were deprived of food and shelter 
in those Central American countries. Many were indigenous (Indians) 
from rural areas in their countries.
    Many people are fleeing because of NAFTA and CAFTA agreements. They 
come to the United States seeking survival, safety, dignity, homes, the 
warmth of communities, hope for a better life for their families, and a 
future for their children. They are fleeing not only poverty but also 
persecution because of the violence of competing gangs and cartels that 
are meeting the insatiable appetite for the consumption of illicit 
drugs in the United States.
    Family values and a strong work ethic were once touted by 
Mississippi's politicians as a positive virtue. For these ``crimes,'' 
however, 680 breadwinners were arrested on August 7, 2019, at 7 poultry 
plants in central Mississippi. An additional 100 workers were 
terminated from employment at another plant. Mothers and fathers were 
torn from children, who were severely traumatized on their first day of 
the school year.
    Just as we did after the 2008 Howard Industries raid in Laurel, 
Mississippi, where 592 electrical workers were arrested, immediately 
following the August 7 immigration raids, MIRA mobilized to provide 
emergency relief intake centers. Since MIRA's initial response, a 
coalition fund, to which MIRA contributes, has been established. The 
relief system works in conjunction with 5 churches in the affected 
communities.
    It has to be recognized that the true intent of our Nation's 
immigration laws are not to facilitate migration to the United States--
they have been enacted to manipulate a captive workforce. During the 
19th Century, Chinese workers were recruited to help build the 
railroads in the West, as African slaves were laying track from the 
East. When the Chinese were not needed anymore, the Chinese Exclusion 
Act was enacted during the 1880's. This was accompanied by white 
supremacist hysteria. Similar immigration laws were enacted throughout 
the 20th Century, which targeted Mexican workers, and workers from 
Central America and other countries.
    Some recommendations to address the August 7 raid that will make 
immigration into the United States more humane:
    1. Repeal employer sanctions, and ensure that hiring an 
        undocumented worker is not ``harboring.'' Enacted in 1986, this 
        law has not sanctioned many employers, but it has caused the 
        detention and deportation of hundreds of thousands of migrant 
        workers.
    2. Remove the cap and backlog for U-Visa applications for victims 
        of crimes. Reports from victims of the raid indicate that the 
        majority of those detained were women and that many had been 
        sexually abused and should have relief against deportation.
    3. Increase the funding for the Wage and Hour Division of the U.S. 
        Department of Labor and the Occupational Safety and Health 
        Administration. Fund special programs for labor law enforcement 
        in which immigrants are concentrated, especially in the poultry 
        industry. Injuries and diseases are rarely investigated. 
        Stories from several families tell of worker injuries, 
        illnesses, and stories of contaminated chickens that are 
        processed and sent to market for consumption by consumers.
    4. Make threats to undocumented workers to discourage a worker from 
        exercising rights under the National Labor Relations Act an 
        unfair labor practice. Neither back pay nor any other monetary 
        damages shall be denied, as a result of a complainant or 
        plaintiff's immigration status. Require that discrimination 
        shall be prohibited and shall be included in the terms and 
        conditions of employment.
    5. End electronic worker verification systems like E-verify, and 
        other means of enforcing ``work authorization'' and employer 
        sanctions.
    6. Indigenous communities should have the right to use their 
        languages and their cultural practices. In general, indigenous 
        communities should have the right to materials in their native 
        languages about immigration laws and legal proceedings.
    7. Review existing trade agreements to determine how they have 
        contributed to the displacement of communities, by increasing 
        poverty and the economic pressure to migrate. The review should 
        include public Congressional hearings. These hearings should be 
        open to testimony from community organizations, unions, 
        immigrant and human rights organizations, faith-based entities, 
        popular organizations from the countries affected, and 
        environmental organizations.
    8. Eliminate arbitrary, indefinite, or mandatory detention or other 
        forms of abusive treatment and detention practices that 
        separate family members. Implement humane alternatives to 
        detention that allow for release on reasonable bond or their 
        own recognizance before an individualize hearing.
    9. End the privatization of the detention system--the large 
        majority of detention facilities used in Mississippi and 
        Louisiana are private for-profit facilities--by canceling the 
        contracts to these private contractors, the Federal Government 
        will be forced to assume its responsibility to respect the 
        human rights of those charged with immigration violations.
    10. Preempt any State or local law that discriminates against an 
        individual based on immigration status or that imposes 
        sanctions on any individual or entity based on the immigration 
        status of its clients, employees, or tenants.
    11. Eliminate all agreements between the Department of Homeland 
        Security and local, county, or State law enforcement agencies. 
        Repeal 287g. Clarify that the authority to enforce Federal 
        immigration law lies solely with the Federal Government.
    12. Repeal any Federal law that may bar States from issuing driver 
        licenses to undocumented immigrants.
    13. Ensure the due process rights of immigrants in detention, 
        deportation, or removal proceedings. This will include access 
        to legal representation, fair trials, meaningful and expedient 
        judicial review. End racial, ethnic, and religious profiling, 
        and other forms of illegal searches and seizures.
    14. Ensure judicial procedures take into account the impact of 
        deportation on family and community members, as well as on the 
        individual.
    15. Require ICE agents to exercise discretion in arresting people 
        for immigration violations, especially in cases that involve 
        children or other vulnerable members of the immigrant 
        population.
    Arresting and firing undocumented workers will not decrease 
unemployment. No undocumented worker has ever closed a plant, sent a 
job out of the country, or laid people off to boost profits. Arresting 
or firing an undocumented worker does not create a single job. We need 
to create jobs, not raid work places. Interestingly, in Mississippi, a 
recent employment report showed that the counties with the highest 
unemployment rates were the counties with the least immigrant workers. 
Those counties with the lowest unemployment rates had the largest 
number of immigrants. Immigrants create jobs and businesses.
    Employer sanctions, part of immigration law, make it a crime for 
undocumented people to work. The raid in early August 2019 of 
Mississippi's poultry plants, not only hurt the 680 workers, it also 
traumatized their families and the communities where they lived. Their 
neighbors, black and white, protested to the local media about their 
shock and disgust. The raids occurred on the first day of school, which 
should be a happy time for school children. All Department of Homeland 
Security workplace raids should immediately cease.
    The United States spends more money on immigration, than all other 
Federal programs combined. Our tax revenue is being used to violate 
basic human rights. There is no place for racism and xenophobia under 
the law. These are just a few of the changes that would take us in a 
direction for fair and just immigration reform. We appreciate the 
committee's decision to bring this hearing to Mississippi.
                                 ______
                                 
 Statement of L. Patricia Ice, Director, Mississippi Immigrants Rights 
                     Alliance (MIRA) Legal Project
                            November 5, 2019
  august 7, 2019 ice and hsi worksite enforcement raids in mississippi
    I have worked as a full-time immigration lawyer in Mississippi for 
the last 20 years. I have also been a member of the American 
Immigration Lawyers Association (AILA) for more than 21 years. I am the 
current leader of the AILA African Diaspora Interest Group (ADIG). My 
immigration law career began in my home State of Michigan in 1994, when 
I took my first immigration cases. I began my Mississippi immigration 
law practice in 1999 in Scott County, Mississippi, working alongside 
missionaries who requested my assistance with immigrant families and 
their cases in Morton and Forest. In my job as an immigration lawyer I 
help immigrants and their families apply for immigration benefits 
resulting in the acquisition of temporary and permanent residence, as 
well as citizenship through naturalization. I have also assisted 
immigrants with their removal (deportation) defense cases in the 
Memphis and New Orleans immigration courts. In addition, I have 
represented immigrants in their affirmative asylum cases in asylum 
offices in Chicago, Houston, and New Orleans. Today, it is believed 
that almost 10 percent of the population of Scott County has been 
arrested, detained, and/or deported as a result of U.S. Department of 
Homeland Security (DHS) Immigration and Customs Enforcement (ICE)/
Homeland Security Investigations (HSI) worksite enforcement raids 
across central Mississippi on or about August 7, 2019 that netted 680 
individuals and resulted in the termination of jobs of another 100 or 
so individuals. It is important to note that these senseless raids 
affected thousands of individuals across Mississippi and the country at 
large. I am outraged and feel personally violated by these raids due to 
my involvement in many of the raid-affected immigrant communities for 
the last 20 years. I, along with my colleagues at the AILA, hereby 
condemn the raids for the following reasons:
  <bullet> The administration conducted what is reportedly the largest 
        single-State worksite enforcement raid in U.S. history on 
        August 7, 2019, in Mississippi at various poultry processing 
        plants. Before that, in August 2008, Mississippi was the scene 
        of the largest worksite enforcement raid at the Howard 
        Industries ballast plant in Laurel where approximately 592 
        workers were arrested.
  <bullet> Conducting massive raids on worksites has proven to be an 
        inhumane, destructive, and ineffective way to enforce 
        immigration law.
  <bullet> These ``shock and awe'' tactics do nothing more than stoke 
        fear and intimidation and are a waste of law enforcement 
        resources that should be focused on protecting communities 
        rather than tearing them apart.
  <bullet> The ripple effect of these raids extends far beyond those 
        who were arrested.
  <bullet> Their children, their co-workers, their houses of worship, 
        their neighbors, the businesses they support, and the entire 
        community, have experienced a trauma that will last for 
        decades. More than 10 years after the fact, I am still working 
        on a case of a Howard Industries arrestee.
  <bullet> This raid was launched with no regard for the fundamental 
        principles of due process that are the foundation of the 
        American justice system.
  <bullet> The administration descended on small, remote towns where 
        legal assistance is almost non-existent, separating families 
        with no plan or consideration for what would happen to the 
        children, how people will find each other, or get the help they 
        need.
  <bullet> What our country requires is a pathway to legal status for 
        those who have lived and work in communities around the Nation 
        for decades, raising families, and contributing to our shared 
        prosperity.
    The Mississippi raids of August 7 were carried out in a horrific 
way, specifically with no thought of how to protect children of the 
arrestees who are mostly U.S. citizens or lawful permanent residents. 
This was one of the worst aspects of the raids. Children, separated 
from their parents again, by Homeland Security. At his press conference 
following the raids, U.S. Attorney Mike Hurst of the Southern District 
of Mississippi, made references to notifying school officials and other 
Government agencies regarding the raids. Reports from those officials 
indicated otherwise and that schools were caught off guard. The Pew 
Research Center reported in 2016 that Mississippi has one of the 
smallest populations of undocumented immigrants in the country, about 
20,000 by their count. Why Mississippi was chosen to conduct the 
largest worksite enforcement raids (2008 and 2019) in the United States 
is a mystery. Mississippi is also a State with a small overall 
population that is largely rural and agricultural at just under 3 
million inhabitants. The State has the largest black population in the 
country which is nearly 40 percent of the total. There is a lot of 
interaction between the black and immigrant populations and a lot of 
intercultural marriages. I have assisted many couples in those 
marriages to attain lawful permanent residence and citizenship for 
their immigrant loved ones. Due to its highly racist past, the black 
population in Mississippi is extremely vulnerable to untold 
discrimination, along with the immigrant population which is largely 
Latino. The deep institutional racism that still exists in Mississippi 
adds fuel to the fire of discrimination against immigrants who often 
have darker skin and sometimes marry those and create families with 
native-born U.S. citizens with darker skin.
    I would like to see a complete end to immigrant detention and 
facilities in the United States. But note that Mississippi has few 
long-term detention facilities and most immigrants arrested here are 
sent to Louisiana and housed long-term there in for-profit prisons if 
not granted bond or parole. DHS is building new detention facilities in 
Louisiana as I write this, and is set to have more than 15,000 
detainees there soon in private, for-profit prisons. Putting 
Mississippi immigrants in detention facilities in Louisiana makes it 
difficult, if not impossible, for immigrants to maintain relationships 
with family members and friends, and with Mississippi-based immigration 
attorneys who they may already know. Immigrants without legal 
representation in the immigration courts are likely not to prevail in 
their immigration cases. For me, it is usually a 24-hour+ trip to see 
one detained immigrant in Louisiana or to attend another immigrant's 
hearing at the United States Citizenship and Immigration Services 
(USCIS) or the Executive Office of Immigration Review Immigration 
Courts (EOIR). I am often forced to spend the night at an expensive 
hotel in New Orleans or Memphis in order to attend early morning 
hearings outside of Mississippi. But more seriously, I have recently 
had to stop representing detained immigrants altogether due to the 
distances I have to drive to reach them and the high costs of lodging 
when I get there. The MIRA is a 501(c)(3) nonprofit organization and we 
just do not have the financial resources or time to travel to remote 
detention facilities and EOIR courtrooms in Louisiana and Tennessee on 
a regular basis. Therefore, we have chosen to focus and work mostly on 
affirmative administrative immigration cases.
    There is a need to open full-service USCIS adjudication offices in 
Mississippi, to make immigration courts independent, and to put 
immigration courts in this State. For years, the Nation's immigration 
courts have been plagued by systemic problems that have severely 
undermined their ability to deliver just and fair decisions in a timely 
manner. Housed within the DOJ, the immigration court system is 
vulnerable to Executive branch interference--a structural flaw which 
the current administration has exploited and which undermines the very 
integrity of the system. Under-resourced for years and now burdened by 
inefficient policies, the court system is struggling to manage a 
growing backlog of over 1 million cases. To ensure the immigration 
courts can operate with the integrity needed to ensure a fair process, 
Congress must create an independent immigration court system under 
Article I of the Constitution that is separate from DOJ. In addition, 
DOJ and EOIR, which administers the immigration courts, should rescind 
policies such as case completion quotas that are now part of judges' 
performance reviews, that have stripped judges of judicial independence 
and made it more difficult for them to rule on cases in a fair, 
consistent, and efficient manner. DHS is hurting the American economy 
businesses and families by failing to operate an efficient USCIS and 
court system.
    Since 1998, when I moved to Mississippi, there has never been a 
USCIS adjudication office in the entire State, with the exception of a 
short period of time following Hurricane Katrina in 2005 when a few 
USCIS officers were detailed here while their damaged offices were 
being re-built in New Orleans. USCIS's constant refrain for lack of a 
full-service office in Mississippi is that it is not economically 
feasible to put an office here. Every year I used to ask the USCIS 
district director, based in New Orleans, to put a full service USCIS 
office here. Her answer was always no. Likewise, the U.S. Department of 
Justice (DOJ) Executive Office of Immigration Review (EOIR) that runs 
the Immigration Courts and that works in tandem with DHS (USCIS and 
ICE/HSI) has also refused to open an immigration court in Mississippi. 
USCIS and EOIR cause immigrants, their families, and their lawyers to 
often drive 3 to 5 hours one-way to get to a USCIS office or 
Immigration Court in Louisiana or Memphis. In the alternative, the DHS 
has chosen to fund almost full-service ICE and HSI offices in the 
State, making it convenient to arrest, detain, and deport immigrants in 
Mississippi but not help immigrants receive the benefits to which they 
are entitled or a fair day in court.
    I am asking the Members of the House Homeland Security Committee to 
take into consideration my ideas, and those of AILA, and to use their 
oversight authority to implement some of the suggestions made above and 
to stop DHS from carrying out raids in our State that do nothing but 
inflict damage and pain for all involved.
    In review, Congress should work to do the following:
  <bullet> Outlaw worksite enforcement and other egregious raids in 
        Mississippi and the country;
  <bullet> Close all for-profit and other immigrant detention 
        facilities in the United States;
  <bullet> Bring a full-service USCIS adjudication office to 
        Mississippi;
  <bullet> Create an independent immigration court system under Article 
        I of the Constitution that is separate from DOJ and EOIR; and
  <bullet> Bring one or more of those independent immigration courts to 
        Mississippi.
    Thank you.
                                 ______
                                 
   Statement of Amelia S. McGowan, Senior Attorney, Jackson Office, 
                     Mississippi Center for Justice
                            November 7, 2019
                              introduction
    I am Amelia S. McGowan, a senior attorney with the Jackson office 
of the Mississippi Center for Justice and an adjunct professor of law 
at Mississippi College School of Law, where I direct the State's only 
law school immigration clinic. I thank Chairman Thompson and the 
Members of the House Homeland Security Committee for holding this 
hearing to investigate the impacts and aftermath of the August 7, 2019, 
ICE raids on Mississippi communities.
    The Mississippi Center for Justice (``MCJ'') is a nonpartisan, 
nonprofit civil rights legal organization that was founded in 2003 in 
Jackson, Mississippi. It was formed to provide a home-grown and home-
owned legal capacity to advance racial and economic justice in the 
State of Mississippi. In 2005, MCJ became the Deep South affiliate of 
the Lawyers' Committee for Civil Rights Under Law, a National civil 
rights legal organization formed in 1963 at the request of President 
John F. Kennedy to involve the private bar in providing legal services 
to address racial discrimination. MCJ's role in marshaling legal 
assistance and advocacy for unrepresented and invisible victims of 
Hurricane Katrina drew the attention of Congressional oversight 
committees on 6 occasions, including this committee in July 2009. In 
2018, MCJ expanded its work into immigration law, and has provided pro 
bono immigration representation, outreach, and advocacy on behalf of 
immigrants throughout our State since that time. MCJ is only one of a 
small handful of Mississippi non-profits providing immigration legal 
representation to Mississippi immigrants, and is the only one focusing 
on asylum and immigration appeals.
    I am a native Mississippian and have practiced immigration law for 
nearly 10 years. I also hold a Master's degree in Latin American 
Studies and am fluent in English and Spanish. During my career, I have 
focused my practice, teaching, and research primarily on asylum and 
immigration appeals--before the immigration courts, local asylum 
offices, the Board of Immigration Appeals, the Fifth, Ninth, and 
Eleventh Circuit Courts of Appeal, and the U.S. Supreme Court--and 
represent a number of asylum seekers in central Mississippi. 
Recognizing the tremendous access to justice gaps that exist for 
immigrants in our State, I have also worked over the past several years 
to train and recruit volunteer attorneys to represent Mississippi 
immigrants in removal proceedings.
              mcj's role in the august 2019 raids response
    Immediately after the August 7, 2019 raids, MCJ began coordinating 
a Nation-wide pro bono response to assess the immigration legal needs 
of the approximately 680 immigrants arrested that day.\1\ We prepared 
and disseminated an on-line legal volunteer survey, receiving over 500 
responses within days. At the same time, drawing from our disaster 
response work after Hurricane Katrina, as well as our existing ties 
with local immigrant communities and pro bono attorneys, we organized 
and staffed weekly legal clinics to assess legal needs in the affected 
communities. Through these clinics, MCJ staff and volunteer attorneys 
met with community members and conducted hundreds of intakes, both of 
individuals who had been arrested and released on August 7, as well as 
family members of individuals who had been transferred to criminal or 
immigration detention.
---------------------------------------------------------------------------
    \1\ Amelia S. McGowan, ``After terrifying ICE raid, Mississippi is 
still fighting back,'' USA Today, 3 Oct. 2019, available at https://
www.usatoday.com/story/opinion/policing/spotlight/2019/10/03/
terrifying-ice-raid-mississippi-still-fighting-back/3790692002/.
---------------------------------------------------------------------------
    For the hundreds of Mississippi immigrants transferred to 
immigration detention, primarily in Louisiana, MCJ worked with a team 
of area organizations and attorneys, including the Southern Poverty Law 
Center (SPLC), attorney Jeremy Jong, and Immigration Services and Legal 
Advocacy (ISLA), to visit raid victims in detention to conduct intakes 
and assess legal needs and bond eligibility. These attorneys and 
organizations worked tirelessly to provide screenings and consultations 
for raid victims spread throughout the area's many detention centers. 
At the same time, MCJ and these partners, named above, coordinated with 
the Catholic Legal Immigration Network (CLINIC), Lawyers for Good 
Government, Project Corazon, Pangea Legal, Centro Legal de la Raza, 
various law school immigration clinics, and other private attorneys and 
firms to provide pro bono bond representation to detained immigrants 
who were eligible for bonds but were unable to hire private counsel.
    Once our detention team was in place, MCJ began focusing on the 
cases of the approximately 300 immigrants who had been released on the 
day of the raids but still faced removal proceedings in Memphis or New 
Orleans, as well as possible criminal charges and civil fines. Our 
staff contacted each non-detained family/individual to assess continued 
immigration legal needs. At the same time, we contacted the attorneys 
on our volunteer list to assess availability/capacity to take cases and 
began matching community members with attorneys. Currently, MCJ has 
placed approximately 55 individuals with pro bono counsel.
                              observations
``Where was the judge he'd never seen? Where was the high court he had 
        never reached?''--Franz Kafka, The Trial.
    The largest State-wide raid in United States history did not occur 
in a vacuum. In addition to the raid's immediate effects described by 
my colleagues, hundreds of those arrested on August 7 also now face 
lengthy removal proceedings to determine their fate in this country. 
They now face the threat of a lifetime of separation from their 
families, homes, and communities, and removal to countries where they 
may be persecuted, tortured, or killed. And even though many impacted 
immigrants may have strong defenses to stay in the country, they now 
face a convoluted and adversarial legal process that is increasingly 
unjust and hostile toward them.
    Through my long-term immigration work with asylum seekers in 
central Mississippi, I know that the majority of the hundreds of 
individuals arrested on August 7 are indigenous Guatemalans and many 
have claims for protection under U.S. law. Many fled Guatemala during 
or shortly after the country's 36-year civil war, in which over 200,000 
Guatemalans were killed or disappeared.\2\ According to Guatemala's 
Commission for Historical Clarification, which investigated the 
thousands of human rights violations following the war, ``the violence 
was fundamentally directed by the State against the excluded, the poor 
and above all, the Mayan people, as well as those who fought for 
justice and greater social equality.''\3\ Of the 42,275 victims 
identified by Commission, 83 percent were Mayan.\4\ While the cease-
fire officially ended the war in 1996, the legacies of the violence 
remain, as indigenous Guatemalans continue to face widespread 
discrimination, forced evictions, severe poverty, and continued state-
backed violence.
---------------------------------------------------------------------------
    \2\ Commission for Historical Clarification--Guatemala, Guatemala: 
Memory of Silence, available at https://hrdag.org/wp-content/uploads/
2013/01/CEHreport-english.pdf, p. 17.
    \3\ Id.
    \4\ Id.
---------------------------------------------------------------------------
    These atrocities hit many raids-impacted individuals in profound 
and terrifying ways, forcing them to seek protection in the United 
States, and eventually to make a home in Mississippi. During one legal 
clinic in Canton, one community member recounted witnessing the 
Guatemalan military rounding up and shooting his family members in 
front of him when he was a small child. He reported experiencing 
flashbacks when ICE agents stormed his workplace. A young woman, whose 
grandparents had also been murdered by the Guatemalan military in the 
80's, had to flee her country last year when the government permitted a 
mining company to excavate in a predominantly indigenous community, 
forcibly displacing nearly all of the town's residents.
    While many community members may have strong claims to asylum (or 
the related protections of withholding of removal or protection under 
the Convention Against Torture) on that basis, recent attempts to erode 
these well-established safeguards and to criminalize the lawful act of 
seeking asylum severely undermine the rule of law in our country. For 
many, these protections, along with the due process rights guaranteed 
to all and that are fundamental to the rule of law in our country, are 
little more than an illusion and undermine the integrity of our entire 
legal system.
    For one, on the day of the raids, over 300 community members were 
detained and transferred to immigration detention facilities--many run 
by private prison companies known for egregious human rights 
violations--throughout the region.\5\ Detained immigrants are far from 
their families, friends, and communities, where they spend weeks or 
months as prisoners while attempting to navigate the labyrinthine 
removal process alone, far removed from legal access or support. The 
imprisonment of so many immigration detainees in rural, isolated areas 
is by design. Far from access to legal resources and proof that can 
support their cases, detained immigrants continue fighting for their 
lives in removal proceedings while detained in these isolated prisons. 
Many do so with severe physical or emotional trauma from the 
persecution or torture they fled.
---------------------------------------------------------------------------
    \5\ For a non-exhaustive list of reports (including several 
prepared by the U.S. Government) chronicling rights abuses in U.S. 
immigration detention centers, please see National Immigrant Justice 
Center, ``Recent Reports Documenting Abuse and Corruption in U.S. 
Immigration Jails, April 2019, available at https://
www.immigrantjustice.org/sites/default/files/uploaded-files/no-content-
type/2019-04/A-Better-Way-report_APPENDIX_detention-reporting-
bibliography_April2019.pdf.
---------------------------------------------------------------------------
    Moreover, all immigrants in removal proceedings, whether detained 
or not, will face considerable barriers in the proceedings themselves. 
If they want to apply for an immigration benefit, they must complete a 
detailed application, all in English, and translate all proof (which 
may include medical records and police reports) into English. The 
Government does not provide assistance with completing these forms, so 
applicants, who often have no financial resources, often do not speak 
English, and are often not familiar with the U.S. legal system, must 
rely on their friends or relatives or vie for assistance from 
overextended non-profits, many of whom still charge unreachable fees.
    If the individual successfully completes the application, they then 
face a daunting (and adversarial) hearing in Immigration Court, which 
is an administrative body under the Department of Justice. Although 
immigrants in removal proceedings have the right to counsel, an 
attorney will not be provided at the Government's expense, so 
applicants must either hire a private attorney or locate an attorney or 
non-profit who is willing to take on the case for free. Because non-
profits who handle asylum cases for free are rare, however, and 
certainly cannot meet the need, applicants are often forced to proceed 
alone. During these proceedings, which can span hours, applicants must 
explain in great detail the legal defense that would permit them to 
remain in the United States. This often requires that they recount 
their fears of returning to their home countries, reliving the trauma 
that they fled, and be knowledgeable in the intricacies and 
idiosyncrasies of U.S. immigration law. Given the shortage of 
immigration judges and the rural nature of immigration detention 
centers, if the person is detained, these hearings are frequently 
conducted by video, with the judge appearing from a court hundreds of 
miles away and often with a poor video connection.\6\ To make matters 
worse, with increasing pressure on Immigration Judges to meet 
Government-established ``case-completion'' quotas, asylum hearings in 
immigration court become, as one Immigration Judge described it, 
``death penalty cases in a traffic court setting.''\7\
---------------------------------------------------------------------------
    \6\ Stephen Franklin, Miriam Annenberg, and Ankur Singh, ``Video 
hearings in immigration court are harming immigrants' cases,'' Pacific 
Standard, 2 Jul. 2019, available at https://psmag.com/social-justice/
video-hearings-in-immigration-court-are-harming-immigrants-cases.
    \7\ Maria Sacchetti, ``Immigration judges say proposed quotas from 
Justice Dept. threaten judicial independence,'' Washington Post, 12 
October 2017, available at https://www.washingtonpost.com/local/
immigration/immigration-judges-say-proposed-quotas-from-justice-dept-
threaten-independence/2017/10/12/3ed86992-aee1-11e7-be94-
fabb0f1e9ffb_story.html; Immigration Judge Dana Leigh Marks, ``How a 
`dire' immigration court backlog affects lives,'' PBSNewshour, 18 Sept. 
2017, available at https://www.pbs.org/newshour/show/dire-immigration-
court-backlog-affects_lives.
---------------------------------------------------------------------------
    Even for those with the strongest claims and who have counsel, 
their chances for success may be non-existent from the beginning. 
According to data from Syracuse University's Transactional Records 
Access Clearinghouse (TRAC), some area Immigration Judges boast a 98-
100 percent denial rate.\8\ These rates would be unheard of in other 
areas of law. This is in large part because immigration courts lack 
meaningful independent review: Both the immigration courts and the 
first level of appellate review, the Board of Immigration Appeals, are 
under the control and influence of the Department of Justice, often 
rubber-stamping the Attorney General's own agenda. Applicants do not 
obtain independent judicial review--to the Federal circuit courts--
until their second appeal, which is out of reach of many immigrants, 
given the scarcity of attorneys who handle these cases for free and the 
length of time they take. Therefore, even Immigration Court and Board 
of Immigration Appeals decisions that blatantly violate the law often 
go completely unchecked. For this reason, MCJ has prioritized 
immigration appellate representation.
---------------------------------------------------------------------------
    \8\ Transactional Records Access Clearinghouse (TRAC)--Syracuse 
University, ``Immigration Judge Reports--Asylum,'' TRAC Immigration, 
available at https://trac.syr.edu/immigration/reports/judgereports/.
---------------------------------------------------------------------------
    This is the legal reality facing the hundreds of Mississippi 
immigrants arrested on August 7. Given these barriers, countless 
community members, who may otherwise have strong claims may fall 
through the cracks and be forced to return to persecution, torture, and 
even death.
                            recommendations
    In light of the foregoing observations, the Mississippi Center for 
Justice respectfully urges you to take the following steps:
    (1) We respectfully urge you to defund and eliminate the civil 
immigration detention system (which includes the Adams County 
Correctional Center and the Tallahatchie County Correctional Facility) 
that has separated hundreds of Mississippi families and communities;
    (2) We respectfully urge you to monitor and hold accountable the 
Immigration Courts and the Board of Immigration Appeals, to ensure they 
are complying with constitutional due process guarantees, as well as 
protections established by statute and treaty obligations;
    (3) We respectfully urge you to establish an immigration court 
system that is independent of the Department of Justice;
    (4) We respectfully urge you to forego the removal of any 
individuals who have not had the opportunity to consult with an 
attorney and/or exhaust all potential legal claims relevant to the raid 
and their employer, as well as any immigration benefits for which they 
may qualify.
                                 ______
                                 
       Statement of the Center for Law and Social Policy (CLASP)
                       Thursday, November 7, 2019
    Chairman Thompson, Ranking Member Rogers, and Members of the U.S. 
House Committee on Homeland Security, we thank you for the opportunity 
to submit this statement for the record for the November 7 public field 
hearing on Immigration and Customs Enforcement (ICE) workplace raids.
    The Center for Law and Social Policy (CLASP) is a National, 
nonpartisan, anti-poverty organization advancing Federal, State, and 
local policy solutions that work for people with low incomes. We 
conduct research on the impact of immigration enforcement policies on 
children and families and advocate for policies that mitigate the harm 
to children impacted by enforcement actions. As experts on child 
development and immigration policy, we are gravely concerned with the 
long-term harm that the August Mississippi worksite raids have 
inflicted on hundreds of children, many of whom are U.S. citizens, as 
well as the broader community.
    On August 7, 2019, ICE arrested 680 hardworking people in a series 
of worksite raids in small communities in central Mississippi. In a 
matter of hours, parents, friends, neighbors, and other integral 
community members were ambushed at their place of work, arrested, and 
separated from their loved ones. The raids--which targeted chicken-
processing plants whose parent companies have been the subject of 
several Federal investigations in the last decade--represent the 
largest single-State enforcement action in nearly 10 years.\1\
---------------------------------------------------------------------------
    \1\ Denham, Hannah. ``What We Know about the 5 Companies Targeted 
in the ICE Raids in Mississippi.'' The Washington Post, August 2019, 
www.washingtonpost.com/business/2019/08/08/what-we-know-about-five-
companies-targeted-mississippi-ice-raids/.
---------------------------------------------------------------------------
    The immediate impact to children was obvious: Terrified children 
got off school busses in the afternoon to empty houses. Babies and 
toddlers were stranded at child care without parents to pick them up. 
Teachers, child care providers, and volunteers scrambled to devise 
emergency plans for children with nowhere else to go. Churches, food 
banks, and immigrant-rights organizations were forced into crisis mode 
to meet families' immediate needs and locate loved ones who were 
detained by ICE.
    We urge the committee to consider the critical testimonies of those 
who are living with the consequences of these massive workplace raids 
and act to ensure that these types of operations cease, and that the 
well-being of children be held paramount in all immigration enforcement 
actions. We also call on Congress to urge the Department of Homeland 
Security to release all those still detained so that they may pursue 
their options for immigration relief near their legal representatives 
and families. It is clear children, families, and Mississippi 
communities will be grappling with the aftermath for years to come.
 large-scale immigration enforcement actions are harmful to children's 
                         health and well-being
    A large and growing body of research details how large-scale 
worksite raids affect children. In the immediate aftermath, there is 
intense fear, worry, and confusion as families' lives are thrown into 
chaos. This increased instability is an added stressor for children who 
just had their worst nightmare come true. Children may have trouble 
eating and sleeping or become anxious, withdrawn, clingy, or angry. 
Previous research shows that the longer children remain separated from 
their parents, the more their mental and physical health suffers.\2\
---------------------------------------------------------------------------
    \2\ Chaudry, Ajay, et al. Facing Our Future: Children in the 
Aftermath of Immigration Enforcement. Urban Institute, 2010, 
www.urban.org/research/publication/facing-our-future; Capps, et al. 
Paying the Price: The Impact of Immigration Raids on America's 
Children. The Urban Institute, 2007, webarchive.urban.org/publications/
411566.html; ``Digital Commons at Michigan State University College of 
Law.'' digitalcommons.law.msu.edu/facpubs/index.3.html.
---------------------------------------------------------------------------
    More than half of those arrested during these raids remain in 
detention, and several have been deported, including parents of U.S. 
citizen children.\3\ Children who are separated from a parent as a 
result of deportation face irrefutable harm, whether they remain in the 
United States without a parent or are forced to leave the only home 
they know to relocate abroad with a deported family member. It's 
important to note that the majority of the families impacted come from 
indigenous communities in Guatemala, which raises concerns about the 
extent to which families are able to access the assistance they need to 
prepare to have their children accompany them to Guatemala. 
Furthermore, research shows that there are significant challenges to 
ensuring that children are able to enroll in school or health care once 
in Guatemala.\4\
---------------------------------------------------------------------------
    \3\ Bethea, Charles. ``After ICE Came to Morton, Mississippi.'' The 
New Yorker, The New Yorker, 31 Oct. 2019, www.newyorker.com/news/
dispatch/after-ice-came-to-morton-mississippi.
    \4\ Children in Harm's Way: Criminal Justice, Immigration 
Enforcement, and Child Welfare. First Focus and The Sentencing Project, 
2013, https://firstfocus.org/wp-content/uploads/2013/02/Children-in-
Harms-Way.pdf.
---------------------------------------------------------------------------
    As the months stretch on, hardworking Mississippi families will 
likely tumble into poverty. Immigration enforcement often removes a 
primary breadwinner, slashing families' incomes by half or more.\5\ 
Parents left behind generally struggle to make ends meet and need on-
going support to put food on the table and keep a roof over their 
heads--particularly those who are ensnared in on-going deportation 
proceedings.\6\ Some teenage children are forced to drop out of school 
and begin working full-time or take on additional caregiving 
responsibilities for younger siblings in order to keep their families 
afloat. Already, it has been reported that families impacted by the 
Mississippi raids are facing housing and food challenges.\7\
---------------------------------------------------------------------------
    \5\ See for example: Chaudry, Ajay, et al. Facing Our Future, The 
Urban Institute, 2017, www.urban.org/research/publication/facing-our-
future; Capps, Randy, et al. ``Deferred Action for Unauthorized 
Immigrant Parents: Analysis of DAPA's Potential Effects on Families and 
Children.'' Migration Policy Institute, 2017, www.migrationpolicy.org/
research/deferred-action-unauthorized-immigrant-parents-analysis-dapas-
potential-effects-families; Warren, et al. Mass Deportations Would 
Impoverish US Families and Create Immense Social Costs. Center for 
Migration Studies, 2017, cmsny.org/publications/mass-deportations-
impoverish-us-families-create-immense-costs/.
    \6\ Fields, Samantha. ``What Are the Economic Impacts of ICE 
Raids?'' Marketplace, 2019, www.marketplace.org/2019/08/22/the-
economic-consequences-of-ice-raids-are-far-reaching/.
    \7\ Bethea, Charles. ``After ICE Came to Morton, Mississippi.'' The 
New Yorker, October 31, 2019, www.newyorker.com/news/dispatch/after-
ice-came-to-morton-mississippi.
---------------------------------------------------------------------------
   large-scale immigration enforcement actions put a strain on local 
                    providers and community members
    Large-scale worksite raids also further put further pressure on 
already overwhelmed and under-resourced educational and social service 
providers. On the day of a raid, it is often teachers and child care 
providers comforting terrified children and making care arrangements 
for those whose parents are unable to pick them up.\8\ Educators also 
bear the added responsibility of addressing children's increased need 
for mental health resources and other supports over time. Similarly, 
community resources like food banks and emergency financial assistance 
may struggle to meet families' on-going needs in the long term.
---------------------------------------------------------------------------
    \8\ Lopez, William, et al. ``Educators: The Unsung Heroes 
Supporting Immigrant Families in Wake of ICE Raids.'' The Hill, August 
13 2019, https://thehill.com/opinion/immigration/457146-educators-are-
the-unsung-heroes-supporting-immigrant-families-in-the-wake.
---------------------------------------------------------------------------
    Many students impacted by the Mississippi raids have missed 
numerous school days, which creates consequences for the students, 
schools, as well as other children in the classroom. In our 2017 
research on the impact of immigration enforcement on young children, we 
heard from early childhood providers and educators that children are 
picking up on the stress of their classmates, regardless of whether 
their parents are immigrants.\9\ Our research also found that 
immigration enforcement is creating significant strain on providers who 
are grappling to connect parents and students to information and 
resources while also trying to meet the demands of all the children 
they serve.
---------------------------------------------------------------------------
    \9\ Cervantes, et al. Our Children's Fear: Immigration Policy's 
Effects on Young Children. Center for Law and Social Policy, 2018, 
www.clasp.org/publications/report/brief/our-childrens-fear-immigration-
policys-effects-young-children.
---------------------------------------------------------------------------
   at a minimum, ice must follow its own humanitarian guidelines for 
                      worksite enforcement actions
    The Government-imposed disaster on Mississippi communities earlier 
this year was worsened by the fact that ICE did not appear to fully 
implement its own guidelines to identify humanitarian concerns among 
immigrants who are arrested during worksite enforcement operations.\10\ 
These ``humanitarian guidelines'' were created in 2007 under the Bush 
administration specifically to mitigate the harm of worksite raids on 
children and communities.
---------------------------------------------------------------------------
    \10\ ``Guidelines for Identifying Humanitarian Concerns Among 
Administrative Arrestees When Conducting Worksite Enforcement 
Operations.'' National Immigration Law Center, https://www.nilc.org/wp-
content/uploads/2015/11/ice-hum-guidelines.pdf.
---------------------------------------------------------------------------
    The guidelines clearly state that during worksite enforcement 
actions involving 25 workers or more, ICE agents are expected to 
identify and consider for release certain vulnerable populations in a 
timely manner. Individuals who should be considered for release include 
people who are sole caregivers of children; have serious medical 
conditions; are pregnant or nursing; or are caretakers of disabled or 
seriously ill relatives. ICE is also expected to coordinate with State 
or local social service agencies to help identify people who qualify 
for humanitarian release. At minimum, ICE is supposed to notify the 
heads of State social service agencies that a worksite action is 
imminent so that they be prepared to respond and ensure that children 
are safe. These precautions acknowledge that is irresponsible and 
reckless to carry out such massive operations without taking every 
possible step to ensure that children are not unnecessarily separated 
from their parents and social service agencies are not carrying the 
burden of response alone.
    While immigration officials claim that parents were among the first 
to be released, many were not released until the day after the raid 
took place.\11\ And it is clear that ICE did not take any precautions 
to ensure that children were not left alone without a caregiver. 
Reports from school leadership and child welfare officials in 
Mississippi suggest that they were completely blindsided by the August 
raids, which took place on the first day of school in many 
communities.\12\ News reports showed children stranded overnight at a 
local gym, sleeping on the floor, and crying for their parents.\13\ 
Others were reportedly going door-to-door looking for their parents 
when they got off the school bus to an empty house. Several days after 
the raids, State Child Protective Services were still receiving reports 
that children had not been reunited with their parents.\14\
---------------------------------------------------------------------------
    \11\ Campbell, Larrison. ``In Record-Breaking Workplace Raid, 
Immigration Officials Claim Parents Released First.'' Mississippi 
Today, August 12, 2019, https://mississippitoday.org/2019/08/08/in-
record-breaking-workplace-raid-immigration-officials-claim-parents-
released-first/.
    \12\ Pittman, Ashton, ``As ICE Raided, Children Cried and Educators 
Scrambled,'' Jackson Free Press, 21 Aug. 2019, https://
www.jacksonfreepress.com/news/2019/aug/21/ice-raided-children-cried-
and-educators-scrambled/.
    \13\ Helmore, Edward, `` `They Cry for Their Parents': Mississippi 
ICE Raids Spur Pleas from Children,'' The Guardian, August 8 2019, 
https://www.theguardian.com/us-news/2019/aug/08/mississippi-ice-raids-
children-video; Fowler, Sarah, ``Where are Mom and Dad? School on 
Standby to Help Children in Aftermath of ICE Raids,'' Clarion Ledger, 
August 7 2019, https://www.clarionledger.com/story/news/2019/08/07/
what-happens-children-people-detained-ms-ice-raids-immigration/
1947642001/.
    \14\ Zhu, Alissa, ``Mississippi Child Services: Some Children Still 
Not Reunited with Parents After ICE Raid,'' Clarion Ledger, August 12 
2019, https://www.clarionledger.com/story/news/2019/08/12/mississippi-
ice-raid-agency-says-some-children-still-without-parents-immigration/
1987877001/.
---------------------------------------------------------------------------
    If the raid was indeed being planned for more than a year--as ICE 
officials claim--there is simply no excuse not to put these safeguards 
in place. CLASP demands an end to family separation in all its forms 
and condemns the administration's relentless attacks on immigrants and 
people of color, which are imposing immeasurable trauma on a generation 
of children. At minimum, ICE must be held accountable to enforcing the 
safeguards it has in place.
     congress must take action to ensure ice mitigates the harm of 
                  immigration enforcement on children
    The significant impact of the Mississippi raids demonstrates the 
critical need for Congress to expand protections for children, 
families, and communities impacted by enforcement actions. We urge 
Congress to pass the Humane Enforcement and Legal Protections (HELP) 
for Separated Children Act (H.R. 3451), Coordinating Care for Children 
Act (S. 2256), and Help Separated Families Act (H.R. 3452). These bills 
are aimed at mitigating the harm to children impacted by interior 
immigration enforcement. The first 2 are focused on ICE practice, 
including allowing parents to make decisions about their children's 
care after apprehension and before deportation, including protections 
to ensure that ICE does not interrogate children present during an 
enforcement action or force them to translate and requires sensitivity 
training for all agents. The latter bill is focused on ensuring that 
the child welfare system has protocols in place to ensure children are 
able to reunify with detained or deported parents.
    We also encourage Congress to pass the Protecting Sensitive 
Locations Act (S. 2097/H.R. 1011), a bill which would codify, expand, 
and strengthen existing policy that restricts ICE agents from carrying 
out enforcement actions in places deemed ``sensitive,'' such as 
schools, hospitals, and places of worship. The bill would expand the 
policy to include other locations such as courthouses, public 
libraries, and food banks; restrict ICE from carrying out enforcement 
actions within 1,000 feet of a sensitive location; and add more 
accountability measures.
    Finally, it's important to recognize that the significant increase 
in resources to ICE in recent years (including to Homeland Security 
Investigations, the agency which carried out the Mississippi raids) 
coupled with reduced discretion to consider whether individuals 
detained are parents to children or have long-term community ties has 
had serious, often long-term consequences. Thus, we also urge Congress 
to cut funding to ICE for enforcement actions and ensure any funding 
includes specific guardrails to hold ICE accountable and minimize the 
harm to communities.
    We thank you again for the opportunity to submit this written 
statement for the record. Should you have any questions regarding this 
statement, please do not hesitate to reach Wendy Cervantes, Director of 
Immigration and Immigrant Families[.]
                                 ______
                                 
 Statement of Community Change Action and the Fair Immigration Reform 
                         Movement (FIRM) Action
                            November 7, 2019
    The Fair Immigration Reform Movement (FIRM) Action and Community 
Change Action write to support and commend the House Homeland Security 
Committee for holding the field hearing, Immigration Raids: Impacts and 
Aftermath on Mississippi Communities in Tougaloo, Mississippi on 
November 7, 2019.
    Community Change Action is a national organization whose mission is 
to build the power and capacity of low-income people, especially low-
income people of color, to change their communities and public policies 
for the better. FIRM Action, a project of Community Change Action, is 
the largest national immigrant grassroots coalition, led by 44 member 
organizations across 32 States.
    On Wednesday, August 7, 2019 a series of worksite enforcement raids 
at chicken processing plants took place across Mississippi. The raids, 
led by Immigration and Customs Enforcement (ICE), resulted in the 
arrest of nearly 700 individuals and caused chaos and unnecessary 
family separations, harming children, their families, and communities. 
Following the raids, stories of violations of workers' rights, abusive 
ICE agents, and the lack of due process emerged. As families were left 
to grapple with missing parents, friends, neighbors, and relatives 
began to take in the children of detained workers. The communities in 
the different Mississippi towns where the worksite raids were conducted 
had to rally together and support each other in the aftermath of nearly 
700 people being detained during the raids.
    Community Change Action sent staff to Mississippi in the aftermath 
of the raids to help with rapid response. This work included community 
information sessions; intakes and directing families to legal 
resources; and organizing in communities to make sense of the 
devastation that was taking place, what to expect in the weeks and 
months to come, and how to prepare and respond to the specific needs of 
different towns and communities. The rapid response work with community 
members posed some difficult challenges. First, many of the individuals 
affected by the raids spoke indigenous Guatemalan languages creating 
barriers for service providers. Additionally, the raids spread across a 
large region of the State, slowing down the rapid response efforts 
because of the long distances required to travel in between the 
impacted communities.
    We are encouraged that the House Homeland Security Committee is 
holding a field hearing in Mississippi to hear first-hand about the 
worksite raids on August 7, the devastating impact on families, and the 
challenges they continue to face. Given the challenging political 
moment, it is critical that this committee question the motives and 
actions of the Department of Homeland Security (DHS) and specifically 
ICE and ICE Homeland Security Investigations (HSI). The committee must 
also hold these agencies accountable for their conduct in carrying out 
the raid and detaining hundreds of individuals--some who remain 
detained to this day. In line with holding these agencies accountable, 
we also ask Members of this committee to re-evaluate the funding being 
allocated to these enforcement agencies and DHS as a whole. We remain 
convinced that it is dangerous and irresponsible to provide further 
funding to agencies like ICE and CBP to carry out these harmful 
enforcement actions that tear communities apart.
    The FIRM Network is committed to reimagining our immigration system 
through our Roadmap to Unity and Freedom, a vision for our country 
grounded in the belief that our families should be united and free. As 
part of this vision, we imagine an immigration system that protects 
immigrant workers and allows them to work safely in this country while 
pursuing a pathway to citizenship. All with the peace of mind that they 
will not be separated from their families. The painful threat of 
detention, deportation, and family separation has only become more and 
more real under this current administration. The havoc wreaked on 
nearly 700 workers and their families only demonstrates the urgency to 
create a stable and permanent path to citizenship for all undocumented 
immigrants living in the United States. Additionally, these solutions 
cannot be at the expense of others in our communities or further 
criminalize migration.
    We hope to see a continued focus on holding DHS accountable for its 
actions in Mississippi and throughout the country, and we encourage the 
committee to demand answers to the questions that arise about DHS's 
conduct on August 7 and conduct in detention centers in the weeks that 
followed.
    Worksite enforcement raids are just one of the many enforcement 
actions that send chills through immigrant communities and result in 
separated families. These raids must end and workers and their families 
must be protected. FIRM Action and Community Change Action will 
continue to push for permanent policy protections for all individuals, 
anchored in keeping communities and families together. This is a 
necessary first step to providing families with the reassurance that 
they can be together and free in this country.
                                 ______
                                 
 Statement of Evelyn A. Servin, Previous Mississippi Community Hotline 
   Coordinator, Membership and Communications Coordinator, Southeast 
                        Immigrant Rights Network
                            November 7, 2019
    Chairman Thompson, Ranking Member Rogers, and Members of the House 
Homeland Security Committee, the Southeast Immigrant Rights Network 
respectfully requests this statement included in the record for the 
House Committee on Homeland Security Field hearing: ``Immigration 
Raids: Impacts and Aftermath on Mississippi Communities in Tougaloo, 
Mississippi.
    I am Evelyn A. Servin and live in Russellville, Alabama. I am 
currently employed by the Southeast Immigrant Rights Network (SEIRN) as 
the membership and communications coordinator. SEIRN is comprised of 32 
immigrant-led grassroots groups as well as local, State, and regional 
organizations working together to lift up the voices and leadership of 
immigrant communities in the Southeast. SEIRN creates and holds spaces 
for immigrant leaders, organizers, and allies to come together, build 
relationships and strengthen collaborations to defend immigrant 
communities against policies that criminalize them, separate them from 
their loved ones, and seek to deprive them of their dignity and their 
humanity. We are a movement pollinator that centers directly-impacted 
grassroots leaders and their families, uplifts their stories and 
leadership, offers tools to build their resilience, and helps them 
connect to a broader movement for collective liberation.
    On August 7, 2019, SEIRN, along with the rest of the country, 
watched in disbelief as horrifying news unfolded across social media: 
several poultry processing plants in central Mississippi were being 
surrounded by more than 600 ICE agents, helicopters were flying 
overhead, all exits to the properties were closed off, and hundreds of 
community members were being detained by ICE. SEIRN's co-directors, 
Nayely Perez-Huerta and Monica Hernandez, immediately mobilized the 
network's resources in order to bring organizing support to 
Mississippians. SEIRN coordinated a regional organizing effort and 
brought 77 Southeast organizers into Mississippi to assist the 
communities that were shaken to their cores by these raids. In 
collaboration with other non-profit organizations, community 
organizers, and volunteers from Mississippi, SEIRN helped organize a 
rapid response relief effort to address the humanitarian crisis that 
resulted from the raids. This included helping families locate their 
loved ones in detention, assessing their humanitarian needs, 
coordinating legal intake clinics, and launching a rapid response 
Community Hotline.
    Wednesday, August 7 was the first day of the new school year and 
hundreds of children and youth left their homes full of excitement, 
joy, and promise. That same morning, many of their parents were 
detained at their workplaces, violently torn apart from their children, 
spouses, and communities. And that afternoon many of those children and 
youth returned home to an empty house, full of fear, sadness, and 
despair. Children could not comprehend the magnitude of this raid and 
why their parents were not home to welcome them on their first day of 
school. Little girls and little boys looked for their parents and found 
none; they called for their parents and when no response came from 
their ``mami'' and ``papi'' cried themselves to sleep in deep sorrow.
    On Thursday, August 8, approximately 300 workers were released from 
detention at dawn. Cries of happiness for some and tears of sorrow for 
others, whose loved ones were still detained, could be heard loud and 
clear. The desperation amongst the community never ceased to exist. No 
one knew who to contact to get information about their family members 
who had not come home. Fathers, mothers, brothers, sisters, sons, 
daughters, friends were missing from Forest, Canton, Carthage, Laurel, 
and Morton, Mississippi. Who do you call when the Government sanctions 
the kidnapping of your family and community members? You call people 
that see how wrong and harmful these raids are. People from all across 
this country, coast-to-coast, wanted to help these families and offer 
assistance to these children torn apart from their parents by our 
violent system.
    In order to connect the families with the necessary support and 
information, SEIRN launched a rapid response Community Hotline to 
connect families with the appropriate resources. The hotline was 
staffed by volunteer organizers from all over the Southeast: Georgia, 
North Carolina, Virginia, Tennessee, Alabama, and Mississippi. Its 
operational hours for the first month were 24 hours a day and 7 days a 
week. Currently, the hours have been reduced to 8 hours a day from 
Monday-Friday and 4 hours a day on Saturday and Sunday. The hotline 
opened its lines to receive calls early Thursday morning on August 8. 
Due to technical difficulties, dozens of calls were missed. However, 
the call log was pulled, and the numbers were retrieved. Over the next 
2 days, 132 calls were returned. In addition, we received about 20 
calls each day. After the first round of weekly legal clinics assessing 
legal needs in the different towns slowed down, the community lines 
steadily increased to an average of 30 calls per day. Since August 8, 
we have received over 3,548 calls and have talked to families for 
14,209 minutes.
    From August 10 until October 27, I took over the role of 
coordinator for the Community Hotline. At times, the hotline team 
consisted of less than 3 or 4 people. All of us were stretched very 
thin as we covered the hotline's hours and met the financial and 
emotional needs of these impacted communities. We faced great 
challenges finding volunteers with proficient enough Spanish to take 
calls. Moreover, the primary language of most of the detained workers 
and their family members is not Spanish; they are from rural towns in 
Guatemala where Mayan indigenous languages, such as Chuj, K'iche', and 
Mam, are spoken.
    We have callers seeking different and multiple types of assistance. 
Many families are lost in limbo not knowing which type of legal 
assistance they need; family members seek legal help for those still in 
detention, for those who have been released, for criminal prosecution 
charges--or a combination of all 3. Callers also request rent 
assistance, financial assistance, utilities assistance, food 
assistance, commissary deposits, bond assistance, criminal summons, 
humanitarian grievances, and to ask numerous questions as they try to 
get a better grasp of what awaits them. We have many families still 
looking for their loved ones. As ICE constantly transfers individuals 
from detention facility to detention facility and delays updating their 
data systems, loved ones remain lost in the detention and the 
incarceration system.
    I would like to share with the committee some examples of the calls 
the hotline operators receive daily since August 8. These are the 
stories we hear multiple times a day, every day, several times a week . 
. . they are real accounts of affected Mississippian families, and they 
exist because our Government allows ICE to terrorize families all 
across the Nation. Brokenhearted, we listen to callers who are 
desperate and confused. Reading these stories does not even begin to 
convey the fear and sadness these Mississippian families still feel.
    We have had troubled mothers calling from Guatemala several times a 
week, spending their last quetzal to try to make an international call 
to reach us and beg us to find their children. An 80-year-old 
grandfather tirelessly begged us to locate his youngest grandson and 
connect him via phone because he knew he was going to pass away without 
seeing or speaking to him one last time. One father called and asked 
for legal help for his son; he shared that he had lost the opportunity 
to teach him how to drive because he is very young, still a boy to him.
    Another caller told the operator that he, a roommate in their small 
shared house, was taking care of 3 kids because their mother was 
detained. The kids were used to him and would cry every time somebody 
mentioned taking the kids elsewhere. A husband called asking for legal 
assistance for his wife as his baby girl of 8 months kept crying every 
day seeking her mother's touch and everyone needed her back home. One 
brother called every other evening for 3 consecutive weeks looking for 
his lost brother. Without a rest, we searched the on-line ICE locator 
system, called every detention center, and his younger brother could 
not be found.
    This past week, current operators shared that callers are now 
screaming at them in despair because they cannot find an answer to 
their legal situation. One pregnant lady screamed at an operator 
because she needed food and housing assistance, and she did not have a 
means to transport herself to one of the local churches offering help. 
A wife called and asked for commissary assistance right away. Because 
it may take up to 10 days to receive a commissary deposit in certain 
detention centers such as Richwood, she yelled at the operator begging 
her to deposit the money immediately. At the end of the call, she asked 
the operator to delete any information the operator had collected and 
that if she needed our help she would call again tomorrow after 
attempting to help her husband herself.
    A very frustrated brother called and was very upset about not 
getting information about court dates or when his brother is going to 
be released. A new mother was extremely upset because her husband's 
bond was rejected. She had reached her limit and had a breakdown. She 
yelled about how unfair everything was and how much she and the baby 
needed him. She had her baby alone and her husband has never seen their 
new child. We cried together . . . that's all that could be done.
    My small team of dedicated operators already know the voices of the 
family members calling. That's Jose, Eulalia's brother. Oh, it's 
Emilia, the wife of Marcos. We have learned their stories and shared in 
their grief and been witness to their resilience. We share all the 
resources available but wish we could give more. Humanitarian and 
financial assistance from non-profits and religious organizations has 
dwindled down and resources are becoming scarce. Frustration and angst 
levels continue to climb, as well as fear, as time passes and there 
seems to be no clear ending to their situation.
    These situations and stories are all part of the increased 
persecution of immigrant families to meet quotas, to meet numbers, to 
make private prisons more profitable. Immigrant detainees are 
imprisoned in rural, isolated areas as a strategy to deter access to 
legal and community resources. The Mississippi raid was a big show of 
force by the current administration, a gaudy misuse of Government 
resources causing real harm and real consequences to thousands of 
Mississippians. And now, these families are losing hope each day and 
are breaking down silently in the background.
    After all the suffering we have heard and seen, we cannot continue 
to allow ourselves to be desensitized. The Southeast Immigrant Rights 
Network respectfully urges the following action steps and suggestions 
to be taken:
    (1) We urge you to exercise prosecutorial discretion and 
        immediately release those individuals who are still detained, 
        so that they may pursue their options for immigration relief 
        near their legal representatives, families, and local 
        resources;
    (2) We urge you to provide individuals with meaningful access to 
        the courts and legal counsel, including timely and confidential 
        meetings with legal representatives and regular access to a 
        legal library with updated legal materials;
    (3) We urge you to forego the removal of any individual who have 
        not had the opportunity to consult with an attorney and/or 
        exhaust all potential legal claims relevant to the raid and 
        their employer, as well as any immigration benefits for which 
        they may qualify;
    (4) We urge you to hold ICE accountable for the unnecessary harm 
        worksite raids have caused. We ask Congress to exercise 
        prosecutorial discretion, by granting relief such as parole, 
        continued presence, or deferred action, to those individuals 
        whose rights were violated during their arrests, pursuant to 
        the 2011 ICE Victim's Memo;
    (5) We urge you to obtain information about how and why specific 
        worksites were targeted, how the raids were conducted, and what 
        steps ICE is taking to ensure that exploited workers can 
        cooperate with investigations into unlawful labor practices and 
        receive back pay or money due to them;
    (6) We urge Members of Congress to continue to call for cuts to 
        funding for ICE and CBP, including reducing funding for the 
        operations of Homeland Security Investigations. Reaching record 
        levels under this administration, ICE expanded its enforcement 
        and detention operations and funded more raids operations;
    (7) We urge Members of Congress to cosponsor the Dignity for 
        Detained Immigrants Act and the forthcoming New Way Forward 
        bill--both of which would address mandatory detention laws that 
        keep people locked up without due process, many of whom are 
        picked up in enforcement operations like the Mississippi raid;
    (8) We urge Members of Congress to enact legislation that increases 
        work permits and protections for immigrant workers and includes 
        a pathway to citizenship for immigrant workers and their 
        families.
                                 ______
                                 
            Letters Submitted by Chairman Bennie G. Thompson
                                  November 3, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman Thompson: I am a father and I want to share my 
experience. I was arrested in the raids in August in Mississippi. It is 
my first time and it is very difficult for me because my family and I 
are suffering so much. When I was arrested, I left my wife who is 
pregnant and my 3 year old alone. When I speak with my son over the 
phone, he starts to cry and asks me to come back home and it breaks my 
heart. I had never been arrested and the worst is that while being in 
ICE's hands, I have been physically and morally injured by an ICE 
officer. Here we are treated like animals. They feed us at 2am for 
breakfast, at 9am for lunch and at 2pm for dinner. We get fed very 
little food, its raw or sometimes half cooked. If someone gets sick, 
the medical attention is the worst. A couple weeks ago I was injured by 
an ICE agent, and I asked to see the doctor because he actually choked 
me by the neck with both hands. The pain in my neck and in my head 
lasted days and while I made a couple of requests, I was never given an 
appointment.
    My wife just gave birth to our baby, our second boy, and I am still 
here locked up and they are living alone. My wife forgotten, without 
work and with two small children. That's very difficult for me. Also, I 
live with so much fear that ICE could retaliate against me because I 
still see them here in the jail.
    [submitted anonymously due to concerns about retaliation]
                                 ______
                                 
                                  November 4, 2019.
Chairman Bennie G. Thompson,
Committee on Homeland Security, U.S. House of Representatives, H2-176 
        Ford House Office Building, Washington, DC 20515.
    Dear Chairman Thompson: When the raid in Mississippi happened in 
Canton on August 7, 2019, I was working in the plant and I was arrested 
that day. Now I am here detained in Richwood Correctional Center 18 
Pine Bayou Circle LA 712020 and I have been 4 months detained.
    I still haven't gotten any information about my court date and the 
immigration officers from the center aren't giving us the medicine we 
need. They aren't giving us much food either. They don't give us soap 
to wash our hands nor to wash clothes etc.
    We want for you to help us be released from detention. My wife is 
not working and I have two children. No one is taking care of them 
economically or taking care of them and that is why I need to be 
released. I need for you to help me be released. We haven't done any 
crimes for them to keep us for such a long time. They have us 
imprisoned for a long time. My family is upset because I have been 
detained for such a long time. Thank you so much I am very grateful.
    My name is [redacted].
                                 ______
                                 
                                  October 19, 2019.
Chairman Bennie G. Thompson,
Committee on Homeland Security, U.S. House of Representatives, H2-176 
        Ford House Office Building Washington, DC 20515.

[This letter was provided by a group of Cuban asylum-seeking detainees 
held in the same facility along with 80 of the Mississippi poultry 
workers detained during the August 7 raid, to testify regarding 
detention conditions following the raid]

    Dear Chairman Thompson: With the following letter we the Cubans are 
sharing our testimony to declare the reality and the injustices that we 
have lived through at the Richwood Correctional Center. The majority 
have been in this facility since the 24th of April, 2019, where we have 
been victims of racism, discrimination and psychological mistreatment 
from the prison guards. We have been witnesses of violence on the part 
of ICE against immigrants. Our objective from this letter is to 
describe and build consciousness with other organizations and entities 
so that they stand in solidarity with the situation we are living in 
this prison. We are all under heavy psychological stress because we 
have been detained for so long. The processes are slow and ICE is not 
following the court decision of the 5th of September 2019, continuing 
to deny parole to 100 percent of people who request for a revision of 
their case. Notices and official rejections are not delivered and in 
all this time ICE officials have not interviewed any detainees for 
parole. We all have sponsors in the community who vouch for us and that 
will be responsible for our well-being during our immigration process. 
These are people who have status in the country, meaning they are 
residents and citizens.
    We all have a national IDs, our birth certificates and you can see 
that we have a clean record. Many of us have professional degrees and 
have the evidence for it. With this evidence, we prove that we are not 
a flight risk. We are demonstrating that we are ready to be integrated 
into American society. In this facility our Cuban brother Roylan 
Hernandez Diaz died tragically in a solitary punishment cell on the 
15th of October 2019. We declare that his death was a product of the 
stress that ICE inflicted on him by not granting him parole, and 
detaining all of us for a very long time in this place. Our fallen 
brother arrived in this prison on June 13, 2019, he submitted his own 
parole request and it was denied. He had a condition in his colon that 
many times was obvious and he expressed it to ICE but neither they nor 
the medical staff of this facility paid any attention. Roylan's death 
is clear evidence of the grave and sad situation in which we are living 
due to the incorrect strategies applied by ICE in this place. The day 
after our beloved Cuban brother died, a Honduran man, Manuel, who 
happens to be homosexual, attempted to kill himself in solitary 
confinement. In the lunchroom 20 Cuban detainees protested, writing 
messages on their shirts demanding prompt release from this place. ICE 
officials and guards from the jail attacked the protesters and injured 
many of them. Also in Bunker A, ICE agent Tunkara choked and injured a 
migrant from Guatemala who came from the raid in Mississippi because he 
did not agree to sign the parole advisory notice without consulting 
with his lawyer. We declare that our situation is provoking an 
emergency of deep and critical depression and we need your help since 
there is so much stress that those detained feel this could cause an 
imminent tragedy. We hope that this letter reaches someone's heart and 
that you have mercy on us.
    We are here to share the injustices we face in this place:
    [Redacted.]
    [Redacted.]
    [Redacted.]
    [Redacted.]
    [Redacted.]
    [Redacted.]
    [Redacted.]
    [Redacted.]
    [Redacted.]
                                 ______
                                 
                                  November 4, 2019.
Chairman Bennie G. Thompson,
Committee on Homeland Security, U.S. House of Representatives, H2-176 
        Ford House Office Building, Washington, DC 20515.
    Dear Chairman Thompson: I am [redacted] from Guatemala. I was 
apprehended by ICE with my wife who is detained in Jena LA. We have 
lost everything because there is no one to help us get out. I have no 
communication with my wife. I am detained in Richwood Correctional 
Facility. I don't know how she is doing, if she is well or not. They 
don't give us medicine here--I have put in requests but they don't 
respond and when we ask for toilet paper they yell at us. Toothbrushes 
too. I beg that you can help me and my wife to get us out of this 
place.
    [Redacted], Canton, MS,
    Detained in Richwood, Louisiana.
                                 ______
                                 
                                   November 3, 2019
Chairman Bennie G. Thompson,
Committee on Homeland Security, U.S. House of Representatives, H2-176 
        Ford House Office Building, Washington, DC 20515.
    Dear Chairman Thompson: I am detained in Richwood Correctional 
Center and I was detained in the Mississippi raids. Here in the jail, 
we feel sad because we are not being treated well. We are treated like 
animals. We don't get soap to bathe, we don't get to go to the doctor.
    We don't even have a schedule for food. They take us at 2am to eat 
breakfast. And sometimes the food has bugs, maggots, and hair in it. We 
can get sick this way.
    We are worried about our families, who are facing eviction and 
don't have food to eat. And we don't know how to get out of here--some 
of us don't have court until January 7. We are in here and our children 
don't have anyone to care for them. We ask for you to help us be 
released from this place. We aren't criminals, we came to build a life 
here in this country with our families.
    Thank you.
    [submitted anonymously due to concerns about retaliation]
                                 ______
                                 
                                  November 3, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman Thompson: Today, on the third of November, I have 
been detained for 3 months. I was among those arrested in the 
Mississippi raid. The reason I am writing to you is to let you know 
about the terrible conditions that we are living in. There is an 
excessive number of detainees in the unit, and the food supplied is 
awful. Because of that we have to buy food from the prison commissary 
but there is only one microwave oven for a hundred of us. It's like 
that with everything--you can't get prompt medical attention if you're 
sick, and our court dates are far off in the future. For that reason 
people here fall into deep depression.
    Due to the above I would like to respectfully want to bring your 
attention to this situation and proceed to improve the situation in 
this correctional facility. We have family waiting for us: wives, 
children, parents, single mothers. We are not criminals. The only thing 
we were doing was working for a better quality of life.
    Thank you very much,
    [Redacted].
                                 ______
                                 
                                  November 2, 2019.
Chairman Bennie G. Thompson,
H2-176 Ford House Office Building, U.S. House of Representatives, 
        Washington, DC 20515.
    Dear Chairman Thompson: I have been detained for 3 months now. In 
each one of the detentions, I have witnessed the mistreatment of the 
detainees and bad conditions that we are exposed to.
    I was detained in the raids in Mississippi. I had been living in 
the United States for 11 years. I arrived in the Richwood Correctional 
Center on August 28. Ever since I arrived to this place, I have seen 
mistreatment and racism by the majority of the guards. We are faced 
with bad nutrition and bad hygiene, and this had evidently affected us. 
We are suffering from physical and emotional exhaustion, and the 
medical attention offered is deficient.
    This brings about situations that affect the rest of us, such as 
the suicide of one of the detainees. There have also been various other 
suicide attempts due to the constant stress that we are exposed to 
daily. Nobody does anything, and nobody seems to care about our 
circumstances. They fumigate us as if we were animals and as animals 
they treat us.
    It is my hope that this complaint reaches to someone who is willing 
to help us to leave from this never ending hell that ICE has subjected 
us to, without having committed any Federal crime.
    Our hope is to have our basic human rights respected. We sincerely 
hope that your can help us.
    Signed this 2d day of November, 2019,
    [Redacted].
                                 ______
                                 
                                  November 3, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman Thompson: Due to violence, I was forced to leave my 
country. I have been working in the United States for over 10 years. I 
was detained in the raid of August 7 of this year. I am waiting for my 
court date and the miracle to get my freedom. I have my wife who is not 
working and my 5-year-old son who needs my care. His pediatrician and 
this teacher told us that he needs a psychologist due to the fact that 
he cannot speak.
    The mistreatment we receive here does not worry me, what worries me 
is my family. I was the provider and the one who took my son to the 
therapies he needs. There is no one to take him to therapy in my 
absence.
    This is all. Thank you.
    [Redacted].
                                 ______
                                 
                                  November 3, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman Thompson: My name is [redacted]. I have already been 
in this detention center for 3 months.
    I requested medical services three times here and still have not 
been seen. I am still sick. My throat hurts. Toilet paper is not 
available, nor is soap or shampoo. If we request for some of these 
items, they get angry. We only have one microwave for more than 100 
people. We really need to get out of here. I am the head of the family. 
I have children here and my wife does not work. She needs to pay the 
rent and the bills, but she does not have the money for food, and I was 
detained in the raid in Mississippi.
    I want for you to do something about this situation so that we can 
leave this place as soon as possible.
    Thank you so much for helping us.
    Signed on November 3, 2019,
    [Redacted].
                                 ______
                                 
                                  November 3, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman Thompson,
    On August 7, 2019, when there was a raid in Canton, Mississippi, I 
was just walking when I got arrested. Now I am detained here in 
Richwood Correctional Center, 180 Pine Bayou Circle, Richwood LA 
712020. I have been here for almost 4 months. I was at the court on 
October 31. When I was there they gave me another court date for 
January 10, 2020.
    Why are they detaining for so long if I have not committed any 
crime. I am very concerned for my 4 children and my wife who is not 
working. Nobody is providing for them. That is why I am so worried for 
my family. And they too, feel very sad for me.
    That is why I am sending this letter to you, so that you can help 
me leave this detention.
    I thank you very much,
    My name is: [Redacted].
                                 ______
                                 
                                  November 3, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman Thompson: My name is [redacted] and I am detained in 
Richwood, Monroe, LA 71202
    I am depressed because of the separation from my children and my 
family, that is, my wife and my grandchildren, who love me. I am 
desperate because of the mistreatment, the raw food--sometimes with 
hair in it--and the medicine that I take for my diabetes. The medicine 
is not at the right time: sometimes it is too early, sometimes too 
late, they do not have a fixed schedule. Sometimes they do not let us 
out in the yard; there is just one microwave for 100 people that are 
here, that is not enough. The beds in the dormitory are very rusted, as 
well as the drawers where we put our lunch in the commissary, they are 
very rusty. That is why I respectfully ask you to take action on this 
matter.
    Thank you.
            Sincerely,
    [Redacted].
                                 ______
                                 
      November 3, 2019, Richwood Center, Louisiana.

Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
Subject: What is happening to us here in jail.

    Dear Chairman Thompson: We do not have a schedule for meals or for 
medicine. They treat us very badly, they bathe us like dogs, and they 
take us breakfast at 2 in the morning. Also, they do not wash clothes 
with soap or bleach. The bathroom is very dirty, they do not give us 
toilet paper or soap to shower, until they feel like giving it to us. 
When someone is sick, they do not take him to the doctor. They treat us 
badly.
    I am suffering and my family too. I do not have the money to pay 
for my families' rent and meals. This raid ruined my life and my 
families. I want to get out of this place sooner because my family does 
not have enough to eat. Please, help us.
    [submitted anonymously due to concerns about retaliation]
                                 ______
                                 
                          Sunday, November 3, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman Thompson: I am Honduran and have been detained by ICE 
in the city of Richwood, Louisiana. The reason [for this letter] is 
because we are not treated well and the jail where we are is in bad 
condition. I have a family that is worried because I have been detained 
for 4 months. I am one of the people who was arrested during the raid 
at the Peco Company in Canton, Mississippi. I think I have been 
detained too long, since I am not any kind of bad person, and that is 
why I am concerned. Maybe my family is worried because they haven't 
heard anything from me, and because I was the only person from my 
family in the United States. I have a father to support, since I was 
the one who worked to send money home to my country, and now my family 
is sad. And I'm sad, too, because some of my friends already went to 
court and they refused to set a bond, and the courts are making others 
wait until January 2020 for their hearing. And we haven't committed any 
crime, and that's why I am asking for your help. It isn't fair for us 
to be detained this long, since our only crime is being immigrants. 
This is why we hope that you can help us get set free, or help us with 
a bond. I want you to hear us, because the time we've had to wait is 
making me desperate. Also, when we get sick they don't give us the 
right medicine for the illness, and that's why I hope you will help us.
    [submitted anonymously due to concerns about retaliation]
                                 ______
                                 
                                  November 3, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman Thompson: Because of the raids on 8/7/2019, my family 
members have been left crying.
    There are three girls that are now alone and without their father.
    Because their father was picked up in Morton Mississippi, they are 
suffering and don't have money to pay their bills and rent.
    I'm suffering here in jail since my daughters are alone, and I have 
also gotten sick from thinking about them so much. I've gotten sick 
here, and they won't even give medicine out for headaches. And my 
daughters are suffering greatly; they all have asthma.
    Thank you.
    [submitted anonymously due to concerns about retaliation]
                                 ______
                                 
                                  November 3, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman Thompson: My reason for telling you right now, here 
in the Richwood Jail Center in Louisiana, part of the Mississippi raids 
on August 7, 2019.
    Here we are suffering from thinking about our children outside. We 
want to leave so we can see them because we aren't delinquents, 
criminals, rapists and thieves. We come to work hard for our lives in 
this country, with our families, to work and get ahead to seek a better 
future.
    We want you to help us get out of this prison. We are just being 
detained here for no good reason, and some of us also have been given 
until January 7 for our court date, and that's a long time away. We 
don't know when we will be able to leave here. Our families are worried 
about us. Many of us do not have money to pay rent, bills, water, light 
and food, and our families are sad.
    Here in this prison we are treated bad--they don't give you soap to 
bathe with, tooth paste or medicines. You find bugs and hair in the 
food and they don't cook it well, serving it pretty raw to us. And some 
of us have gotten sick with sores on our heads and they don't give us 
any medicine.
    We want you to help us. Thank you for helping us.
    [submitted anonymously due to concerns about retaliation]
                                 ______
                                 
                                  November 3, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman Thompson: The motive of this letter is to talk about 
us here at the detention center in Richwood, Louisiana, as part of 
those detained in the Mississippi raids. They treat us badly here in 
the jail. They treat us like animals. They don't provide medical care, 
or soap for all of us. Also, we don't have set schedules for meals or 
anything, and sometimes they take us at two in the morning to eat 
breakfast. The food that they serve us sometimes has insects, flies, 
and hairs. We can get sick in these conditions. Some other folks come 
and give us water that has something that causes rashes in the body. We 
are scared of this illness, and some of us have already contracted it. 
We are also worried about our families, and their ability to pay for 
rent, bills, and food. We don't know when we are going to leave this 
place. They have given some of us a court date on January 7. That is a 
long time. We are worried about our families and our children on the 
outside. We want you to help us to get out of here. We are not 
criminals or delinquents, we came here to fight for a better life for 
our families.
    Please and thank you.
    [submitted anonymously due to concerns about retaliation]
                                 ______
                                 
                                  November 3, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman Thompson: We were arrested during the raids. The 
motive of this letter is the following:
    First, we are detained here at the following address: 150 Pine 
Bayou Circle, Corrections Center, Richwood, Louisiana, 71202.
    In the first place, they are treating us like criminals, and we are 
not criminals. For example, we don't have any type of schedule for 
meals, and we eat rice and beans every day. And it is not fair that 
they do that. If one person gets sick, from some type of allergy that 
they might have, they make us all shower. And not all of us are the 
same. Some of us get sick because the metals and the metal bars around 
us are rusty. The jail is old. The bathrooms do not work well, we all 
have to shower together, and they do not clean the bathrooms. There is 
only one microwave for every 100 people to heat water or something 
else. They do not give us medicine, and when someone is sick, they 
don't take us to the nurse right away. Sometimes they take 3 or 4 days, 
or even more in some cases.
    [submitted anonymously due to concerns about retaliation]
                                 ______
                                 
                                  November 4, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
Held in Detention From Richwood Correctional, Unit A From the Raid on 
August 7, 2019.

    Dear Chairman Thompson: With tears in my eyes I write this 
testimony. Locked up for 3 months experiencing the absence of my family 
that I love so much. My little daughter that was born with Downs 
syndrome, my wife facing the economic emergency of paying all the 
bills, and me, living badly, eating badly. When I get sick, they never 
give me medicine. There is no medical attention. My fellow detainees 
are trying to take their own lives and some have already taken their 
own lives. We're in a jail with no hygiene. The beds are dirty, they 
barely give us toilet paper. Sometimes we want to call but there's no 
way to do it. We miss our families.
    Blessings to all.
    [submitted anonymously due to concerns about retaliation]
                                 ______
                                 
                                  November 3, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Hello, good evening, my name is [redacted] I address you with much 
respect. The purpose of this letter, is to explain my situation, since 
I was detained in the Mississippi raid. I'm single but they say that 
being single they say that I don't have the right to be in the United 
States. I think that they're wrong since I've already spent half my 
life here in the United States, and I'm used to this country. I have 
dreams like every person being held here. I don't think that I'm less 
than the ones that have families, there are many like me but we all 
have someone to fight for, maybe not here but in our countries, maybe 
providing for a sick mother or giving them a better life or whatever it 
is. That's what I think. Here in prison they take away your rights as a 
person, the situation here is awful to the point that there are people 
that lose their life and turn to suicide. That's very painful for their 
families.
    The food is awful, it's not healthy at all, and the medical 
attention is even worse. They don't have a place that's equipped to 
care for a person that's seriously ill since they don't have the 
appropriate training. I'll tell you a case of one of the detainees from 
the raid. He had never suffered anything like it, now he suffers from 
attacks because of so much anxiety. Recently he suffered another after 
knowing that he wasn't getting out soon and that his next court date 
would be in 2 months. Too much time, and that's why he suffered the 
attack. People from this prison didn't know what to do since they're 
not prepared for this type of situation. As for me, I say that this 
system is very wrong. Thank you for your attention . . . 
    [Redacted]
                                 ______
                                 
                                  November 3, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman Thompson: My name is [redacted].
    I live in Laurel Mississippi and I was arrested in the raid. All of 
this that I'm going through is very difficult for me and for my family. 
I have two children that are suffering because of me not being at their 
side. Being locked up here is very difficult since I've gone 3 months 
without seeing them, and here they treat one as if one is worthless. 
We're not criminals. I'd give anything to be with my family. My girl is 
3 years old and my boy is one. They depend on me. I'm currently 
detained in Richwood Correctional Center since August 28. Since I 
arrived here I've suffered psychologically, the food is awful and the 
living and hygiene conditions are not favorable, the medical attention 
is not good. Since I arrived, I've suffered racism from the officers. 
This has affected me very much since the separation from my children is 
weighing on me heavily.
    [Redacted].
                                 ______
                                 
                                  November 4, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman Thompson: I was detained the 7 of August in the raid 
that happened in Morton, Mississippi, and they aren't setting a bond 
for my release. Also my mother is sick and I don't have much 
communication with them. I am sad because we don't know when they will 
free us to be with my mother and father. I'm detained in Richwood 
Correctional Center, Louisiana. The day I entered here they started 
treating me badly, because when we have needs here sometimes they take 
care of us and sometimes they don't. Also they serve us uncooked food 
and it has made me sick.
    Thank you for everything you do for us, may God bless you in your 
efforts.
    [Redacted].
                                 ______
                                 
                                  October 19, 2019.
Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
Petition to the United States Congress--Washington, DC

    Dear Chairman Thompson/Dear Representative of Jackson Mississippi: 
With utmost respect I address myself to you in order to inform you that 
I was detained during the raid that took place on August 7, 2019 in 
Morton, MS. I am currently being detained in the state of Louisiana at 
the Richwood Correctional Center, 180 Pine Bayou Circle, Richwood, LA 
71202.
    In this prison, if you have a medical problem they don't even have 
basic medications to address the problem. If any serious problem were 
to happen, it would not be of my own doing.
    I have been held in this jail, deprived of my liberty, for two 
months and twelve days to date. I have not yet received any notice of a 
hearing date in immigration court.
    I have a prior asylum case currently in immigration court, after 
receiving my credible fear determination.
    I complied with seven check-ins and three court dates in New 
Orleans and Perla, MS. I submitted myself to a fingerprint scan for 
Immigration in Jackson, Mississippi and the results were positive 
proving I have a clean record.
    I also had a check in scheduled on August 8, 2019, which I was not 
able to attend because I had been detained in the aforementioned raid, 
even though I informed the immigration agents of the check-in. I would 
also like to let you know that I have a wife and children who depend on 
me. I am currently unaware of their situation.
    Thank you very much.
            Sincerely,
    [Redacted]
    [Redacted]
                                 ______
                                 
    October 19, 2019, Richwood Correctional Center.

Chairman Bennie G. Thompson,
U.S. House of Representatives, H2-176 Ford House Office Building, 
        Washington, DC 20515.
    Dear Chairman Thompson: I write you this letter anonymously as I 
fear reprisals against me. I am a 22-year-old Cuban. I have been under 
the custody of I.C.E. for 5 months, which have been the worst 5 months 
of my life. Never, since I left my country had I felt like an animal. 
Since the first day, I have witnessed situations of violence, 
discrimination, and racism. Little by little this situation has started 
to affect my self-esteem and mental health. I can't fathom such 
mistreatment just for arriving here and wanting another opportunity at 
life. Less than a week ago, a Cuban friend committed suicide. He was 
undergoing pressure, uncertainty, desperation, negative feelings, all 
that are pervasive daily in the minds of each and every one of us.
    I must stress the fact that many of the people who are here with me 
have come to the US precisely trying to escape conditions in our 
countries, and we are again finding here: physical, verbal, and 
psychological abuse, and to be detained without a criminal cause. The 
conditions in this detention center are the worst. At Richwood 
Correctional Center, which is also known by the detainees as the 
``Cemetery of Living Men'', we know how we came in, but will not know 
how we will leave. I have witnessed violence against the detainees by 
the I.C.E. officers and the personnel that is supposedly taking care of 
us.
    We have no rights, not even to ask for toilet paper. Winter is 
approaching and temperature is dropping, and we have not received any 
warm clothing nor blankets. When asked about when we will have access 
to these items, we are told to go buy them at the commissary. And there 
are people who don't have any money for a simple telephone call.
    Following this process I am in, I have been under the torture of 
I.C.E., where even complying with all the requirements necessary to be 
freed, they have denied my freedom twice justifying it by saying that 
``In Louisiana we don't give parole, because we don't feel like it.''
    Who has the right to refuse my liberty just because I want an 
opportunity at life? Who has the right to treat us as dogs in a pound? 
I.C.E. represents the Nazis of the 21st Century. We are now the Jews 
locked up in concentration camps waiting for a date, and what for? Who 
knows? We are tired of having our rights as human beings violated.
    We ask and beg for a ray of hope that will help us to be freed from 
this endless hell. But this inferno is also being experienced by those 
outside who see how our minds and bodies are being worn out. It will be 
an indelible image and a trauma that we will never be able to overcome 
completely. Here we only receive responses such as: ``We didn't invite 
you to our country.''
    We do have the desire to resist, but we are also exhausted. Nobody 
knows what is going on, but it is due time for the world to know what 
it is like in I.C.E. concentration camps.
    This is it, from a 22-year-old young man who wants to live.
    [submitted anonymously due to concerns about retaliation]
                                 ______
                                 
Chairman Bennie G. Thompson,
Committee on Homeland Security, U.S. House of Representatives, H2-176 
        Ford House Office Building, Washington, DC 20515.
    Dear Chairman Thompson: My name is Jose Rafael Gonzalez. I live in 
Morton, one of the poorest regions in Mississippi. I have lived in 
Mississippi for 17 years and have grown to see this place as my new 
home. I know most of the residents in the small town of Morton and 
consider them family and friends. I was saddened to see what happened 
to many of them during the recent raids.
    On 2002, I came to Mississippi from Veracruz, Mexico, to help my 
family. I was sad to leave my family in Mexico, but I came because of 
necessity. There were no jobs or opportunities in Mexico.
    When I first arrived, I found a job at Koch Foods cutting and 
processing poultry. I worked there for 12 years. It was a very 
oppressive workplace. I was paid low wages, suffered discrimination, 
and the supervisors constantly pushed us to cut and process more and 
more poultry on the line. I was forced to leave my job after speaking 
up to my supervisor. I was suspended from work in retaliation and was 
not allowed to come back.
    After leaving Koch Foods, I went to work at several other poultry 
plants, and continue this work today. From my experience working at 
poultry plants, I know firsthand that workers are scared to speak up 
about the abuse and unsafe conditions at work. Many workers are not 
paid what they are owed or would suffer accidents, since our work 
cutting poultry is dangerous.
    Many workers are scared of speaking up about these conditions, 
because the supervisor or owner might fire them or call ICE. Many are 
scared because they don't have papers and don't think they have rights. 
Bosses and supervisors routinely use workers' immigration status to 
silence them. They hire workers who don't have papers, so they can 
humiliate and abuse them.
    The recent ICE raid was devastating to our community. Many people I 
know lost their jobs and were detained. Some were deported to other 
countries. These workers were unjustly targeted. They just wanted to 
work and help their families. ICE did not have to come here and do this 
to us.
    I think these raids were unjust. These raids are going to silence 
even more workers in the future and make it harder for workers who are 
facing abuses at work to speak up. I have been telling workers to not 
be afraid, that we need to speak up and share our experiences. We 
cannot be afraid and need people in Washington and other places to hear 
our voices.
    What happened in Morton and in Mississippi was unjust and caused a 
lot of damage. The people of Mississippi were left traumatized.
    Thank You.

    Chairman Thompson. We have redacted some of the 
information. But their stories on what they have gone through 
since August is gut-wrenching, at best.
    I want to thank, again, all of our witnesses. You shared 
the information. We take this back. We take it seriously. We 
will do all we can and, hopefully, we will fix some of this. 
But we need to get it on the record.
    So, again, the Members of the committee may have additional 
questions for you and we ask that you respond expeditiously in 
writing to those questions.
    Hearing no further business, the committee stands 
adjourned.
    [Applause.]
    [Whereupon, at 1 p.m., the committee was adjourned.]



                            A P P E N D I X

                              ----------                              

   Question From Chairman Bennie G. Thompson for Lorena Quiroz-Lewis
    Question 1. The committee appreciates the various personal 
statements and stories of affected individuals you provided. Are there 
any additional stories from affected individuals that would be helpful 
for the committee to have for better context and insight into the 
effects of these raids on Mississippi communities?
    Answer. Response was not received at the time of publication.
      Questions From Chairman Bennie G. Thompson for Jere T. Miles
                              coordination
    Question 1. During the hearing and in letters received by the 
committee, you testified that ICE agents contacted a number of school 
districts during the August 7 operation. However, you also stated that 
it was an oversight that did not contact the Canton school district 
where a targeted chicken plant is located. How did ICE determine which 
schools to contact? What was the time frame for contacting schools to 
notify them of the operation?
    Answer. Response was not received at the time of publication.
    Question 2. In the aftermath of the August 7 worksite enforcement 
actions, did ICE coordinate with the Mississippi Department of Child 
Protection Services on any tips received through the hotline 
established by ICE for these raids to ensure all children were 
accounted for? Any Sheriff's or other law enforcement agency? Why or 
why not?
    Answer. Response was not received at the time of publication.
                         operational decisions
    Question 3. ICE Directive 11064.2, Detention and Removal of Alien 
Parents or Legal Guardians, directs ICE personnel to ``accommodate, to 
the extent practicable, an apprehended parent or legal guardian's 
efforts to arrange for childcare for their minor child(ren), absent any 
indication of child abuse or neglect.''
  <bullet> What procedures were in place to ensure caregivers were 
        given the ability to make alternate arrangements for their 
        children during the August 7 operations?
  <bullet> How many people made use of this procedure?
  <bullet> The media reported only 10 phones were available for the 680 
        workers that were arrested to make alternate arrangements and 
        you testified that there were 11 cell phones available. How did 
        ICE determine the number of phones needed for the operation? 
        How were these phones distributed across processing sites? How 
        much time were individuals allowed to use these phones?
    Answer. Response was not received at the time of publication.
    Question 4. According to ICE's press releases, over 600 agents and 
officers participated in the August 7 raids. What method was used to 
determine the number of agents and officers needed? Was ICE aware of 
the number of individuals that could potentially be arrested?
    Answer. Response was not received at the time of publication.
    Question 5. A substantial number of the migrants arrested are from 
indigenous populations in Guatemala, many of whom don't speak Spanish 
very well or at all. In the year-long investigation into these 
companies, when did ICE become aware that a large number of indigenous 
Guatemalan workers were employed at these plants?
  <bullet> Ms. Lorena Quiroz testified that the indigenous Guatemalans 
        had problems understanding directions from ICE during the raids 
        and could not understand questions they were asked about 
        children. Besides the 120 Spanish-speaking agents ICE deployed 
        to Mississippi, what accommodations were made for individuals 
        who spoke indigenous languages to ensure they understood the 
        questions being asked by ICE agents?
    Answer. Response was not received at the time of publication.
    Question 6. Did ICE conduct any screenings for other labor 
violations such as human trafficking during the operation?
    Answer. Response was not received at the time of publication.
                          targeting of workers
    Question 7. In the past, ICE has typically prioritized worksite 
enforcement in industries involving critical infrastructure or 
companies with egregious violations. Generally, how does ICE prioritize 
different industries and workplaces for targeted enforcement actions 
now? How are targets selected?
  <bullet> How are enforcement priorities set in the context of 
        worksite enforcement actions? How are targets for worksite 
        enforcement actions selected?
  <bullet> How does the targeting of poultry plants in Mississippi fit 
        those criteria?
    Answer. Response was not received at the time of publication.
    Question 8. Prior to the start of the operation, how many 
individuals were directly targeted for arrest? How many people were 
picked up as collateral arrests?
    Answer. Response was not received at the time of publication.
                        ice targeting technology
    Question 9. According to the Southern Poverty Law Center, ICE 
appears to be increasingly relying on surveillance technology to target 
individuals for arrest and deportation. For example, in the search 
warrants used for the Mississippi raids, ICE referred to a program 
named FALCON Tip Line (FALCON-TL) as a source for information used to 
execute these warrants. The committee understands that FALCON-TL is a 
system that connects manually entered ``tips'' from the public with 
various law enforcement databases and other open-source data through 
FALCON Search and Anaylsis (FALCON-SA). This process then creates leads 
for ICE personnel to use in investigations and other operations.
  <bullet> What kind of information is needed before a ``tip'' can be 
        entered into FALCON-TL?
  <bullet> How is the information gleaned from FALCON-SA used in 
        investigations of individuals targeted for arrest? What 
        Government, open-source and/or commercial databases such as 
        CLEAR are searched in FALCON-SA as part of this process?
  <bullet> Please provide the committee with a list of all tips that 
        were logged by ICE personnel and entered into FALCON-TL related 
        to the August 7 workplace raids in Mississippi.
    Answer. Response was not received at the time of publication.

                                 <all>
</pre></body></html>
